NO. 20 In the

Supreme Court of the United States
________________
MARK ELLIOTT, LAWRENCE B. DVORES,
PETER C. HEIN,

Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO, ET AL.,
Respondents.
________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI

________________
PETER C. HEIN

RAFAEL A. GONZÁLEZ VALIENTE

101 Central Park West, 14E
New York, New York 10023
(917) 539-8487
petercheinsr@gmail.com

Godreau & González Law, LLC
PO Box 9024176
San Juan, Puerto Rico 00902-4176
(787) 726-0077
rgc@g.glawpr.com

Petitioner

Counsel of Record

Counsel for Petitioner Elliott

LAWRENCE B. DVORES

Petitioner

28 Sherbrooke Parkway
Livingston, New Jersey 07039
(973) 535-5000
LDvores@yahoo.com

April 2021

QUESTIONS PRESENTED
1.

2.

In a case in which the appellants have a
statutory right of appeal and the court of
appeals has Article III and statutory
jurisdiction, may the court of appeals invoke a
judge-made doctrine of “equitable mootness” to
dismiss, and thus decline to hear the merits of,
an appeal of an order confirming a bankruptcy
plan.
If “equitable mootness” may ever be invoked,
may a court of appeals invoke “equitable
mootness” to dismiss an appeal by secured
creditors, who assert that their constitutional
rights have been violated, and who seek relief
on appeal — including monetary compensation
— that would affect only a government which is
a party to the appeal and which took the secured
creditors’ property without just compensation,
and that would not affect “innocent” persons not
parties to the appeal.

(i)

ii
LIST OF PARTIES TO THE PROCEEDING
Petitioners here, Appellants below in First
Circuit Case No. 19-1182, are Mark Elliott, Lawrence
B. Dvores, and Peter C. Hein.
Respondents here, Appellees below in First
Circuit Case No. 19-1182, are Financial Oversight and
Management Board for Puerto Rico, as Representative
for the Commonwealth of Puerto Rico; Financial
Oversight and Management Board for Puerto Rico, as
Representative for the Puerto Rico Sales Tax
Financing Corporation, a/k/a COFINA; Puerto Rico
Fiscal Agency and Financial Advisory Authority.
Respondents here, Intervenors below, are
Aristeia Capital, LLC; Canyon Capital Advisors, LLC;
Golden Tree Asset Management LP; Old Bellows
Partners LLP; Scoggin Management LP; Taconic
Capital Advisors, L.P.; Tilden Park Capital
Management LP; Whitebox Advisors LLC.

Respondent-Appellee Financial Oversight and
Management Board for Puerto Rico (“FOMB”), as
Representative for the Commonwealth of Puerto Rico,
is referred to herein as “FOMB-Commonwealth” or
“Commonwealth.”
Respondent-Appellee Financial Oversight and
Management Board for Puerto Rico (“FOMB”), as
Representative for the Puerto Rico Sales Tax
Financing Corporation, a/k/a COFINA, is referred to
herein as “FOMB-COFINA” or “COFINA.”

iii
RULE 29.6 DISCLOSURE STATEMENT
Because no Petitioner is a corporation, a
corporate disclosure statement is not required under
Supreme Court Rule 29.6.

iv
RELATED PROCEEDINGS
This petition arises out of two debt adjustment
proceedings under Title III of the Puerto Rico
Oversight, Management and Economic Stability Act,
48 U.S.C. §§2101 et seq.:
 In re Financial Oversight and Management
Board for Puerto Rico, 17-BK-3283 (LTS),
United States District Court for the District of
Puerto Rico, Judgment appealed from entered
February 5, 2019.
 In re Puerto Rico Sales Tax Financing
Corporation, 17-BK-3284 (LTS), United States
District Court for the District of Puerto Rico,
Judgment appealed from entered February 5,
2019.
This petition seeks to review the judgment of
the United States Court of Appeals for the First
Circuit in Case No. 19-1182, one of three appeals that
were consolidated for purposes of briefing and oral
argument by the First Circuit:
 Rene Pinto-Lugo, et al., Movants-Appellants v.

Financial Oversight and Management Board for
Puerto Rico, as Representative for the
Commonwealth of Puerto Rico, et al., DebtorsAppellees, Case No. 19-1181 in the United



States Court of Appeals for the First Circuit,
Judgment entered February 8, 2021.
Mark Elliott, et al., Movants-Appellants v.

Financial Oversight and Management Board for
Puerto Rico, as Representative for the
Commonwealth of Puerto Rico, et al., DebtorsAppellees, Case No. 19-1182 in the United

v



States Court of Appeals for the First Circuit,
Judgment entered February 8, 2021.
Peter C. Hein, Movant-Appellant v. Financial

Oversight and Management Board for Puerto
Rico, as Representative of the Commonwealth of
Puerto Rico, et al., Debtors-Appellees, Case

No. 19-1960 in the United States Court of
Appeals for the First Circuit, Judgment entered
February 8, 2021.

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
LIST OF PARTIES TO THE PROCEEDING ............ ii
RULE 29.6 DISCLOSURE STATEMENT ............... iii
RELATED PROCEEDINGS...................................... iv
TABLE OF AUTHORITIES ....................................viii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS AND ORDERS BELOW ......................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISIONS AND STATUTES
INVOLVED ................................................................. 1
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE.................................... 5
A.
Petitioners’-Appellants’ Bonds Were
Secured by a Statutory Lien........................ 6
B.
The Plan Proposed by RespondentAppellee FOMB ............................................ 8
C.
Proceedings in the Courts Below .............. 11
REASONS FOR GRANTING THE WRIT ............... 16
I.
THIS COURT HAS NEVER ADOPTED
THE JUDGE-MADE “EQUITABLE
MOOTNESS” DOCTRINE, WHICH IS
CONTRARY TO THIS COURT’S
JURISPRUDENCE.................................... 16
II.
THE
“EQUITABLE
MOOTNESS”
DOCTRINE
LACKS
A
CONSTITUTIONAL OR STATUTORY
BASIS AND HAS BEEN CRITICIZED,
INCLUDING BY JUSTICE ALITO
WHILE SITTING ON THE THIRD
CIRCUIT .................................................... 20

vii
III.

THE
CIRCUITS
ARE
DIVIDED
REGARDING HOW THE “EQUITABLE
MOOTNESS” DOCTRINE IS TO BE
APPLIED ................................................... 29
IV. THIS CASE IS AN APPROPRIATE
VEHICLE
FOR
REVIEW
OF
WHETHER AND UNDER WHAT
CIRCUMSTANCES THE “EQUITABLE
MOOTNESS” DOCTRINE CAN BE
USED
TO
DENY
APPELLATE
REVIEW ..................................................... 37
CONCLUSION ......................................................... 39
APPENDIX A — First Circuit’s Opinion
(987 F.3d 173) (February 8, 2021) ...................... 1a
APPENDIX B — District Court’s Amended
Memorandum of Findings of Fact and
Conclusions of Law in Connection With
Confirmation of the Third Amended
Title III Plan of Adjustment of Puerto
Rico Sales Tax Financing Corporation
(Docket# 5053 in Case-17-BK-03283LTS, 361 F.Supp.3d 203) (February 5,
2019)................................................................... 35a
APPENDIX C — Constitutional Provisions
and Statutes Involved ..................................... 154a
Article III, Section 2,
clause 1 ......................................................... 154a
28 U.S.C. §1291 ............................................... 154a
48 U.S.C. §2166(e)(1) and (e)(2) ...................... 155a

viii
TABLE OF AUTHORITIES
Cases

American United Mut. Life Ins. Co. v. City
of Avon Park,

Page(s)

311 U.S. 138 (1940) ............................................. 15
Calder v. Bull,
3 U.S. 386 (1798) ................................................. 15
City of Covington v. Covington Landing,
L.P.,
71 F.3d 1221 (6th Cir. 1995) ............................... 33
Cohens v. Virginia,
19 U.S. 264 (1821) ............................................... 21
Colorado River Water Conservation Dist. v.
United States,
424 U.S. 800 (1976) ................................. 22, 23, 38
Gelboim v. Bank of America Corp.,
574 U.S. 405 (2015) ............................................. 18
Hall v. Hall,
138 S.Ct. 1118 (2018) .......................................... 18
In re American HomePatient, Inc.,
420 F.3d 559 (6th Cir. 2005) ......................... 30, 33
In re Bate Land & Timber LLC,
877 F.3d 188 (4th Cir. 2017) ............................... 30
In re City of Detroit,
838 F.3d 792 (6th Cir. 2016) ............................... 22
In re City of Stockton,
909 F.3d 1256 (9th Cir. 2018) ........................ 22-23
In re Commercial Western Finance Corp.,
761 F.2d 1329 (9th Cir. 1985) ..................... 15 n.43

ix

In re Continental Airlines,

91 F.3d 553 (3d Cir. 1996) ........... 3, 4-5, 21, 26, 27,
33, 37-38
In re Efron,
535 B.R. 516 (Bankr.D.P.R. 2014),
aff’d, 529 B.R. 396
(B.A.P. 1st Cir. 2015)............................... 23, 28, 35
In re Envirodyne Industries, Inc.,
29 F.3d 301 (7th Cir. 1994) ................................. 30
In re Healthco Int’l, Inc. v. Hicks,
136 F.3d 45 (1st Cir. 1998) .......................... 35 n.68
In re Mansaray-Ruffin,
530 F.3d 230 (3d Cir. 2008) ......................... 15 n.43
In re Old Cold,
976 F.3d 107 (1st Cir. 2020) ........................ 35 n.68
In re One2One Communications, LLC,
805 F.3d 428 (3d Cir. 2015) ................ 21-22, 26, 38
In re Pacific Lumber Co.,
584 F.3d 229 (5th Cir. 2009) ......................... 22, 32

In re Public Service Company of
New Hampshire,

963 F.2d 469 (1st Cir. 1992) ................................ 17
In re SCOPAC,
624 F.3d 274 (5th Cir. 2010), modified in
part, 649 F.3d 320 (5th Cir. 2011) ...................... 30
In re Semcrude, L.P.,
728 F.3d 314 (3d Cir. 2013) .............. 28n.62, 32, 33
In re Texas Grand Prairie Hotel Realty,
L.L.C.,
710 F.3d 324 (5th Cir. 2013) ................... 30, 32, 33
In re Transwest Resort Properties, Inc.,
801 F.3d 1161 (9th Cir. 2015) ............................. 30

x

Mission Product Holdings, Inc. v.
Tempnology, LLC,

139 S.Ct. 1652 (2019) .................. 2-3, 17, 18-19, 38
Old Cold, LLC,
558 B.R. 500 (B.A.P. 1st Cir. 2016), aff’d,
879 F.3d 376 (1st Cir. 2018) ......... 28 n.62, 35 n.68
PPUC Pennsylvania Public Utility Comn. v.
Gangi,
874 F.3d 33 (1st Cir. 2017) .................... 17, 35 n.68
United States v. Security Industrial Bank,
459 U.S. 70 (1982) ......................................... 20, 23
Constitution
Art. III, § 2, clause 1 .................... i, 2, 4, 16, 17, 18, 37
Statutes
28 U.S.C. §1254(1) ...................................................... 1
28 U.S.C. §1291........................................... 3, 6, 17, 18
48 U.S.C. §2101...................................................... iv, 5
48 U.S.C. §2166(a) ...................................................... 5
48 U.S.C. §2166(e)(1) ................... 6, 13 n.36, 18, 33-34
48 U.S.C. §2166(e)(2) ....................... 3, 6, 17, 19, 33-34
Rules
Bankruptcy Rule 3020(e) .............................. 12, 27, 37
Bankruptcy Rule 7001(2) ................................... 14, 32
Fed.R.App.P. 4(a)(1)(A)..................................... 13 n.36
Other Authorities
Avron, Equitable Mootness: Is It Time for
the Supreme Court to Weigh In?, 36-MAR
Am.Bankr.Inst.J. 36 (2017) ................................... 24

xi
Markell, The Needs of the Many: Equitable
Mootness’ Pernicious Effects,
93 Am.Bankr.L.J. 377 (2019) ................ 4, 23-24, 29,
34, 38

PETITION FOR A WRIT OF CERTIORARI
_________________________
OPINIONS AND ORDERS BELOW
The First Circuit’s opinion (App.1a-34a) is
reported at 987 F.3d 173.
The District Court’s opinion (App.35a-153a) is
reported at 361 F.Supp.3d 203 and its amended order
and judgment is reported at 366 F.Supp.3d 256.
JURISDICTION
The First Circuit entered judgment February 8,
2021. This Court’s jurisdiction is invoked under 28
U.S.C. §1254(1).
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
Pertinent provisions are reproduced in
Appendix C (App.154a-155a).
Article III, Section 2,
clause 1.......................................................... 154a
28 U.S.C. §1291 ................................................ 154a
48 U.S.C. §2166(e)(1) and (e)(2) ....................... 155a

(1)

2
INTRODUCTION
The First Circuit invoked a judge-made doctrine
of “equitable mootness” to dismiss Petitioners’Appellants’ appeal of an order confirming a
bankruptcy plan — even though Petitioners had a
statutory right to appeal and the court of appeals had
Article III and statutory jurisdiction (App. 17a-18a).1
As a result, the First Circuit never reached the merits
of the appeal, which included Petitioners’ claim that
their rights under the Constitution — as holders of
bonds secured by a statutory lien — were violated.
Whether the judge-made doctrine of “equitable
mootness” gives a court of appeals discretion to
dismiss an appeal without reaching the merits
warrants review by this Court, and this case is an
appropriate vehicle to consider that question. In brief:
1. This Court has never adopted the judgemade “equitable mootness” doctrine. While courts of
appeals have invoked the doctrine, it is at odds with
this Court’s precedent. Thus, in Mission Product Holdings v. Tempnology, 139 S.Ct. 1652 (2019) — reversing
a decision by the First Circuit in a bankruptcy case —
this Court ruled that “[u]nder settled law” an appeal
over which the court has jurisdiction may be dismissed
as moot “only if ‘it is impossible for a court to grant any
effectual relief whatever.’” Id. at 1660 (citation omitted).
The First Circuit acknowledged that, under
Mission, jurisdiction existed in this case, yet asserted
that mootness “encompasses ‘equitable considerations’
as well” such that it could dismiss the appeal and
1

987 F.3d at 181.

3
never reach the merits (App. 17a-18a).2 However,
there is no statutory authorization for the First
Circuit’s refusal to reach the merits.
To the contrary, 48 U.S.C. §2166(e)(2) — which
is part of PROMESA — is mandatory: “The court of
appeals … shall have jurisdiction of appeals from all
final decisions, judgments, orders and decrees entered
under this subchapter by the district court.”
(emphasis added). Likewise, jurisdiction under 28
U.S.C. §1291 is mandatory (“shall have jurisdiction of
appeals from all final decisions of the district courts”)
(emphasis added).
There is no exception to these statutory rights
of appeal that denies parties the right to appeal
bankruptcy plan confirmation orders, or that
conditions the right to appeal on seeking or obtaining
a stay.
2. The “equitable mootness” doctrine has been
criticized by both appellate judges and commentators.
For example, Justice Alito — writing in dissent
while on the Third Circuit — called “equitable
mootness” a “curious” doctrine, In re Continental
Airlines, 91 F.3d 553, 567 (3d Cir. 1996). As thenjudge Alito pointed out, the Bankruptcy Code does
contain several “narrow” provisions that prevent the
upsetting of certain specific transactions (id. at 56970) — but bankruptcy plan confirmation is not one of
them. Likewise, then-Judge Alito noted that failure to
seek or obtain a stay might limit the relief to parties
who succeed on the merits of an appeal, but “cannot

2

987 F.3d at 181.

4
justify the refusal at the outset even to consider their
arguments” (id. at 572).
Equitable mootness has also been criticized by
scholars, such as Professor Markell of Northwestern
University School of Law, whose seminal article “The

Needs of the Many: Equitable Mootness’ Pernicious
Effects,” 93 Am.Bankr.L.J. 377 (2019), describes the

questionable origin of the doctrine and details its
many pernicious effects.
3. Professor Markell notes that, while every
circuit court has addressed and adopted some form of
equitable mootness, “[t]he approaches … are a study
in disuniformity” (id. at 384-85, 393-97). The First Circuit’s decision conflicts with decisions of other circuits
concerning how this “curious” judge-made doctrine is
to be applied — including (i) whether it can be invoked
when (as here) the relief sought on appeal would not
affect innocent persons not parties to the appeal, (ii)
whether it can be invoked to dismiss an appeal by secured creditors claiming a constitutionally protected
property interest, and (iii) whether seeking or obtaining a stay of confirmation is a prerequisite to appellate
review even when the relief sought would not affect innocent persons not parties to the appeal.
The division of the courts of appeals on how
equitable mootness — if it is recognized — is to be
applied is an additional reason to hear this case.
4. This case is a particularly appropriate vehicle for review of whether the doctrine of “equitable
mootness” permits the court of appeals to decline to
entertain the merits notwithstanding Article III and
statutory jurisdiction. In contrast to what occurred in
other cases, such as In re Continental Airlines, 91 F.3d

5
553, 568 (3d Cir. 1996), here petitioners did contest in
the court of appeals whether there was any valid basis
for a doctrine of “equitable mootness.”
Further, in light of most circuits endorsing some
form of “equitable mootness,” and the constraints on
the ability of one panel to overturn a precedential
opinion from its circuit, this case represents what may
be a rare opportunity for this Court to determine
whether this “curious” doctrine comports with this
Court’s jurisprudence.
And even if “equitable mootness” is to be
recognized, this case permits this Court to address
under what circumstances the doctrine may properly
be invoked, and resolve conflicts between the circuits
in how this judge-made doctrine is to be applied.
STATEMENT OF THE CASE
This case arises out of the Puerto Rico Title III
bankruptcy proceeding, following Congress’ adoption
in June 2016 of a new statute, PROMESA, 48 U.S.C.
§§2101 et seq. Prior to PROMESA, COFINA did not
have a right to file a bankruptcy petition. However,
PROMESA (as interpreted and applied by the district
court) authorized Puerto Rico entities — including
Respondent-Appellee COFINA — to file in
bankruptcy, without even proof of insolvency.
The district court had jurisdiction, 48 U.S.C.
§2166(a), and entered judgment February 5, 2019
confirming the bankruptcy plan.3
Petitioners’Appellants’ notice of appeal was timely-filed on

3

366 F.Supp.3d 256.

6
February 19, 2019.4 The Court of Appeals had
jurisdiction. 48 U.S.C. §§2166(e)(1),(e)(2); 28 U.S.C.
§1291.
The questions presented for decision by this
Court, concerning whether and under what
circumstances a court of appeals can invoke a judgemade doctrine of “equitable mootness” to dismiss an
appeal, do not turn on the merits of Petitioners’Appellants’ appeal — merits never reached by the
First Circuit — or the specific facts of this case.
However, to provide this Court with the context in
which the questions presented arise, the following
statement of the case is presented. This statement is
drawn from record materials in the Appendix before
the First Circuit and merits arguments advanced in
Petitioners’-Appellants’ opening and reply briefs in the
First Circuit.5
A.
Petitioners’-Appellants’ Bonds Were Secured
by a Statutory Lien
Petitioners-Appellants purchased COFINA
subordinate bonds “secured by a statutory lien against
pledged SUT [sales and use tax] revenue” which “does
not constitute a resource ‘available’ to the
Commonwealth” (to quote Respondent-Appellee
FOMB’s brief in an earlier First Circuit appeal).6 By
Appendix (docketed in First Circuit Docket-19-1182 5/4/2020):
JA-14-2246.

4

5 Per First Circuit procedures, final versions of Appellants’
Opening Brief (with accompanying Addendum) and Reply Brief,
each with Appendix citations added, were docketed in First
Circuit Docket-19-1182 on 5/1/2020. The Appendix was
docketed in 19-1182 on 5/4/2020.
6

Appendix (docketed in 19-1182 5/4/2020): JA-11-1426,1428.

7
Commonwealth statute, pledged revenues were
“transferred to, and shall be the property of COFINA”
and were not resources available to Commonwealth.7
Commonwealth by statute “agree[d] and
assure[d]” bondholders that, until bonds were paid
with interest, Commonwealth would not limit or
restrain rights or powers to levy or collect pledged
taxes to meet COFINA’s agreements with
bondholders, and “[n]o amendment” to the authorizing
statute “shall undermine any obligation or
commitment of COFINA.”8 Principal and interest
could not be altered without each bondholder’s
consent.9
The statutory lien and the statutory
undertakings were described in the official statements
used to sell COFINA bonds nationwide.10
As late as November 2019, Commonwealth’s
legislature, in New Bond Legislation, acknowledged
that COFINA bondholders had had a lien over pledged
revenues, stating “[t]hese amendments will serve to
release the lien that holders of COFINA bonds
Addendum accompanying Appellants’ Brief (docketed in
19-1182 5/1/2020): Addendum-III-069-070-Act-18-2009-pp.45(§2)[amending-(§3)]; Appendix (docketed in 19-1182 5/4/2020):
JA-11-1465,1474.
7

Addendum accompanying Appellants’ Brief (docketed in
19-1182 5/1/2020): Addendum-III-073-074-Act-18-2009-pp.8-9(§4)[amending-(§5(c))], Addendum-IV-007; Appendix (docketed
in 19-1182 5/4/2020): JA-9-1288; JA-11-1465,1474.
9 Appendix (docketed in 19-1182 5/4/2020): JA-8-1256-1257; JA9-1330-1331; JA-10-1382,1408.
10 Appendix (docketed in 19-1182 5/4/2020): JA-8-12071210,1212-1224,1228-1240; JA-9-1264-1267,1271-1286,12881304.
8

8

currently have over approximately $17.5 billion of

previously pledged SUT revenues” (emphasis added).11
COFINA was solvent: Prior to confirmation,
pledged revenues continued to be deposited into the
trustee’s
accounts;
the
trustee
held
over
12
$1,818,000,000 for debt service. COFINA admitted
it was “never in payment default.”13 If the lien had not
been abrogated, pledged revenues were sufficient to
pay all COFINA bonds in full.14
Yet Commonwealth’s November 2019 New
Bond legislation purported to release the COFINA
bondholders’ lien.15
B.
The Plan Proposed by Respondent-Appellee
FOMB
No court ever ruled the original COFINA lien or
structure unlawful or invalid. The legality/validity

11
12

361 F.Supp.3d at 288.
Appendix (docketed in 19-1182 5/4/2020): JA-11-1444-1449.

Appendix (docketed in 19-1182 5/4/2020): JA-19-3146-3153.
Appendix-I-Appellants’ Opposition to Motion-to-Dismiss
(Response docketed in 19-1182 5/15/2019): docket-page-7-10,3741, internal-page-4-7,App.I-005-to-008,035-to-039; Appendix
(docketed in 19-1182 5/4/2020): JA-13-1836-Tr.154:5-23; JA-193146-3153; JA-16-2526-2528; JA-7-1160,1163; JA-12-1526; JA-71170,1173-1176; JA-8-1219-1220,1239-1240; JA-9-12791280,1302-1303; JA-11-1449; JA-11-1463; JA-5-824; see also JA2-292; JA-3-350; JA-4-462; JA-5-845-847-Tr.44:line20Tr.46:line20; JA-6-1044-to-1051; JA-7-1125-1126,1132-1133. Cf.
App. 120a-121a.
13
14

15

361 F.Supp.3d at 288.

9
question was briefed and argued, but the district court
deferred ruling.16
Nevertheless, purported uncertainty about
legality/validity of the COFINA lien and structure
supposedly justified a “settlement” — reached after a
confidential mediation-settlement process between
Respondents-Appellees FOMB-Commonwealth and its
“instrumentality”17 FOMB-COFINA, pursuant to
which Commonwealth took almost one-half (46.35%) of
pledged revenues (App. 29a, 64a-65a).18 The Plan that
FOMB proposed was the “result” of the confidential
mediation-settlement process (App. 86a,91a).19 That
confidential process did not include PetitionersAppellants (or other individual bondholders in the 50
states).20 There was no record of what transpired in
that confidential process or that showed how the
“discount[s]”
and
“allocation[s]”
“determined”

16 Appendix (docketed in 19-1182 5/4/2020): JA-7-1095-1096
(citing-Adv.Proc.17-257); JA-20-3404-3405,3412-3418
(Adv.Proc.17-257-Docket#434;#492;#539;#543;#544).

Appendix (docketed in 19-1182 5/4/2020): JA-8-1209,1241;
JA-9-1266,1305.
18 987 F.3d at 186; 361 F.Supp.3d at 225-26.
17

361 F.Supp.3d at 235,237.
20 Appendix-I-Appellants’ Opposition to Motion to Dismiss
(Response docketed in 19-1182 5/15/2019): docket-pages-20-22,
internal-pages-17-19-App.I-018-020; Appendix (docketed in 191182 5/4/2020): E.g., JA-6-1023-1024,1028; JA-13-1887-#4848page-205:lines:12-17; JA-2-293-295; JA-6-956,963; JA-14-21442145; Appellants’ Opening Brief 19-21, 59-63 (docketed in 191182 5/1/2020); Appellants’ Reply 11-13,55-59 (docketed in 191182 5/1/2020).
19

10
(App. 108a)21 in that confidential process were arrived
at.22
FOMB’s Plan favored participants in the
confidential mediation-settlement process, as is
evident from record materials in the Appendix
(referenced in Petitioners’ merits briefing in the court
of appeals):23
 Commonwealth abrogated the bondholders’ lien on
almost one-half of pledged revenues and took this
property for itself.
 Negotiating institutions shared $332 million in
special payments that were not available to
individual bondholders in the 50 states.
 Although the lien was the same for senior and
subordinate bondholders, and (as noted above in
Statement “A”) there were sufficient pledged
revenues to cover payments to both, negotiating
senior bondholders received essentially a complete
recovery, whereas individual 50-states subordinate
bondholders received only about one-half or less.
 Negotiating institutions who bought subordinate
COFINA bonds during the PROMESA Title III
process, at distressed prices, voted these bonds for
the Plan and the special benefits it granted them.

361 F.Supp.3d at 244-45.
Appendix (docketed in 19-1182 5/4/2020): JA-6-1028; JA-142144-2145.
23 Appellants’ Opening Brief, 8-18,45-46,62 (docketed in 19-1182
5/1/2020); Appellants’ Reply 39-43,53-59 (docketed in 19-1182
5/1/2020).
21
22

11
 “Enhanced distributions” were offered to Puerto
Rico institutions and individuals, based on
residency, incenting them to accept the Plan.
Following this “settlement,” the district court
then “blessed” substantially the same COFINA lien
and structure it had deferred ruling on.24
Individual 50-states bondholders — nonparticipants in the confidential mediation-settlement
process and lacking Plan proponents’ debtor-funded
legal representation — suffered devastating losses as
PROMESA was applied retroactively to abrogate their
property and other rights.25
C.
Proceedings in the Courts Below
Literally hundreds of pages of Plan documents
in electronic form, on a flash drive, including a lengthy
Disclosure Statement, were mailed in December 2018
to individual bondholders who had not participated in
the negotiation of the Plan.26 Individual bondholders
were afforded only limited time, over the Christmas
and New Year holidays, to prepare and file
objections.27
The individual Petitioners-Appellants filed
timely objections and appeared pro se at the
Appellants’ Opening Brief 7-8,40-43 (docketed in 19-1182
5/1/2020); Appellants’ Reply 24-29 (docketed in 19-1182
5/1/2020).
25 Appellants’ Opening Brief 18-19 (docketed in 19-1182
5/1/2020).
26 Appendix (docketed in 19-1182 5/4/2020): JA-6-1039-1040;
JA-7-1106-1107; Appellants’ Opening Brief 21-22,63 (docketed
in 19-1182 5/1/2020); Appellants’ Reply 59-60 (docketed in 191182 5/1/2020).
24

27

See above note.

12
confirmation hearing. In addition to PetitionersAppellants, dozens of other bondholders wrote to the
district court to object.28
Furthermore, 1,826 subordinate bondholders
voted “no” on the Plan and hundreds more did not vote,
one result of on-the-eve-of-holidays’ notice.29
The Disclosure Statement did not mention
waiver of the Rule 3020(e) automatic 14-day stay in
the upfront Q&A section30 — nor state anywhere that
objectors must specifically object to the 3020(e) stay
waiver. There was one reference to Rule 3020(e)
buried in 30.21, a “Miscellaneous Provision” in Plan
Article XXX,31 and one reference to 3020(e) in
“Miscellaneous Provisions” in the Disclosure
Statement.32 Although Respondents-Appellees buried
the Rule 3020(e) reference in hundreds of pages of Plan
documents,
Petitioners-Appellants
did
object:
Petitioners objected to the Plan “in its entirety”/“in all
material respects” and to the proposed bankruptcy
Plan confirmation order “in all material respects.”33
28 Appendix-I-Appellants’ Opposition to Motion to Dismiss
(Response docketed in 19-1182 5/15/2019): docket-pages-22-28,
internal-page-19-25-App.I-020-026; Appendix (docketed in 191182 5/4/2020): JA-7-1105-1108; JA-16-2556-2561; Appellants’
Opening Brief 27&nn126,127 (docketed in 19-1182 5/1/2020).
29 Appendix (docketed in 19-1182 5/4/2020): JA-12-1698,170515; Appellants’ Opening Brief 29&n.136 (docketed in 19-1182
5/1/2020).
30
31

Appendix (docketed in 19-1182 5/4/2020): JA-4-506-527.
366 F.Supp.3d at 364.

Appendix (docketed in 19-1182 5/4/2020): JA-4-655.
33 Appendix (docketed in 19-1182 5/4/2020): JA-7-1124,1139;
JA-13-2091; JA-14-2112,2115; see also JA-6-1017,1041,1052; JA7-1104-1105.
32

13
The District Court’s confirmation order was
entered on February 5, 2019.34
The Plan was
consummated just five business days later, on
February 12, 2019 (App. 15a),35 prior to the individual
Petitioners filing their notice of appeal — which was
filed on February 19, 2019, well prior to the 30-day
deadline.36
Respondents-Appellees moved on April 12, 2019
in the court of appeals to dismiss the appeal under the
Petitioners“equitable mootness” doctrine.37
Appellants, in opposing dismissal, were express that
the relief they sought would not require unwinding
any transactions in COFINA bonds, and would only
affect Commonwealth, by modestly reducing
Commonwealth’s taking of COFINA pledged
revenues.38 The motion to dismiss was fully briefed by
May 29, 2019.39
On August 7, 2019, the First Circuit denied
Respondents’-Appellees’ motion to dismiss based on

34

366 F.Supp.3d 256.

987 F.3d at 180.
Appendix (docketed in 19-1182 5/4/2020): JA-14-2246, 48
U.S.C. §2166(e)(1); Fed.R.App.P. 4(a)(1)(A).
35
36

First Circuit Docket-19-1182, 4/12/2019.
Appellants’ Opposition to Motion to Dismiss (Response
docketed in 19-1182 5/15/2019) docket-pages-9-10,25-27,
internal-pages-4-5,20-22; Appendix-I-Appellants’ Opposition to
Motion to Dismiss (Response docketed in 19-1182 5/15/2019)
docket-pages-5-7, internal-pages-2-4-App.I-003-005; see also
Appellants’ Opening Brief 72-73 (docketed in 19-1182 5/1/2020);
Appellants’ Reply 6-8 (docketed in 19-1182 5/1/2020).
37
38

39

First Circuit Docket-19-1182, 5/29/2019.

14
equitable
mootness,
without
prejudice
to
reconsideration by the merits panel.40
Thereafter,
following
a
court-approved
extension, Petitioners-Appellants filed their opening
brief on November 7, 2019.41 Respondents-Appellees
sought and received an extension of their time to file
their answering brief and an enlargement in their
word count.42 Following Respondents-Appellees filing
their oversized answering brief on February 14, 2020,
Petitioners-Appellants requested extensions of their
time to reply — in a time frame when courts (including
this Court and the First Circuit) were granting acrossthe-board automatic extensions of time in light of the
COVID pandemic. Petitioners’-Appellants’ reply was
filed on April 30, 2020, in accordance with unopposed
extensions they had been granted.
Petitioners-Appellants asserted constitutional
violations, including claims that procedures in the
district court violated the rights of individual
bondholders in the 50 states.
For example,
Petitioners-Appellants asserted that Due Process and
Bankruptcy Rule 7001(2) required an adversary
proceeding naming (and serving) each bondholder in

Order, First Circuit Docket-19-1182, 8/7/2019.
First Circuit Docket-19-1182, 9/23/2019, 11/7/2019.
42 First Circuit Docket-19-1182, 12/30/2019, 1/8/2020, 2/4/2020,
2/12/2020.
40
41

15
order to abrogate the statutory lien that secured their
bonds,43 but no such proceeding was brought.44
Petitioners-Appellants also asserted in their
briefs on appeal multiple substantive violations of
their constitutional and other rights, including:45
 The retroactive use of PROMESA to abrogate prePROMESA rights of holders of bonds secured by
the statutory lien violated the Takings Clause.
 PROMESA’s
retroactively-imposed
vote
mechanism was abused to permit self-interested
bondholders to vote to “take[] property from A. and
give[] it to B” (Calder v. Bull, 3 U.S. 386, 388
(1798)), entailing abuses such as those that
prompted this Court to reverse confirmation of a
municipal debtor’s plan in American United v. City
of Avon Park, 311 U.S. 138 (1940).
 Commonwealth’s New Bond Legislation, that
abrogated the statutory lien, violated the Contract
Clause.
 The Plan — which provided better terms for Puerto
Rico investors (institutional or individual) than to
50-states resident individuals — violated the Due
Process, Equal Protection and Privileges and

In re Mansaray-Ruffin, 530 F.3d 230, 234-43 (3d Cir. 2008); In
re Commercial Western Finance, 761 F.2d 1329, 1336-38 (9th

43

Cir. 1985).

44 Appellants’ Opening Brief 30,63 (docketed in 19-1182
5/1/2020); Appellants’ Reply 62-63 (docketed in 19-1182
5/1/2020).
45 Appellants’ Opening Brief 32-45,45-46,46-55,55-59 (docketed
in 19-1182 5/1/2020); Appellants’ Reply 18-39,39-43,44-49,49-52
(docketed in 19-1182 5/1/2020).

16
Immunities clauses, as well as statutory
provisions.
Oral argument was held on July 31, 2020, and
the court of appeals issued its opinion dismissing the
appeal on grounds of “equitable mootness” on
February 8, 2021 (App. 1a-34a). Because the First
Circuit invoked “equitable mootness,” the First Circuit
did not address the merits of Petitioners’-Appellants’
positions, including Petitioners’ constitutional claims.
REASONS FOR GRANTING THE WRIT
I.

THIS COURT HAS NEVER ADOPTED THE
JUDGE-MADE “EQUITABLE MOOTNESS”
DOCTRINE, WHICH IS CONTRARY TO THIS
COURT’S JURISPRUDENCE
This Court has never adopted the judge-made
“equitable mootness” doctrine that the First Circuit
invoked to dismiss the appeal — despite PetitionersAppellants having a statutory right to appeal, and
despite the First Circuit having Article III and
statutory jurisdiction (App. 17a-20a).46 Because the
First Circuit dismissed the appeal, it never reached
the merits, which included Petitioners’-Appellants’
position that their rights under the Constitution — as
holders of bonds secured by a statutory lien — were
violated by the confirmation order they appealed.
While courts of appeals have invoked the
equitable mootness doctrine, it is at odds with this
Court’s precedent. Thus, First Circuit decisions have
characterized “[t]he equitable component to the
mootness doctrine” as “rooted in the ‘court’s discretion
in matters of remedy and judicial administration’ not
46

987 F.3d at 181.

17
to determine a case on its merits.” In re Public Service,
963 F.2d 469, 471 (1st Cir. 1992) and PPUC, 874 F.3d
33, 37 (1st Cir. 2017) (emphasis added) — both relied
upon in the opinion below dismissing the appeal in this
case (App. 15a-16a).47
However, in Mission Product Holdings v.
Tempnology, 139 S.Ct. 1652 (2019) — an appeal in a
bankruptcy case from the First Circuit — this Court
was clear that there is no discretion: “Under settled
law” an appeal over which the court has jurisdiction
may be dismissed as moot “only if ‘it is impossible for
a court to grant any effectual relief whatever.’” Id. at
1660 (citation omitted).
The First Circuit acknowledged that, under
Mission, jurisdiction existed in this case, yet asserted
that “mootness is not just a matter of jurisdiction but
encompasses ‘equitable considerations’ as well,” such
that it could dismiss the appeal and never reach the
merits (App. 17a-18a).48 In essence, the First Circuit
says there are two components to “mootness”:
(1) Article III “jurisdictional” mootness, and
(2) “equitable considerations.” However:
1. There is no statutory authorization for the
First Circuit’s refusal to reach the merits. To the
contrary, 48 U.S.C. §2166(e)(2) and 28 U.S.C. §1291
mandate jurisdiction.
Thus, 48 U.S.C. §2166(e)(2), which is part of
PROMESA, provides “[t]he court of appeals … shall
have jurisdiction of appeals from all final decisions,
judgments, orders and decrees entered under this
47

987 F.3d at 180.

48

987 F.3d at 181.

18
subchapter by the district court.” (emphasis added).
And §2166(e)(1) provides “[a]n appeal shall be taken in
the same manner as appeals in civil proceedings
generally are taken to the courts of appeals from the
district court.”
Likewise,
28 U.S.C. §1291’s
general
jurisdictional grant provides “[t]he courts of appeals ...
shall have jurisdiction of appeals from all final
decisions of the district courts.” (emphasis added).
The Supreme Court has ruled that “[a]ppeal
from … a final decision is a ‘matter of right’. … Under
§1291, ‘any litigant armed with a final judgment from
a lower federal court is entitled to take an appeal.’”
Hall v. Hall, 138 S.Ct. 1118, 1124 (2018) (citations
omitted). Accord Gelboim v. Bank of America Corp.,
574 U.S. 405, 407-08 (2015).
There is no exception to these statutory rights
of appeal that denies parties the right to appeal
bankruptcy plan confirmation orders, or that
conditions the right to appeal on seeking or obtaining
a stay.
2. The First Circuit’s viewthat since Mission
addressed only Article III jurisdictional mootness, not
“equitable mootness,” Mission is not inconsistent with
the existence of a second component of mootness,
“equitable mootness,” as a ground for dismissing an
appealmisreads Mission.
This Court specifically rejected an argument
made in Mission to the effect that the case was moot
because “the bankruptcy estate has recently
distributed all of its assets, leaving nothing to satisfy
Mission’s judgment.” In doing so, this Court noted

19
that if Mission prevails “it can seek the unwinding of
prior distributions.” 139 S.Ct. at 1661.
Nowhere did this Court in Mission suggest that
there was a second, equitable, component to the
mootness analysis. Once this Court concluded there
was a live controversy, that was the end of its analysis.
3. The First Circuit reasoned that because
bankruptcy is in the nature of an equitable proceeding,
“equitable laches,” i.e., “passage of time and inaction,”
may render relief on appeal to appellants inequitable.
(App. 18a-20a,28a-30a).49
To begin with, this reasoning is at odds with
Petitioners’-Appellants’ statutory right of appeal — a
statutory right re-affirmed in the context of a
PROMESA Title III proceeding by PROMESA’s
§2166(e)(2). As noted, PROMESA’s provision for
appellate jurisdiction is expressly mandatory (“shall”)
and expressly extends to “all” “final decisions,
judgments, orders and decrees” entered in the Title III
proceedings.
The First Circuit’s reasoning is also illogical and
backwards: Petitioners-Appellants were not the ones
seeking equitable relief in bankruptcy: FOMB filed the
Title III proceeding, sought relief adjusting COFINA’s
debts and proposed the Plan.
Thus, for example, Petitioners’-Appellants’
position is that the FOMB-filed PROMESA Title III
proceeding cannot be used to retroactively abrogate
Petitioners’ pre-existing constitutional property

49

987 F.3d at 181-82,186.

20
Indeed, this Court in United States v.
Security Industrial Bank, 459 U.S. 70, 75 (1982), ruled
rights.50

that “[t]he bankruptcy power is subject to the Fifth
Amendment’s prohibition against taking private
property without compensation.”
But the First Circuit invoked its view of “equity”
to preclude any consideration of the merits of
Petitioners’-Appellants’ position that — under, inter
alia, this Court’s precedents — Petitioners’ property
rights cannot be retroactively abrogated in a
PROMESA “equitable proceeding.”
The
First
Circuit’s
observations
that
bankruptcy courts are courts of equity and a plan of
adjustment is an equitable proceeding (App. 18a20a)51 cannot justify overriding Petitioners’Appellants’ right to an appellate decision on the merits
of their constitutional and statutory positions. This
Court’s jurisprudence requires that the merits of
Petitioners’-Appellants’ positions be decided by the
court of appeals.
II.
THE “EQUITABLE MOOTNESS” DOCTRINE
LACKS
A
CONSTITUTIONAL
OR
STATUTORY BASIS AND HAS BEEN
CRITICIZED, INCLUDING BY JUSTICE
ALITO WHILE SITTING ON THE THIRD
CIRCUIT
1. Criticism in the courts.
Justice Alito — writing in dissent while on the
Third Circuit — called “equitable mootness” a
50 Appellants’ Opening Brief 32-45 (docketed in 19-1182
5/1/2020); Appellants’ Reply 18-39 (docketed in 19-1182
5/1/2020).
51

987 F.3d at 181-82.

21
“curious” doctrine, In re Continental Airlines, 91 F.3d
553, 567 (3d Cir. 1996). As then-judge Alito pointed
out, the Bankruptcy Code does contain several
“narrow” provisions that prevent the upsetting of
certain specific transactions (id. at 569-70) — but
bankruptcy plan confirmation is not one of those.
Likewise, then-Judge Alito noted that failure to seek
or obtain a stay might limit the relief to parties who
succeed on the merits of an appeal, but “cannot justify
the refusal at the outset even to consider their
arguments” (id. at 572).
More recently, Judge Krause — concurring in
the reversal of a district court’s application of
equitable mootness — emphasized her belief that the
equitable mootness doctrine “has proved highly
problematic” and that “it has become painfully
apparent” that there is no constitutional or statutory
basis for the doctrine.
In re One2One
Communications, 805 F.3d 428, 438, 441 (3d Cir.
2015).
Judge Krause noted that “[t]he mandate that
federal courts hear cases within their statutory
jurisdiction is a bedrock principle of our judiciary,” and
quoted Chief Justice Marshall’s admonition that “[w]e
have no more right to decline the exercise of
jurisdiction which is given, than to usurp that which is
not given.” Id. at 439, quoting Cohens v. Virginia, 19
U.S. 264, 404 (1821).
Judge Krause continued by explaining that
“there is no analogue for equitable mootness among
the abstention doctrines” (id. at 440), and that the
equitable mootness doctrine — if viewed as a form of
abstention — would be at odds with recent Supreme
Court decisions that have “repeatedly endeavored to

22
narrow the scope of the abstention doctrines” (id. at
440).
As Judge Krause notes, “even equitable and
prudential concerns weigh against equitable
mootness” (id. at 448):
 Proponents of reorganization plans now rush to
implement the plans so they may avail themselves
of an equitable mootness defense (id. at 446) — as
occurred in this case.
 The doctrine tends to insulate errors by lower
courts and stunts the development of uniformity in
bankruptcy law (id. at 447).
The “equitable mootness” doctrine has been
criticized by other courts of appeals judges as well. For
example:
 The court in In re Pacific Lumber, 584 F.3d 229,
240 (5th Cir. 2009), characterized “equitable
mootness” as a “judicial anomaly,” departing from
the “virtually unflagging obligation” of federal
courts to exercise the jurisdiction conferred on
them (citing Colorado River Water Conservation
Dist. v. United States, 424 U.S. 800, 817 (1976)).
 Judge Moore, dissenting in In re City of Detroit,
838 F.3d 792, 806-10 (6th Cir. 2016) from the
invocation of equitable mootness, noted that
equitable mootness “contradicts the relevant
appellate-jurisdiction statutes and purports to
authorize the making of federal common law
despite the complete lack of evidence that Congress
intended to delegate such authority to the courts”
(id. at 810).
 Judge Friedland, dissenting in In re City of
Stockton, 909 F.3d 1256, 1269, 1271, 1272-73 (9th

23
Cir. 2018) from the majority’s invocation of
equitable mootness to dismiss an appeal from a
municipal bankruptcy plan, referenced this Court’s
ruling that federal courts have a “virtually
unflagging obligation … to exercise the jurisdiction
given” (citing Colorado River), and noted that
under this Court’s decision in United States v.
Security Industrial Bank, 459 U.S. 70 (1982),
“Congress’s bankruptcy powers do not allow it to
infringe upon rights guaranteed by the Takings
Clause.”
2. Criticism by scholars.
Equitable mootness has also been criticized by
scholars, such as Professor Markell of Northwestern
University School of Law, whose seminal article “The

Needs of the Many: Equitable Mootness’ Pernicious
Effects,” 93 Am.Bankr.L.J. 377 (2019), describes the

questionable origin of the doctrine and details its
many pernicious effects. Among the pernicious effects
identified by Professor Markell are:
 Unfairly burdening the right of appeal (id. at 40103; see also 385-87): As Professor Markell notes,
“stays pending appeal may be difficult or expensive
to obtain” (id. at 386), and that $1+ billion bond
requirements have been imposed (id. at 402-03). If
a stay were even available here (despite the request
for monetary relief, see Point II.3.c and III.3.d
discussions of Efron, below), petitioners would have
faced similarly onerous bonding requirements.
 Improper discounting of a court’s ability to fashion
remedies: As Professor Markell notes, in cases
involving antitrust and corporate-law challenges to

24
a merger, courts can and do order divestiture or
damages (id. at 405-07).
 Permitting a lower court “to alter a non-debtor’s
contract rights in a manner contrary to law and
then bar[ring] any appeal therefrom” (id. at 40708). Exactly what happened in this case.
Another author discussed the dissents by Judge
Krause and Judge Moore, and argued that
“intervention by the U.S. Supreme Court is needed in
order to address the validity of the doctrine and (if
valid) its proper scope.” Avron, Equitable Mootness:
Is It Time for the Supreme Court to Weigh In?, 36MAR Am.Bankr.Inst.J. 36 (2017)
3. This case illustrates the pernicious effects of
“equitable mootness.”
Whether the “equitable mootness” doctrine
should be recognized does not turn on the facts of this
case.
However, this case illustrates how an
amorphous doctrine of “equitable mootness” — if
allowed — can negate a party’s statutory right of
appeal so as to preclude even consideration of
constitutional claims:
a. Here, Petitioners-Appellants sought relief
that did not require unwinding any transactions in
COFINA bonds or that would otherwise impact innocent persons not a party to the appeal. In opposing
dismissal of their appeal, Petitioners were express
that the relief they sought would only affect Commonwealth, by modestly reducing Commonwealth’s taking
of COFINA pledged revenues.52 Specifically:
Appellants’ Opposition to Motion to Dismiss (Response
docketed in 19-1182 5/15/2019) docket-pages-9-10,25-27,
internal-pages-4-5,20-22; Appendix-I-Appellants’ Opposition to
52

25
 Commonwealth’s New Bond Legislation recited
that it “release[d] the lien that holders of COFINA
bonds currently have over approximately $17.5
billion of previously pledged SUT [sales and use
tax] revenues making $437.5 million per year
available to the Government.”53
 As noted above (Statement “C,” supra), there were
1,826 bondholders who voted “no” and hundreds
more who did not vote. An estimated $316 million
one-time payment could compensate all of these
nonconsenting bondholders (App. 29a-30a).54 This
is less than 2% of the overall $17.5 billion of
pledged SUT revenues taken by Commonwealth by
releasing the statutory lien, and also less than both
the $332 million of special payments under the
Plan to favored institutional parties55 and
Commonwealth’s ongoing $437.5 million/year
benefit from its taking of pledged SUT revenues.56
(Alternatively,
Petitioners
showed
$18-$28
million/year could cover debt service and principal

Motion to Dismiss (Response docketed in 19-1182 5/15/2019)
docket-pages-5-7, internal-pages-2-4-App.I-003-005; Appellants’
Opening Brief 72-73 (docketed in 19-1182 5/1/2020); Appellants’
Reply 6-8 (docketed in 19-1182 5/1/2020).
53 361 F.Supp.3d 203 at 288.
54 987 F.3d at 186; Appendix-I-Appellants’ Opposition to Motion
to Dismiss (Response docketed in 19-1182 5/15/2019) docketpages-5-7, internal-pages-2-4-App.I-003-005.
55 Appendix-I-Appellants’ Opposition to Motion to Dismiss
(Response docketed in 19-1182 5/15/2019) docket-pages-6-to-7,
internal-pages-3-to-4-App.I-004-005.
56

361 F.Supp.3d at 288.

26
amortization for added COFINA bonds issued to
compensate nonconsenting bondholders.)57
As then-Judge Alito (dissenting in Continental
Airlines, 91 F.3d at 568, 571-72) and Judge Krause
(concurring in One2One Communications, 805 F.3d at
452) reasoned, where any remedy, including monetary
relief, is available, appellants claims are “not ‘moot’ in
any proper sense of the term” (91 F.3d at 568).
b. The First Circuit countered that monetary
relief “is not a feasible alternative remedy,” because
the First Circuit — like the district court — assertedly
faced an “up-or-down decision” and could not “tweak”
the Plan so as to alter the settlement between FOMBCommonwealth and FOMB-COFINA (App. 28a30a).58
On the First Circuit’s theory, even if
Petitioners-Appellants are correct on the merits that
their constitutional rights were violated, Plan
proponents FOMB-Commonwealth and FOMBCOFINA could effectively thwart any review of their
Plan by agreeing between themselves that the Plan
incorporating their settlement is nonseverable. The
potential for abuse if self-interested plan proponents,
through their inclusion of nonseverability provisions,
can preclude review — even of constitutional
violations — is self-evident.
c. The First Circuit also stated that it was not
enough for Petitioners-Appellants to have objected to

57 Appendix-I-Appellants’ Opposition to Motion to Dismiss
(Response docketed in 19-1182 5/15/2019) docket-pages-5-to-7,
internal-pages-2-to-4-App.I-003-005.
58

987 F.3d at 185-86.

27
the Plan “in its entirety/in all material respects” — rather, objectors would lose their statutory right of appeal unless (i) they discovered the buried provision for
waiver of the Rule 3020(e) automatic 14-day stay
amidst hundreds of pages of documents mailed to individual bondholders on a flash drive, and (ii) specifically objected to that particular buried provision in the
limited time they were given to submit objections
(App. 28a).59 See Statement “C,” supra.
Under this approach, Plan proponents need not
highlight a buried provision for waiver of the Rule
3020 stay, but objectors must not only find the buried
provision — they must also specifically object to it.
If this approach is sanctioned, there is yet
another means, also ripe for abuse, by which selfinterested Plan proponents can thwart review: by
placing into the fine print of turgid, lengthy Plan
documents a waiver of the Rule 3020 automatic 14-day
stay, so that the Plan can be consummated just days
after confirmation, making even an application for
stay infeasible, particularly for individual objectors.
The failure to seek or obtain a stay cannot
properly be interposed as a barrier to appellate review.
As Justice Alito — writing in dissent in Continental
Airlines while on the Third Circuit — noted, failure to
seek or obtain a stay might limit the relief to parties
who succeed on the merits of an appeal, but “cannot
justify the refusal at the outset even to consider their
arguments” (91 F.3d 553 at 572). See also III.3, infra.
Moreover, here, because monetary relief was
possible, a stay would not have been available. E.g.,
59

987 F.3d at 185-86.

28

In re Efron, 535 B.R. 516, 519 (Bankr.D.P.R. 2014),
aff’d, 529 B.R. 396, 403n.8 (B.A.P. 1st Cir. 2015).60
d. The First Circuit also asserted post-consummation “delay” in the appellate proceedings justified
an equitable mootness dismissal, without explaining
how any “delay” following consummation mattered in
light of the remedy petitioners sought (App. 27a28a).61 Respondents-Appellees bore the burden of
proof to establish equitable mootness.62 And there was
no showing of prejudice to Respondents. Yet the First
Circuit’s response to the point that the Plan was consummated on February 12, 2019, and RespondentsAppellees did not show what practical difference expedition would make thereafter, was a terse: “Perhaps”
(App. 28a).63 “Perhaps” cannot meet Respondents’
burden of proof, much less overcome the statutorily
mandated jurisdiction of the court of appeals.
Furthermore, as discussed in Statement “C”
above, after the First Circuit initially denied
Respondents’-Appellees’ motion to dismiss the appeal
on equitable mootness grounds on August 7, 2019
(albeit without prejudice to reconsideration by the
merits panel), Petitioners-Appellants filed their
appellate briefs in accordance with court-ordered
schedules that reflected reasonable, unopposed, courtordered extensions for both sides.
60

Appellants’ Reply 8 (docketed in 19-1182 5/1/2020).

61

987 F.3d at 185.

E.g., In re Semcrude, 728 F.3d 314, 321 (3d Cir. 2013) (citing
cases); Old Cold, 558 B.R. 500, 513-14 (B.A.P. 1st Cir. 2016)
62

(“Appellees have the burden of establishing the appeal is
equitably moot”), aff’d, 879 F.3d 376 (1st Cir. 2018).
63

987 F.3d at 185.

29
Invocation of “equitable mootness” thus
resulted in no consideration of the merits of individual
Petitioners’ constitutional and statutory positions,
despite FOMB’s motion to dismiss on equitable
mootness grounds being initially denied, and
Petitioners thereafter complying with deadlines the
First Circuit set.
e. The First Circuit asserted that if Petitioners’
objections to the Plan could constitute evidence of unclean hands to preclude invocation of equitable mootness, equitable mootness would never apply except
when the appeal lacked merit (App. 28a).64 But this
only acknowledges that equitable mootness can be invoked to dismiss meritorious appeals — it hardly justifies the doctrine of equitable mootness to negate a
statutory right of appeal.
III. THE CIRCUITS ARE DIVIDED REGARDING
HOW THE “EQUITABLE MOOTNESS”
DOCTRINE IS TO BE APPLIED
As Professor Markell states, while every circuit
has addressed and adopted some form of equitable
mootness, “[t]he approaches … are a study in
disuniformity” (Markell, supra, at 384-85, 393-97).
The First Circuit’s opinion here conflicts with
the approaches in other circuits in multiple respects:
1. Is relief available against a plan proponent
who is a party to the appeal and who has taken appellants’ property (as is the case with Commonwealth
here)?

64

987 F.3d at 185.

30
Other circuits have recognized that “equitable
mootness” only protects truly “innocent third parties”
who are not before the court. For example:
 In re Texas Grand Prairie Hotel Realty, 710 F.3d
324, 328-29 (5th Cir. 2013) (court refuses to dismiss
appeal of secured creditor; court notes it is possible
that debtors — who were before the court — could
afford a fractional payout without reducing
distributions to third-party claimants); see also In
re SCOPAC, 624 F.3d 274, 281-82 (5th Cir. 2010),
modified in part, 649 F.3d 320 (5th Cir. 2011).
 In re Transwest Resort Properties, 801 F.3d 1161,
1169-70 (9th Cir. 2015) (investor who supported the
plan, participated in the confirmation process and
became the owner of reorganized debtors, was not
an “innocent third party”).
 In re Bate Land & Timber, 877 F.3d 188, 195-96
(4th Cir. 2017) (rejects equitable mootness
dismissal where secured creditor “merely seeks to
add to its recovery from the Debtor’s pocket without
affecting the recovery of any other creditor”).
 In re Envirodyne Industries, 29 F.3d 301, 303-04
(7th Cir. 1994) (court declines to invoke the
principle going by “the misleading name of
‘equitable mootness’”; court notes it could not tell
whether appellants’ requested modification of the
bankruptcy
plan
would
upset
legitimate
expectations of “innocent third parties”).
 In re American HomePatient, 420 F.3d 559, 563-65
(6th Cir. 2005) (rejects equitable mootness
dismissal where secured lenders presented
plausible argument debtor might be able to pay
$290,000,000 at a 12.16% interest rate).

31
Yet, here, the First Circuit invoked equitable
mootness to preclude addressing the merits of
Petitioners’-Appellants’ constitutional arguments,
including the argument that there was an unlawful
taking by Commonwealth — a party to the appeal,
which had been actively involved in crafting the Plan
and which enacted legislation pursuant to which
Commonwealth took Petitioners’ property without just
compensation. (App. 11a-12a, 13a-14a, 62a-68a).65
The First Circuit’s treatment of Commonwealth — a
plan proponent, party to the appeal, participant in the
confidential mediation process, and recipient of
property taken from petitioners — as an “innocent”
third party conflicts with rulings in other circuits.
Furthermore, as the approaches taken in other
circuits discussed above show, there is no “nonmodification” rule that precludes relief against plan
proponents and parties to the appeal, such as FOMBCommonwealth and FOMB-COFINA. Rather, if relief
against a plan proponent and party to the appeal can
be had, relief is possible and the appeal cannot be
dismissed.
Here, as noted above (Point II.3.a), the relief
sought would only affect Commonwealth, and the
impact even as to Commonwealth would be modest —
for example, payments to all nonconsenting
bondholders could aggregate less than 2% of the
overall $17.5 billion of pledged SUT revenues taken by
Commonwealth’s purported release of the statutory
lien.

65

987 F.3d at 178; 361 F.Supp.3d at 224-27,288.

32
2. Does it matter that appellants are secured
bondholders asserting constitutional rights, including
under the Takings clause?
The Fifth Circuit “has been especially solicitous
of the rights of secured creditors following
confirmation,” observing (i) that “[s]ecured credit
represents property rights that ultimately find a
minimum level of protection in the takings and due
process clauses” and (ii) that “[f]ederal courts should
proceed with caution before declining appellate review
of [secured creditors’ rights] under a judge-created
abstention doctrine.” In re Pacific Lumber, 584 F.3d
229, 236, 240, 243-44&n.19 (5th Cir. 2009). See also
In re Texas Grand Prairie Hotel Realty, 710 F.3d 324,
328-29 (5th Cir. 2013).
Other circuit decisions are to the same effect.
E.g., In re Semcrude, 728 F.3d 314, 318-319, 322, 32627 (3d Cir. 2013) (equitable mootness dismissal not
proper as to appellants claiming property and
statutory lien rights and due process right to
adversary proceeding).
Yet, here, the First Circuit invoked equitable
mootness to preclude any review of the merits, even
though
Petitioners-Appellants
were
secured
bondholders with a statutory lien who asserted that
their property was taken without just compensation,
and that Due Process and Bankruptcy Rule 7001(2)
required an adversary proceeding naming (and
serving) each bondholder in order to abrogate the
statutory lien. See Statement “A” and “C,” supra;
App. 8a-9a,13a-14a.66

66

987 F.3d at 177,179.

33
3. Is seeking a stay a prerequisite to an appeal
even if relief can be had against a plan proponent and
party to the appeal who took appellants’ property?
a. The Third Circuit recognized that “[f]ollowing confirmation of a plan by a bankruptcy court, an
aggrieved party has the statutory right to appeal” and
“[n]either the Bankruptcy Code nor any other statute
predicates the ability to appeal a bankruptcy court’s
ruling on obtaining a stay.” In re Semcrude, 728 F.3d
314, 317, 320, 322-23 (3d Cir. 2013).
As noted above (Point II.1), Justice Alito —
writing in dissent in Continental Airlines while on the
Third Circuit — had previously made the point that
failure to seek or obtain a stay “cannot justify the
refusal at the outset even to consider [appellants’]
arguments” (91 F.3d 553 at 572).
The Fifth Circuit likewise has ruled that
seeking or obtaining a stay is not a precondition to
pursuing an appeal. Thus, in In re Texas Grand
Prairie Hotel Realty, 710 F.3d 324, 327-28 (5th Cir.
2013), the court declined to invoke equitable mootness
to dismiss notwithstanding the absence of a stay.
The Sixth Circuit, too, has ruled that “failure to
seek a stay … is not necessarily fatal to the appellant’s
ability to proceed,” noting that “‘[R]equesting a stay is
not a mandatory step comparable to filing a timely
notice of appeal.’” In re American HomePatient, 420
F.3d 559, 564 (6th Cir. 2005) (citations omitted);
accord City of Covington v. Covington Landing, 71
F.3d 1221, 1225-26 (6th Cir. 1995).
PROMESA itself does not impose an obtain-astay prerequisite to taking an appeal. To the contrary,
48 U.S.C. §§2166(e)(1) and (e)(2) provide a statutory

34
right of appeal (“shall”), with no exceptions or
conditions.
b. Yet, here, the First Circuit emphasized the
failure to seek a stay in concluding it would dismiss
Petitioners’ appeal. (App. 27a-28a; also App. 22a24a),67. The First Circuit did this despite there being
no statutory requirement that a stay be obtained on
peril of losing one’s right of appeal — much less where
an appeal asserts violations of constitutional rights
and seeks monetary compensation from a party to the
appeal who took Petitioners’ property (in contrast to
seeking the unwinding of transactions involving innocent third persons).
The First Circuit’s emphasis on the failure to
seek a stay in this case also ignores the practical
realities (as Professor Markell has pointed out) that
the judge who confirms the plan is unlikely to grant a
stay; that even well-funded litigants will have
difficulty pressing and succeeding on an emergency
motion for stay at the circuit level; and that even were
a stay to be obtained, if it is conditioned on a
$1+ billion bond (as in the Tribune and Adelphia
cases), obtaining the stay would prove to be a pyrrhic
victory. Markell, supra, at 385-87, 401-03. The First
Circuit’s approach would effectively preclude
individuals with modest holdings (such as Petitioners
here) from being able to obtain appellate review of the
merits of a lower court’s confirmation order.
c. Underscoring the problem with a judgemade rule not based on a statute and applied inconsistently between circuits, is the fact that multiple

67

987 F.3d at 185; also 183-84.

35
prior First Circuit decisions had rejected efforts to dismiss based on equitable mootness, notwithstanding
the failure by appellants in those cases to seek or obtain stays.68 Thus, the ill-defined judge-made equitable mootness doctrine is susceptible to inconsistent application even within the same circuit.
d. Furthermore, the First Circuit did not dispute that, here, if monetary relief was possible, a stay
would not have been available. See, e.g., In re Efron,
535 B.R. 516, 519 (Bankr.D.P.R. 2014), aff’d, 529 B.R.
396, 403n.8 (B.A.P. 1st Cir. 2015). The First Circuit’s
only response to this point was to assert that monetary
relief was not feasible because Plan provisions were
nonseverable (App. 28a-30a)69 — thereby effectively
sanctioning the ability of plan proponents to insulate
themselves from judicial review by agreeing among
themselves to provide for nonseverability in the plan

See, e.g., Old Cold, 558 B.R. 500, 513-14 (B.A.P. 1st Cir. 2016)
(appellees did not meet their burden of establishing the appeal
is equitably moot — despite appellants neither seeking nor
obtaining stay; failure to seek a stay “is insufficient on its own to
render the appeal equitably moot”), aff’d, 879 F.3d 376 (1st Cir.
2018); see also In re Old Cold, 976 F.3d 107, 115 (1st Cir. 2020)
(“failure to obtain a stay pending appeal, by itself, does not
provide ‘sufficient ground for a finding of mootness’”); PPUC v.
Gangi, 874 F.3d 33, 37 (1st Cir. 2017) (appellant failed to appeal
denial of stay, however, appellee failed to show sale moved
beyond practical annulment and relief would harm innocent
third parties); In re Healthco v. Hicks, 136 F.3d 45, 48-49 (1st
Cir. 1998) (appellant “sought no stay” of order approving
settlement, but appellee/trustee made no showing that
settlement proceeds disbursed to appellee/trustee could not be
recovered).
68

69

987 F.3d at 185-86.

36
they propose. The potential for abuse, if plan proponents can insulate a plan from appellate scrutiny by
their own election, is self-obvious.
e. Fundamentally, the First Circuit’s emphasis
on whether or not a stay was sought or obtained disregards the more critical consideration of whether effective relief can be obtained on appeal. Here, relief can
be obtained from Commonwealth: (i) through monetary compensation to nonconsenting bondholders and
(ii) by vacating the district court’s ruling that “just
compensation” was provided and its release of Commonwealth from claims of nonconsenting bondholders.70
f. In this regard, the district court ruled that
Petitioners received “just compensation” because they
(assertedly) received the value of their property “discounted by a settlement that recognizes significant litigation risks” with “the allocation of distributions” “determined via a long mediation and settlement process”
(App. 108a)71 — a ruling made against Petitioners despite the facts there was no record of what transpired
in the mediation-settlement process (which was confidential by court order) and the individual Petitioners
were not participants in that process.
There is much wrong with the notion that a
determination of “just compensation” for purposes of
the Fifth Amendment can be premised on the results
of a secret process, without a record, that the parties

70 Appellants’ Opening Brief 72-73 (docketed in 19-1182
5/1/2020).
71

361 F.Supp.3d at 244-45.

37
sought to be bound did not participate in.72 The
propriety of the district court doing so was raised in
Petitioners’ appeal73 — yet the First Circuit’s
invocation of equitable mootness was used to avoid
reaching the merits of that (and other) issues on
appeal.
g. Finally, here, where Respondents-Appellees
had affirmatively taken steps to make it impractical —
certainly for individual appellants such as Petitioners
— to seek or obtain a stay (such as buried Plan provisions for waiver of the Rule 3020(e) automatic stay,
and a rush to consummate, see Statement “C”), it
would be particularly inappropriate (indeed, inequitable) to use the failure of individual appellants to seek
or obtain a stay as grounds to dismiss an appeal, over
which the court of appeals had jurisdiction, without
reaching the merits.
IV.
THIS CASE IS AN APPROPRIATE VEHICLE
FOR REVIEW OF WHETHER AND UNDER
WHAT CIRCUMSTANCES THE “EQUITABLE
MOOTNESS” DOCTRINE CAN BE USED TO
DENY APPELLATE REVIEW
This case is a particularly appropriate vehicle
for review of whether the doctrine of “equitable
mootness” permits the court of appeals to decline to
entertain the merits notwithstanding Article III and
statutory jurisdiction.
1. In contrast to cases such as In re Continental
Airlines, 91 F.3d 553, 568 (3d Cir. 1996), here
72 Appellants’ Opening Brief 38-43,59-65 (docketed in 19-1182
5/1/2020); Appellants’ Reply 34-37,53-60 (docketed in 19-1182
5/1/2020).
73

See prior note.

38
Petitioners-Appellants did contest in the court of
appeals whether there was any valid basis for a
doctrine of “equitable mootness.”74
2. Here, there were no rulings by the court of
appeals on the merits of the appeal — thus, reversal of
the First Circuit’s invocation of “equitable mootness”
to dismiss the appeal will have the real-world
consequence of requiring the court of appeals to decide
the merits.
3. In light of most circuits endorsing some form of
the equitable mootness doctrine (In re One2One
Communications, 805 F.3d 428, 432-33n.6 (3d Cir.
2015)), and the constraints on the ability of one panel
to overturn a precedential opinion from its own circuit
(id. at 431, 432-33, 437-38), this case represents what
may be a rare opportunity for this Court to determine
whether this “curious,” but often-used, doctrine
comports with this Court’s jurisprudence, as expressed
in cases such as Mission Product and Colorado River.
4. If “equitable mootness” is to be recognized by
this Court, this case permits the Court to address
under what circumstances the doctrine may properly
be invoked, and thus clarify the existing
“disuniformity” (Markell, supra, at 384-85, 393-97) in
the circuits. See Point III, supra.

74 App. 17a-22a; Appellants’ Opening Brief 69-71 (docketed in
19-1182 5/1/2020); Appellants’ Reply 3-5,8-11,15-18 (docketed in
19-1182 5/1/2020); Appellants’ Opposition to Motion to Dismiss
(Response docketed in 19-1182 5/15/2019) docket-pages-7,2024,27-29, internal-pages-2,15-19,22-24; Appellants’ Citation of
Supplemental Authorities (docketed in 19-1182 5/28/2019).

39
CONCLUSION
The petition for a writ of certiorari should be
granted.
April 2021

Respectfully Submitted,
RAFAEL A. GONZÁLEZ VALIENTE

Counsel of Record

Godreau & González Law, LLC
PO Box 9024176
San Juan, Puerto Rico 00902-4176
(787) 726-0077
rgv@g-glawpr.com

Counsel for Petitioner Elliott

LAWRENCE B. DVORES
28 Sherbrooke Parkway
Livingston, New Jersey 07039
(973) 535-5000
LDvores@yahoo.com

Petitioner

PETER C. HEIN
101 Central Park West, 14E
New York, New York 10023
(917) 539-8487
petercheinsr@gmail.com

Petitioner

NO. 20 In the

Supreme Court of the United States
________________
MARK ELLIOTT, LAWRENCE B. DVORES,
PETER C. HEIN,
Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO, ET AL.,
Respondents.
________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
________________
PETER C. HEIN
Petitioner
101 Central Park West, 14E
New York, New York 10023
(917) 539-8487
petercheinsr@gmail.com
LAWRENCE B. DVORES
Petitioner
28 Sherbrooke Parkway
Livingston, New Jersey 07039
(973) 535-5000
LDvores@yahoo.com

April 2021

RAFAEL A. GONZÁLEZ VALIENTE
Counsel of Record
Godreau & González Law, LLC
PO Box 9024176
San Juan, Puerto Rico 00902-4176
(787) 726-0077
rgc@g.glawpr.com
Counsel for Petitioner Elliott

TABLE OF CONTENTS
APPENDIX A — First Circuit’s Opinion (987
F.3d 173) (February 8, 2021) .............................. 1a
APPENDIX B — District Court’s Amended
Memorandum of Findings of Fact and
Conclusions of Law in Connection With
Confirmation of the Third Amended
Title III Plan of Adjustment of Puerto
Rico Sales Tax Financing Corporation
(Docket # 5053 in Case 17-03283-LTS, 361
F.Supp.3d 203) (February 5, 2019) ................... 35a
APPENDIX C — Constitutional Provisions
and Statutes Involved ..................................... 154a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
NO. 19-1181
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY;
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO ELECTRIC POWER AUTHORITY (PREPA);
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO SALES TAX FINANCING CORPORATION,
A/K/A COFINA; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT
SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
________________
RENÉ PINTO-LUGO; MOVIMIENTO DE CONCERTACIÓN
CIUDADANA INC., (VAMOS); UNIÓN DE EMPLEADOS DE
OFICINA Y PROFESIONALES DE LA AUTORIDAD DE

2a
EDIFICIOS PÚBLICOS, (UEOGAEP); UNIÓN INSULAR DE
TRABAJADORES INDUSTRIALES Y CONSTRUCCIONES
ELECTRICAS INC., (UITICE); UNIÓN INDEPENDIENTE
DE EMPLEADOS DE LA AUTORIDAD DE ACUEDUCTOS Y
ALCANTARILLADOS, (UIA); UNIÓN DE EMPLEADOS DE
OFICINA COMERCIO Y RAMAS ANEXAS, PUERTOS,
(UEOCRA); UNIÓN DE EMPLEADOS PROFESIONALES
INDEPENDIENTES, (UEPI); UNIÓN NACIONAL DE
EDUCADORES Y TRABAJADORES DE LA EDUCACIÓN,
(UNETE); ASOCIACIÓN DE INSPECTORES DE JUEGOS
DE AZAR, (AIJA); MANUEL
NATAL ALBELO,
Movants, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO RICO
SALES TAX FINANCING CORPORATION, A/K/A COFINA,
Debtors, Appellees,
PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AUTHORITY,
Movant, Appellee,
ARISTEIA CAPITAL, LLC; CANYON CAPITAL ADVISORS,
LLC; GOLDEN TREE ASSET MANAGEMENT LP; OLD
BELLOWS PARTNERS LLP; SCOGGIN MANAGEMENT LP;

3a
TACONIC CAPITAL ADVISORS, L.P.; TILDEN PARK
CAPITAL MANAGEMENT LP; WHITEBOX ADVISORS LLC,
Intervenors.
________________
NO. 19-1182
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY;
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO ELECTRIC POWER AUTHORITY (PREPA);
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO SALES TAX FINANCING CORPORATION,
A/K/A COFINA; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT
SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
________________
MARK ELLIOTT; LAWRENCE B. DVORES; PETER C. HEIN,

4a
Movants, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO RICO
SALES TAX FINANCING CORPORATION, A/K/A COFINA,
Debtors, Appellees,
PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AUTHORITY,
Movant, Appellee,
ARISTEIA CAPITAL, LLC; CANYON CAPITAL ADVISORS,
LLC; GOLDEN TREE ASSET MANAGEMENT LP; OLD
BELLOWS PARTNERS LLP; SCOGGIN MANAGEMENT LP;
TACONIC CAPITAL ADVISORS, L.P.; TILDEN PARK
CAPITAL MANAGEMENT LP; WHITEBOX ADVISORS LLC,
Intervenors.
________________
NO. 19-1960
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR

5a
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY;
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO ELECTRIC POWER AUTHORITY (PREPA);
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
PUERTO RICO SALES TAX FINANCING CORPORATION,
A/K/A COFINA; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT
SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
________________
PETER C. HEIN,
Movant, Appellant,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO RICO
SALES TAX FINANCING CORPORATION, A/K/A COFINA,
Debtors, Appellees,

6a
PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AUTHORITY,
Movant, Appellee.
________________

7a
APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain,* U.S. District Judge]
________________
Before
Howard, Chief Judge.
Torruella** and Kayatta, Circuit Judges.
________________
Roberto O. Maldonado-Nieves for appellants Pinto
Lugo, et. al.
Rafael A. González Valiente for appellant Elliot.
Lawrence B. Dvores on brief for appellant Dvores.
Peter C. Hein for appellant Hein.
Martin J. Bienenstock and Hermann D. BauerAlvarez, with whom Timothy W. Mungovan, John E.
Roberts, Stephen L. Ratner, Brian S. Rosen, Mark D.
Harris, Jeffrey W. Levitan, Lucas Kowalczyk, Shiloh
A. Rainwater, Michael A. Firestein, Lary Alan
Rappaport, and Proskauer Rose LLP, were on brief for
appellee Financial Oversight and Management Board
*

Of the Southern District of New York, sitting by designation.

Judge Torruella heard oral argument in this matter and
participated in the semble, but he did not participate in the
issuance of the panel’s decision. The remaining two panelists
therefore issued the opinion pursuant to 28 U.S.C. § 46(d).
**

8a
for Puerto Rico as representative for the
Commonwealth of Puerto Rico and the Puerto Rico
Sales Tax Financing Corporation.
Peter M. Friedman, with whom John J. Rapisardi,
Suzanne Uhland, and O’Melveny & Myers LLP, were
on brief for appellee Puerto Rico Fiscal Agency and
Financial Advisory Authority.
David M. Cooper, with whom Susheel Kirpalani,
Quinn Emanuel Urquhart & Sullivan, LLP, Rafael
Escalera, Sylvia M. Arizmendi, Carlos R. Rivera-Ortiz,
and Reichard & Escalera LLC, were on brief for
intervenors.
________________
February 8, 2021
________________
KAYATTA, Circuit Judge.
These three
consolidated appeals arise out of Title III debtrestructuring proceedings brought by the Financial
Oversight and Management Board for Puerto Rico
(“the Board”) on behalf of the Puerto Rico Sales Tax
Financing Corporation (COFINA) under the Puerto
Rico Oversight, Management, and Economic Stability
Act (PROMESA). 48 U.S.C. §§ 2101-2241. The
Title III court approved a plan of adjustment proposed
by the Board (“the Plan”) resolving disputes between
COFINA and the Commonwealth of Puerto Rico and
between the junior and senior holders of COFINA’s
outstanding debt. Two groups -- the Elliott and PintoLugo groups -- objected to the Plan, variously
contending that it unlawfully abrogated their rights as

9a
junior COFINA bondholders, that the plan
confirmation procedures were unlawful, and that the
plan confirmation should not have been implemented
because the Commonwealth violated the Puerto Rico
Constitution in enacting implementing legislation. An
individual creditor, Peter Hein, also challenged the
dismissal of his proof of claim against COFINA. The
Title III court overruled the objections to the Plan and
dismissed Hein’s challenges. No party sought to stay
the Title III court’s order approving the Plan, which
has been fully implemented for nearly two years and
given rise to transactions involving billions of dollars
and likely tens of thousands of individuals. For the
following reasons, we now dismiss the Elliott and
Pinto-Lugo appeals as equitably moot and we affirm
the dismissal of Hein’s claim against COFINA.
I.
The Commonwealth of Puerto Rico consistently
spent much more than it received in taxes and other
payments.
Rather than balance spending and
revenues, it repeatedly opted to borrow more by
issuing general obligation bonds (“GO bonds”). It did
so until limits on sovereign debt contained in the
Commonwealth’s
Constitution
substantially
constrained the Commonwealth’s direct access to the
credit markets.
To address the situation, the
Commonwealth in 2006 passed Act 91, establishing
COFINA as a public corporation, separate and
independent from the Commonwealth. See P.R. Laws
Ann. tit. 13, §§ 11a-16. COFINA had a sole purpose:
issuing non-recourse bonds. See id. § 11a. By the time
of the Title III petition in this case, aggregate principal
and unpaid interest in outstanding COFINA bonds

10a
totaled over $17 billion, adding to the already very
significant total of accrued public debt in Puerto Rico,
a jurisdiction of just over three million people.
To pay the COFINA bondholders, Act 91 looked to
the Commonwealth’s sales and use tax revenues
(“SUT revenues”). Under Puerto Rico’s Constitution,
all “available revenues” must first be utilized to satisfy
general public debt. P.R. Const. art. VI, § 8. Act 91
sought to render a specified percentage of SUT
revenues “unavailable” by pledging that percentage to
COFINA and creating a statutory lien on future SUT
revenues. In this manner, Act 91 set in place a
potential conflict between the interests of COFINA
bondholders (who looked to the pledged SUT revenues
for their payments) and the interests of the
Commonwealth and GO bondholders (who might view
Act 91 as unconstitutional to the extent it sought to
put otherwise available Commonwealth revenues
beyond the reach of Commonwealth creditors).
This tension turned into outright conflict when the
Commonwealth declared a moratorium on payments
to GO bondholders. The GO bondholders sued the
Commonwealth, claiming a superior right to the SUT
revenues that the Commonwealth had pledged to
COFINA. COFINA bondholders intervened, joining a
zero-sum contest to determine which entity had
superior rights under Puerto Rico law to the SUT
revenues:
the Commonwealth (to pay its GO
creditors), or COFINA (to pay its bondholders). This
court eventually deemed that lawsuit subject to
PROMESA’s temporary automatic stay. Lex Claims,
LLC v. Fin. Oversight & Mgmt. Bd., 853 F.3d 548 (1st
Cir. 2017). At the same time, we expressed hope that

11a
the parties would find “a way to accommodate and
balance the respective interests of these bondholders
if there is to be a consensual resolution.” Id. at 550.
The parties were initially unable to reach such a
resolution. So, in May 2017, the Board initiated
proceedings placing both the Commonwealth and
COFINA under the umbrella of the Title III court.
Under that umbrella, the Board caused the
Commonwealth and COFINA to pursue the resolution
of their contest over the SUT revenues on two tracks:
(1) a publicly noticed mediation before Chief
Bankruptcy Judge Barbara Houser open to all
interested parties; and (2) an adversary proceeding
brought by the Commonwealth against COFINA that
would, if necessary, produce a binding determination
regarding the competing claims to the SUT revenues.
The parties to the mediation eventually announced
an agreement in principle resolving their primary
disagreements subject to several conditions, most
notably court approval. In rough terms, they split the
loaf of disputed SUT revenues, with 53.65% allocated
to COFINA and the rest to remain with the
Commonwealth. The Board and the parties to the
agreement all agreed that, given the amount of
uncertainty in the ownership of those revenues, the
large stakes, and the substantial risks of a winnertake-all decision, this split was a fair and reasonable
resolution of the dispute. In practical terms, it would
seem that COFINA and the Commonwealth each
determined that it had a roughly even chance of
getting either 100% of the challenged SUT revenues,
or 0%.

12a
Mediation also secured a proposed deal among
senior and junior COFINA bondholders, the
overwhelming majority of whom ultimately voted to
support the COFINA-Commonwealth resolution and
to resolve their own competing claims to the payments
that a reorganized COFINA would make going
forward. With these tentative agreements in place,
the Board (on behalf of the Commonwealth) and
COFINA entered into a formal settlement agreement
(“the Settlement”) memorializing these terms. That
Settlement formed the basis of the Plan.
As a condition precedent to implementing the
Settlement and the Plan, the Commonwealth was
required to pass new bond legislation to reorganize
COFINA, to allocate to COFINA the now-more-limited
amount of SUT revenues, and to authorize COFINA to
issue restructured bonds backed by a statutory lien on
the SUT revenues belonging to COFINA. On the
penultimate day of the 2018 legislative session, this
new bond legislation was brought to the floor of the
Puerto Rico House of Representatives for a vote. A
representative from the minority party, Manuel Natal
Albelo, stood to oppose the bill. According to the PintoLugo appellants, instead of allowing him to speak, the
president of the House “ignored” him and “den[ied]
[him] the opportunity to participate in the debate.”
Several other members of the house allegedly
“mocked” him. The bill was then passed along party
lines in both chambers of the Puerto Rico legislature
and signed into law by the governor on November 15,
2018, becoming known as Act 241.
The Pinto-Lugo appellants thereupon filed a
complaint in a Commonwealth court, asserting that

13a
the treatment of Representative Natal Albelo violated
both Puerto Rico legislative rules and his rights under
the Puerto Rico Constitution The complaint asked the
court to declare Act 241 null and void due to those
alleged deprivations. It also asserted that the act itself
(and its predecessor, Act 91) violated the Puerto Rico
Constitution, particularly the limitations on
Commonwealth borrowing imposed by Article VI,
Sections 2 and 7. On January 14, 2019, the Board
removed that proceeding to the Title III court. By
agreement of the parties, further action in that
proceeding was stayed pending the adjudication of this
appeal.
After a series of amendments to the Plan and its
accompanying disclosure statement, on November 29,
2018, the Title III court entered an order approving
both the disclosures and the procedures for approving
the Plan.
Those procedures required that all
objections to the Plan be filed by January 2, 2019, with
creditor votes to accept or reject the Plan due by
January 8, 2019.
The Elliott and Pinto-Lugo objectors filed timely
objections to the Plan. Hein, one of the Elliot objectors,
also sought to pursue an individual proof of claim
against COFINA.
As grounds for their objection to approval of the
Plan, the Pinto-Lugo objectors raised the arguments
advanced in their suit against the Commonwealth,
challenging the lawfulness of Acts 91 and 241 and
arguing that Plan approval would be futile should they
prevail on their claims. The Elliott objectors cast their
net more broadly. As holders of junior COFINA bonds,

14a
they received about fifty-five cents on the dollar in new
COFINA bonds relative to the par value of their
original bonds. Having purchased their bonds prior to
PROMESA’s enactment, they argued that their
asserted liens on the pledged SUT revenues
represented a property interest that could not be
retroactively impaired, so the Settlement, the Plan,
and/or the new bond legislation amounted to a taking
for which they have not received just compensation.1
See United States v. Sec. Indus. Bank, 459 U.S. 70
(1982). They made a similar argument that the
asserted impairment of their bonds violates the
Contracts Clause of the United States Constitution.
Separately, they also challenged a feature of the Plan
allowing on-island bondholders to elect to receive
taxable bonds in exchange for different interest rates
as violating the Equal Protection, Privileges and
Immunities, and dormant Commerce Clauses of the
United States Constitution. They also claimed that
because this election was integral to obtaining creditor
approval of the Plan (all who made this election were
put into a different class and automatically deemed to
have approved the Plan), Plan approval was unlawful.
Finally, they challenged the confidential settlement
process and the expedited Plan approval procedures as
inadequate to protect their rights, and they asserted a
few other statutory violations, which they have
repeated on appeal only in a perfunctory manner.

Relatedly, they asserted that this retroactive impairment
violates due process and that PROMESA more generally violates
the Bankruptcy Clause.
1

15a
After hearing argument on January 16 and 17, 2019,
the Title III court overruled all objections to the Plan.
The court rejected all of the Pinto-Lugo objections on
their merits but found that the objection based on the
alleged mistreatment of Representative Natal Albelo
presented a nonjusticiable political question. The
court also determined that the Settlement and Plan
approval process were conducted in good faith and in
accordance with the applicable provisions of
PROMESA, satisfying due process and all
requirements of fairness and equal treatment under
the Bankruptcy Code. And in a later, separate ruling,
it dismissed Hein’s proof of claim as duplicative of an
omnibus proof of claim filed on behalf of all
subordinate bondholders, including Hein.
The court entered its final approval on February 5,
2019. None of the objectors asked the Title III court to
stay that approval pending any appeal. The Plan was
implemented on February 12, 2019. The first of these
appeals followed six days later.
II.
A.
The Board and an intervening coalition of senior
COFINA bondholders ask us to dismiss some or all of
these appeals as “equitably moot” because the plan of
reorganization has long ago been implemented. In so
asking, they point to our decision in Rochman v. Ne.
Utils. Serv. Grp. (In re Pub. Serv. Co. of N.H.), 963
F.2d 469, 471-73 (1st Cir. 1992), which dismissed a
challenge to a plan of reorganization as equitably moot
because the requested relief would have been

16a
inequitable or impractical in view of the plan’s
consummation.
As we later summarized Rochman’s holding,
deciding whether to reject an appeal of an order
confirming a plan of reorganization because the plan
has been implemented calls for us to consider at least
three factors: “(1) whether the appellant ‘pursue[d]
with diligence all available remedies to obtain a stay
of execution of the objectionable order[ ]’ . . . ; (2)
whether the challenged plan proceeded ‘to a point well
beyond any practicable appellate annulment[ ]’ . . . ;
and (3) whether providing relief would harm innocent
third parties.” PPUC Pa. Pub. Util. Comm’n v. Gangi,
874 F.3d 33, 37 (1st Cir. 2017) (emphasis in original)
(quoting In re Pub. Serv. Co. of N.H., 963 F.2d at 47375). See also United Sur. & Indem. Co. v. LópezMuñoz (In re López-Muñoz), 983 F.3d 69, 72 (1st Cir.
2020). More generally, we pay heed to the “equitable
and pragmatic” considerations that apply when any
court of equity is considering a remedy, albeit through
a framework tailored to the specific circumstances that
apply to the confirmation of plans. Institut Pasteur v.
Cambridge Biotech Corp., 104 F.3d 489, 492 n.5 (1st
Cir. 1997), abrogated on other grounds as recognized
by Hardemon v. City of Boston, 144 F.3d 24, 26 (1st
Cir. 1998). Every circuit has adopted some form of the
doctrine. See Bruce A. Markell, The Needs of the
Many: Equitable Mootness’ Pernicious Effects, 93 Am.
Bankr. L.J. 377, 384 (2019). And at least one even
recently extended it. See Drivetrain, LLC v. Kozel (In
re Abengoa Bioenergy Biomass of Kan., LLC), 958 F.3d
949, 956 (10th Cir. 2020) (extending the doctrine to
Chapter 11 plans of liquidation).

17a
B.
Before turning to the equitable and pragmatic
considerations to be assessed in deciding whether
delay has doomed any of these appeals, we take a step
back and consider two threshold issues raised by the
appellants: whether the Supreme Court in Mission
Product Holdings, Inc. v. Tempnology, LLC, 139 S. Ct.
1652, 1660 (2019) rendered the equitable mootness
doctrine no longer valid, and whether the doctrine is
inapplicable to proceedings under PROMESA.
1.
The Elliott objectors argue that the Court’s recent
holding in Mission Product has undermined the
continued viability of the equitable mootness doctrine.
See id. Conducting an Article III mootness inquiry as
articulated in Chafin v. Chafin, 568 U.S. 165, 172
(2013), Mission Product considered whether the recent
disbursement of all remaining cash from the debtor’s
estate rendered an appeal moot because the
disbursement left no remaining assets with which to
satisfy any possible judgment. See Mission Prod.
Holdings, Inc., 139 S. Ct. at 1660. The Court held that
the disbursement did not moot the appeal, explaining
that a court must dismiss an appeal as moot under
Article III “only” when it is “impossible for a court to
grant any effectual relief whatever,” id. (quoting
Chafin, 568 U.S. at 172), leaving the petitioner with no
“continuing stake in [the] dispute’s outcome”
necessary to create a “live controversy,” id. Relief
remained possible in Mission Product because, among
other things, it was at least possible that the

18a
disbursement of the estate’s cash might be undone. Id.
at 1660-61.
Here, by contrast, there is no contention that the
case is moot under Article III. We have a live
controversy: Appellants want the Plan confirmation
undone, and appellees do not. Equitable mootness
bears on how we decide that controversy, not whether
we have jurisdiction to decide it. As we recently
explained, “this Circuit has long recognized that
mootness is not just a matter of jurisdiction but
encompasses ‘equitable considerations’ as well.” In re
López-Muñoz, 983 F.3d at 72 (quoting In re Pub. Serv.
Co. of N.H., 963 F.2d at 471). In this regard, the term
equitable mootness is perhaps a misnomer. The
doctrine might better be viewed as akin to equitable
laches, the notion that the passage of time and
inaction by a party can render relief inequitable. Cf.
In re UNR Indus., Inc., 20 F.3d 766, 769 (7th Cir. 1994)
(banishing “equitable mootness” from its lexicon and
asking instead “whether it is prudent to upset the plan
of reorganization at this late date”).
It should come as no surprise that considerations of
equity play a role in reviewing challenges to the
confirmation of plans of reorganization in bankruptcy
courts. At their core, “bankruptcy courts . . . are courts
of equity and apply the principles and rules of equity
jurisprudence.” Young v. United States, 535 U.S. 43,
50 (2002) (internal quotation marks and alteration
omitted); see also Pepper v. Litton, 308 U.S. 295, 304
(1939) (“[F]or many purposes, ‘courts of bankruptcy
are essentially courts of equity, and their proceedings
inherently proceedings in equity.’” (quoting Local Loan
Co. v. Hunt, 292 U.S. 234, 240 (1934))); Katchen v.

19a
Landy, 382 U.S. 323, 327 (1966).
One of the
Bankruptcy Code’s central provisions, 11 U.S.C.
§ 105(a), which grants bankruptcy courts “broad
authority to ‘exercise [their] equitable powers -- where
necessary or appropriate -- to facilitate the
implementation
of
other
Bankruptcy
Code
provisions,’” makes clear that equity’s role in
facilitating implementation of the Code survives in its
present iteration. Ameriquest Mortg. Co. v. Nosek (In
re Nosek), 544 F.3d 34, 43 (1st Cir. 2008) (internal
quotation marks omitted) (quoting Bessette v. Avco
Fin. Servs., Inc., 230 F.3d 439, 444 (1st Cir. 2000)).
The entry of a plan of adjustment is inherently such
an equitable proceeding. See Kuehner v. Irving Tr.
Co., 299 U.S. 445, 452 (1937) (discussing how “the
equitable adjustment of creditors’ claims . . . by way of
reorganization, may therefore be regulated by a
bankruptcy law which impairs the obligation of the
debtor’s contracts”); In re Balt. & O.R. Co., 29 F. Supp.
608, 628 (D. Md. 1939) (allowing preferential
treatment for senior lienholders under a plan because
“equity follows the law” and it would be “inequitable to
fail to recognize” the preferential treatment of the
lien); Andrew B. Dawson, Beyond the Great Divide:
Federalism Concerns in Municipal Insolvency, 11
Harv. L. & Pol’y Rev. 31, 47 (2017) (discussing early
practice in bankruptcy of fashioning priority
requirements for distribution plans using principles of
equity). And nothing about the codification of the
factors a court must consider when confirming a
reorganization plan disturbs this underlying equitable
nature. See 11 U.S.C. § 1129(b) (requiring that a plan
of adjustment that leaves objectors’ claims impaired be
“fair and equitable”); Aurelia Chaudhury et. al., Junk

20a
Cities: Resolving Insolvency Crises in Overlapping
Municipalities, 107 Calif. L. Rev. 459, 517 (2019)
(“[C]ourts [in municipal bankruptcies] have engaged
in somewhat free-form equitable balancing, explicitly
allowing municipalities to consider all sorts of policy
considerations in devising plans of adjustment.”). One
need only look to how a reorganization plan actually
acts as a remedy -- reformation of complex contractual
relationships -- to recognize its equitable character.
We therefore find the teaching of Mission Product
inapplicable here, where the issue at hand turns not
on jurisdiction but on the merits of what is in form and
substance a request for equitable relief.
2.
As an alternative threshold objection to applying the
doctrine of equitable mootness, the Elliott objectors
contend that, even if the doctrine fits well within the
context of a commercial bankruptcy case, it does not
apply in a municipal bankruptcy proceeding, and
certainly not in a Title III proceeding under
PROMESA.
As to municipal bankruptcy proceedings, every
circuit that has considered the doctrine’s applicability
to Chapter 9 adjustment plans has uniformly treated
it as applicable. See, e.g., Cobb v. City of Stockton (In
re City of Stockton), 909 F.3d 1256, 1263 (9th Cir.
2018); Bennett v. Jefferson Cnty., 899 F.3d 1240, 125051 (11th Cir. 2018); Ochadleus v. City of Detroit (In re
City of Detroit), 838 F.3d 792, 802-05 (6th Cir. 2016).
And they have done so by explaining that the very
nature of the relief in a municipal bankruptcy

21a
proceeding can implicate substantial reliance interests
and a particular need for finality once consummated.
In re City of Stockton, 909 F.3d at 1263. “If the
interests of finality and reliance are paramount to
[application of equitable mootness for] a Chapter 11 . .
. entity . . . , then these interests surely apply with
greater force” to a Chapter 9 plan. In re City of
Detroit, 838 F.3d at 803 (quotation omitted).
So to address whether the doctrine should apply to
adjustment plans under PROMESA, we ask the same
question: whether the reasons for making the doctrine
applicable to Chapter 11 reorganizations apply with
equal or even greater force to adjustments under
PROMESA.
We believe they do.
Nothing in
PROMESA undercuts the inherently equitable nature
of a proceeding to approve a plan of adjustment. To
the contrary, PROMESA incorporates Bankruptcy
Code Section 105 (granting the court powers as
appropriate to carry out the Code) and parts of Section
1129(b) (1), (b) (2) (A), and (b) (2) (B) (allowing a court
to confirm a plan that is fair and equitable). 48 U.S.C.
§ 2161(a). PROMESA, like Chapter 9, allows the
Board to modify plans only prior to confirmation. 48
U.S.C. § 2173. That the initial proceedings are in a
federal district court under PROMESA, with appeals
directly to this court, instead of in a bankruptcy court
with appeals in the first instance to a district court or
the bankruptcy appellate panel, is either irrelevant or
cuts in favor of the doctrine’s applicability, as it
removes the concern that no Article III court
effectively reviewed an Article I court’s decision. See
In re City of Detroit, 838 F.3d at 806 (Moore, J.,
dissenting) (noting a concern that application of the
doctrine in other types of plans may mean that the

22a
merits “will never be heard by an Article III judge”).
Finally, the importance of treating plans as final and
worthy of reliance is certainly no less in proceedings
under PROMESA, including this one, than in Chapter
9 proceedings. For all these reasons, we conclude that
requests for after-the-fact judicial rejections or
modifications of confirmed plans under PROMESA
pose the type of equitable and pragmatic
considerations that implicate the doctrine of equitable
mootness.
C.
We consider next how the Pinto-Lugo appeal fares
under the equitable mootness doctrine. We start with
the Pinto-Lugo objectors’ lack of diligence in seeking to
stay implementation of the plan until their appeals
could be heard. Repeatedly, they sat on their hands.
Absent a waiver, a plan cannot be implemented until
fourteen days after confirmation, during which time
the parties may also seek a longer stay of the Plan
pending appeal. See Fed. R. Bankr. P. 3020(e).
COFINA’s plan contained such a waiver. The PintoLugo objectors nevertheless, in filing objections to
other terms in the proposed Plan, offered no complaint
at all about the waiver of the automatic stay, thereby
signaling that they were prepared to see the Plan go
into effect promptly if their objections to its terms were
rejected.
When the Title III court did finally approve the Plan,
the Pinto-Lugo objectors did not file a motion to stay,
either in the Title III court or this court. Nor did they
subsequently seek to expedite the appeal. They did not
even object to requests to extend the briefing schedule,

23a
in fact seeking an extension of the briefing schedule
themselves. In short, they have done anything but
diligently seek to prevent third parties from building
reliance interests in the confirmation of the Plan.
The Pinto-Lugo objectors contend that they need not
have sought a stay to vindicate their “fundamental
constitutional rights.” But while the nature of the
right being asserted may be a factor to consider in
conducting equitable balancing, the presence of
underlying constitutional claims does not act as a per
se bar to the applicability of the doctrine. Bennett, 899
F.3d at 1251 (applying the mootness doctrine despite
the presence of state constitutional claims). As the
Eleventh Circuit stated aptly,
the mere fact that a potential or actual
violation of a constitutional right exists
does not generally excuse a party’s failure
to comply with procedural rules for
assertion of the right. A “constitutional
right, or a right of any other sort, may be
forfeited in criminal as well as civil cases
by the failure to make timely assertion of
the right before a tribunal having
jurisdiction to determine it.” Henderson
v. United States, 568 U.S. 266, 271 (2013)
(internal quotation marks omitted). And
we
generally
allow
those
with
constitutional rights to waive them.
Id. This logic applies with equal force here.
The Pinto-Lugo objectors next contend that the
Board caused the eggs to be scrambled by going

24a
forward knowing of the threat posed to the Plan by
their adversary proceeding challenging a necessary
precondition to the Plan. But the Title III court found
the arguments advanced in support of that challenge
to be either without merit or not amenable to judicial
relief. More importantly, once the plan proponents
secured court approval to proceed forthwith, they had
no obligation to not proceed forthwith. Rather, the
burden was on the objectors to seek any stay.
The Pinto-Lugo objectors also argue that any request
for a stay would have been futile.
But they
simultaneously claim to have had good grounds for
their objections to plan approval. And while the
Title III court was undoubtedly of the view that the
objections were without merit, the Pinto-Lugo
objectors offer no evidence that the court would not
have entertained some temporary stay had one been
sought. In any event, even if it would have been futile
to seek a stay from the Title III court, they certainly
could have sought a stay from this court. See id. at
1252 (discussing how the ability to expedite an appeal
or seek a stay from a reviewing court weighs against
any potential futility of doing so in the bankruptcy
court). All in all, the Pinto-Lugo objectors’ complete
and repeated lack of diligence in utilizing available
mechanisms to stay implementation of the Plan cuts
sharply against them.
Nor does the record cut otherwise when we examine
whether “the challenged plan [has] proceeded to a
point well beyond any practicable appellate
annulment.” PPUC Pa. Pub. Util. Comm’n, 874 F.3d
at 37. In Rochman, we noted that

25a
on the effective date of the reorganization
plan, all preexisting equity interests in
[the debtor] were exchanged for
replacement
securities,
including
approximately 32,000,000 shares of
[debtor] common stock, notes aggregating
$205,000,000, and more than 8,000,000
certificates evidencing contingent rights
to acquire, upon [the debtor’s] eventual
merger with NUSC and Northeast
Utility, warrants to purchase common
stock in the emergent entity.
Approximately $1,530,000,000 and
8,000,000
newly-issued
contingent
warrant certificates were delivered to the
distributing agent on May 16, 1991, and
distributions commenced the next day.
Consequently, in accordance with the
terms of the confirmed plan, more than
100,000 individuals and entities received,
or became entitled to receive, various
forms of securities in full satisfaction of
their [debtor] claims and interests.
963 F.2d at 474. Those “innumerable transfers,” we
held, “plainly represent[ed] so substantial a
consummation of the reorganization plan as to render
the requested appellate relief impracticable.” Id.
The relief requested in this case is no less
impracticable.
Indeed, the Pinto-Lugo objectors
describe the result of the relief they seek as
“apocalyptic.” Pursuant to the Plan and new bond
legislation, upon consummation of the Plan old

26a
COFINA bonds worth over $17 billion were exchanged
for reorganized COFINA bonds worth over $12 billion.
Those new COFINA bonds have since changed hands
tens of thousands of times on the open market for over
a year, with many now held by strangers to these
proceedings. In addition, COFINA distributed about
$322 million to creditors, Bank of New York Mellon
(BNYM), as trustee, transferred more than $1 billion
in disputed SUT revenues to the Commonwealth and
COFINA, and insurers of the old bonds have paid
holders of old bonds under the Plan. Complicating
matters further, claims have been released and all
litigation arising from the restructuring has been
dismissed with prejudice. The Pinto-Lugo objectors
offer no practical way to undo all of this and return to
the pre-confirmation status quo.
The Pinto-Lugo objectors fare no better when we
look to see whether unwinding the Plan will harm
innocent third parties who, due to the Pinto-Lugo
objectors’ lack of diligence, justifiably came to rely on
the confirmation order. See In re Pub. Serv. Co. of
N.H., 963 F.2d at 475. Clearly that is the case here no
less than in Rochman: “unraveling the substantially
consummated [debtor] reorganization plan would
work incalculable inequity to many thousands of
innocent third parties who have extended credit,
settled claims, relinquished collateral and transferred
or acquired property in legitimate reliance on the
unstayed order of confirmation.” Id.; see also In re
One2One Commc’ns, LLC, 805 F.3d 428, 436 (3d Cir.
2015) (recognizing as a general matter that reversal of
plan confirmation is more likely to be inequitable in
similar circumstances). Here, moreover, the Plan as
implemented serves as important forward motion in

27a
the Commonwealth’s economic recovery. Reversal of
that momentum at this late date would inevitably
undercut confidence in the ability of the Plan’s
supporters to achieve that recovery. See In re City of
Detroit, 838 F.3d at 799.
Finally, we recognize the possibility that, in some
cases, it might be possible to modify a stand-alone
component of a plan to satisfy an idiosyncratic claim
without upsetting the interests of third parties, and
without setting a precedent that would trigger a
cascade of such claims. See Samson Energy Res. Co.
v. Semcrude, L.P. (In re Semcrude, L.P.), 728 F.3d 314,
321, 323-26 (3d Cir. 2013). Here, though, we have a
carefully balanced and highly reticulated plan that
offers no relevant stand-alone component that might
be modified to satisfy the Pinto-Lugo objectors. In
turn, their entire argument is predicated on the newly
issued bonds being unlawful. We therefore deny as
inequitable and impractical the relief sought by the
Pinto-Lugo objectors.
D.
Like the Pinto-Lugo objectors, the Elliott objectors
failed to object to the waiver of the automatic stay of
confirmation, did not seek any stay pending appeal,
neither sought to expedite the appeal nor objected to
requests for extension, and in fact sought to extend the
briefing schedule themselves. Similarly, as their
objections go to the heart of the Plan (the approval of
the COFINA-Commonwealth settlement), posing now
a retroactive annulment would entail the exact
difficulties that we have already discussed. Despite
these difficulties, the Elliot objectors offer a variety of

28a
reasons why equitable mootness is nonetheless
inapplicable to their particular appeal.
First, the Elliott objectors contend that seeking a
stay would have been futile because simple monetary
relief is available. But for reasons we will soon
discuss, the simple monetary relief they seek is not a
feasible alternative remedy, so seeking a stay would
not have been an exercise in futility.
Second, the Elliott objectors contend that seeking to
expedite the appeal would have yielded little benefit
after consummation. Perhaps. But it is due to their
delay that the appeal trailed well after consummation.
Third, the Elliott objectors claim that the Board has
unclean hands and thus is not in a position to invoke
equitable mootness. But as evidence of unclean hands
the Elliott objectors point only to the reasons why they
object to the Plan. Were this cause for rendering the
doctrine of equitable mootness inapplicable, the
doctrine would never have any applicability except in
those cases in which the appeal would have failed on
the merits anyway.
Fourth, the Elliott objectors contend that they did
object to the waiver of the automatic stay period in the
Plan by objecting to the Plan “in its entirety/in all
material respects.”
But such a catch-all and
perfunctory objection to a multi-part, reticulated plan
raising a slew of issues does not preserve an objection
that is not even mentioned, much less developed. Cf.
United States v. Zannino, 895 F.2d 1, 17 (1st Cir.
1990). Had the objectors had any desire to have
confirmation stayed, they should have said so.

29a
Finally, we come to the Elliott objectors’ primary
argument, the idea that we can craft relief short of
annulling the entire Plan while avoiding injury to
innocent third parties. See Prudential Ins. Co. of Am.
v. SW Bos. Hotel Venture, LLC (In re SW Bos. Hotel
Venture, LLC), 748 F.3d 393, 403 (1st Cir. 2014)
(affirming the bankruptcy appellate panel’s denial of
dismissal where “the bankruptcy court could fashion
some form of practicable relief, even if only partial or
alternative”). They contend that we can order the
Commonwealth to pay what they estimate to be
around $316 million to compensate all non-consenting
bondholders for the value of their original COFINA
bond liens, which they argue was reduced by the
COFINA settlement in violation of the Takings Clause
and Contracts Clause, among other things.
This argument overlooks the fact that the Plan
rested at base on the court’s approval of a settlement
between the Commonwealth and COFINA pursuant to
which the Commonwealth retained 46.35% of SUT
revenues.
The Title III court could approve or
disapprove the plan; no one explains how the Title III
court could have successfully compelled the
Commonwealth to settle its adversary proceeding
against COFINA for less than the 46.35% provided for
in the approved settlement. See 48 U.S.C. § 2165. So
it would seem to follow that we, too, could not “tweak”
the plan by ordering the Commonwealth to settle for
46.35% minus $316 million. In short, we face an upor-down decision -- affirm or vacate Plan approval.
And because no one sought a stay of the plan approval,
vacating approval is precisely what would trigger a
hopeless effort to unscramble the eggs. See In re BGI,
Inc., 772 F.3d 102, 108 (2d Cir. 2014) (asking courts to

30a
“examine the actual effects of the requested relief” to
see, for example, if such relief would “unravel intricate
transactions so as to knock the props out from under
the authorization for every transaction that has [since]
taken place” (internal quotation marks omitted)); cf. In
re City of Detroit, 838 F.3d at 799 (explaining how
undoing the compromise central to an adjustment plan
is exactly the type of scenario the doctrine of equitable
mootness contemplates). We therefore conclude that
the relief sought by the Elliott objectors is neither
equitable nor practical, and for that reason deny their
appeal.2
E.
On appeal, Hein joins the various arguments made
by the Elliott objectors, all of which we have disposed
of. As a former holder of COFINA subordinate bonds,
he also raises three issues of his own that do not call
for retroactively undoing the implemented Plan. First,
Hein complains that the Title III court improperly
withheld from public access a transcript of a ruling
incorporated by reference into one of the court’s orders.
Second, he challenges a discovery ruling denying a
motion he filed seeking, post-confirmation, to compel
documents concerning communication between
COFINA and the Internal Revenue Service. Third, he
On the question of whether their appeal should be denied as
equitably moot, the Elliott objectors include in their brief literally
dozens of other assertions to which they devote only one or two
sentences with no development and often without any citation of
relevant authority. To the extent we have not expressly listed and
addressed these contentions, we deem them waived for
insufficient development. Zannino, 895 F.2d at 17.
2

31a
contends that the Title III court erred in dismissing
his individual proof of claim as duplicative of the
trustee’s claim on his behalf.
As to the ruling transcript, Hein’s brief offers no
evidence at all that he ever raised with the Title III
court his complaint about the timing of transcript
releases. So we have no idea how the court would have
addressed the issue, what legal and practical issues
might be implicated, or what alternatives might be
available. We therefore deem Hein’s argument on this
issue waived.
As to Hein’s discovery request, we affirm the Title III
court’s denial for the reason given by that court: The
discovery was not relevant to any pending matter Hein
had before the court. Hein’s only then-pending matter
before the court was COFINA’s objection to his
individual proof of claim. The only issue posed by that
objection was whether Hein’s claim as a bondholder
was duplicative of the trustee’s claim on his behalf.
And neither below nor on appeal has Hein developed
any cogent connection between the requested
discovery and the resolution of the objection to his
claim as duplicative.3
That last point brings us to Hein’s main contention
not disposed of by our rejection of the challenges to
Plan confirmation: that his proof of claim against
In addition, as Hein has not raised an objection under 11
U.S.C. § 1144 (incorporated into PROMESA through 48 U.S.C.
§ 2161), we find no basis for finding his requested discovery
materials relevant “to ensure the integrity of the proceedings” or
otherwise.
3

32a
COFINA was not duplicative of the claim pursued on
his behalf by the trustee. The parties offer no
argument concerning the standard of review we should
apply to this contention. We will assume, arguendo,
that de novo review applies.
The BNYM, as bond trustee, filed an amended
master proof of claim on behalf of all COFINA
bondholders on May 25, 2018. That claim was for
“amounts due or becoming due on or in connection with
the Subordinate Bonds.” That is, BNYM (like Hein)
asserted that Hein was entitled to full payment under
the bond instruments. Hein makes no claim that the
master claim was disallowed in any respect at all.
After the Plan’s confirmation and pursuant to its
terms, the BNYM received a distribution on the
master claim, which it paid out to Hein pro rata for his
share of junior COFINA bonds. Hein’s payment
equaled less than the full amount of his claim only
because COFINA did not have assets sufficient to pay
its bondholders in full; hence the pro rata payments.
So the question posed is whether Hein’s proof of claim
was duplicative of the master claim filed on his behalf.
As relevant here, a claim is a “right to payment.” 11
U.S.C. § 101(5) (incorporated by 48 U.S.C. § 2161).
Hein’s right to payment by COFINA was a right no
different than that of every other junior bondholder’s
right to be paid full principal and interest on the
COFINA bonds they held. That is what he seeks on
this appeal. And that is exactly the payment sought
on his behalf by the trustee: full payment of principal
and interest under the bonds.
Hein’s proof of claim asserts no other right to
payment from COFINA. He implicitly concedes that,

33a
had he received the amount of money due under the
bonds, he would have had no claim at all. Nor does he
claim that he did not receive a full pro rata payment
on his claim just as did other junior bondholders.
Rather, his contention is that all junior bondholders
should have received more because COFINA would
have had more funds available had the
Commonwealth not diverted SUT revenues from
COFINA. In other words, he is either repeating his
objections to the Plan’s blessing of the CommonwealthCOFINA settlement, or he is saying that he could have
had some sort of independent claim against the
Commonwealth for taking money that he feels should
have gone to COFINA. To the extent Hein’s claim is
the former, we have already disposed of those
objections as equitably moot.4 To the extent it is the
latter, it has no relevance to the adjudication of the
objection to his proof of claim against COFINA.
III.
For the foregoing reasons, we dismiss the challenges
to the Title III court’s confirmation of the Plan, and we
affirm the court’s orders rejecting Hein’s discovery

Hein faults the Title III court for declining under the
divestiture rule to consider those objections in connection with
the adjudication of his proof of claim. We disagree. The Title III
court appropriately deferred to our consideration of Hein’s
already filed appeal with the Elliott objectors, which raises the
same issues. United States v. Brooks, 145 F.3d 446, 455–56 (1st
Cir. 1998). On the other hand, the court was free to decide the
wholly separate issue of whether Hein had a right to payment
independent of his right under the bond instrument.
4

34a
request and dismissing his proof of claim against
COFINA.

35a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
In re:
THE FINANCIAL
OVERSIGHT AND
MANAGEMENT BOARD
FOR PUERTO RICO,
as representative of

PROMESA
Title III
No. 17 BK 3283-LTS
(Jointly
Administered)

The Commonwealth Of
Puerto Rico, et al.,
Debtors.1

The Debtors in these Title III Cases, along with each Debtor’s
respective Title III case number and the last four (4) digits of each
Debtor’s federal tax identification number, as applicable, are the
(i) Commonwealth of Puerto Rico (Bankruptcy Case No. 17 BK
3283-LTS) (Last Four Digits of Federal Tax ID: 3481); (ii) Puerto
Rico Sales Tax Financing Corporation (“COFINA”) (Bankruptcy
Case No. 17 BK 3284-LTS) (Last Four Digits of Federal Tax ID:
8474); (iii) Puerto Rico Highways and Transportation Authority
(“HTA”) (Bankruptcy Case No. 17 BK 3567-LTS) (Last Four
Digits of Federal Tax ID: 3808); (iv) Employees Retirement
System of the Government of the Commonwealth of Puerto Rico
(“ERS”) (Bankruptcy Case No. 17 BK 3566-LTS) (Last Four Digits
of Federal Tax ID: 9686); and (v) Puerto Rico Electric Power
Authority (“PREPA”) (Bankruptcy Case No. 17 BK 4780-LTS)
(Last Four Digits of Federal Tax ID: 3747) (Title III case numbers
1

36a
In re:
THE FINANCIAL
OVERSIGHT AND
MANAGEMENT BOARD
FOR PUERTO RICO,

PROMESA
Title III
No. 17 BK 3284-LTS

as representative of
PUERTO RICO SALES TAX
FINANCING
CORPORATION,
Debtor.
AMENDED MEMORANDUM OF FINDINGS OF FACT
AND CONCLUSIONS OF LAW IN CONNECTION
WITH CONFIRMATION OF THE THIRD AMENDED
TITLE III PLAN OF ADJUSTMENT OF PUERTO RICO
SALES TAX FINANCING CORPORATION*
LAURA TAYLOR SWAIN, United States
District Judge

are listed as Bankruptcy Case numbers due to software
limitations).
This Amended Memorandum corrects certain typographical
errors, includes additional legal reasoning in footnote 14, and
supersedes the Memorandum of Findings of Fact and
Conclusions of Law in Connection with Confirmation of the Third
Amended Title III Plan of Adjustment of Puerto Rico Sales Tax
Financing Corporation filed as Docket Entry No. 5047 in Case No.
17-3283 and Docket Entry No. 558 in Case No. 17-3284.
*

37a
Before the Court is the Third Amended Title III Plan
of Adjustment of Puerto Rico Sales Tax Financing
Corporation, dated January 9, 2019 (Exhibit A to
Docket Entry No. 439 in Case No. 17-32842) (as
modified pursuant to any revisions made at or
subsequent to the Confirmation Hearing as set forth
in the Confirmation Order, including the Second
Amended Plan Supplement, and as may be modified
pursuant to section 313 of PROMESA, the “Plan”)3
filed by the Puerto Rico Sales Tax Financing
Corporation (“COFINA” or the “Debtor”), by and
through the Financial Oversight and Management
Board for Puerto Rico (the “Oversight Board”), as
representative of the Debtor under PROMESA section
315(b).4 In connection with the Plan, the following
All docket entry references are to entries in Case No. 17-3284,
unless otherwise noted.
2

Capitalized terms used but not defined herein shall have the
meanings ascribed to them in the Plan, the Disclosure Statement
Order, or the Confirmation Brief (each as defined herein), as
applicable; provided, however, that references herein to “COFINA
Revenues” are used to maintain consistent terminology with the
New Bond Legislation and shall have the same meaning as the
term “COFINA Portion” as defined and used in the Plan, and
shall include any collateral that may be substituted for the
COFINA Revenues in accordance with the terms and provisions
of the Plan and the New Bond Legislation.
3

The Court previously entered, pursuant to, inter alia, section
1125 of the Bankruptcy Code and Bankruptcy Rule 3017(b), after
due notice and a hearing, an order, dated November 29, 2018
(Docket Entry No. 375, the “Disclosure Statement Order”),
approving the Disclosure Statement, establishing procedures for
the solicitation, voting, and tabulation of votes on and elections
with respect to the Plan, approving the forms of ballots, master
ballots, and election notices used in connection therewith, and
4

38a
documents have been filed by the Debtor, the COFINA
Agent, or PSA Creditors in support of or in connection
with confirmation of the Plan, including the
Settlement of the Commonwealth-COFINA Dispute
incorporated into the Plan:
(a) Second Amended Plan Supplement and Plan
Related Documents of Puerto Rico Sales Tax
Financing Corporation (Docket Entry No. 4956
in Case No. 17-3283, the “Second Amended Plan
Supplement”);
(b) Certificate of Service of Solicitation Materials
(Docket Entry No. 387, the “Mailing Affidavit”);
(c) Certificate of Publication (Docket Entry No. 585,
the “Publication Affidavit”);
(d) Certificate of Service (Docket Entry No. 429, the
“Garraway Affidavit”, and together with the
Mailing Affidavit and Publication Affidavit, the
“Service Affidavits”);
(e) Omnibus Reply of Puerto Rico Sales Tax
Financing Corporation to Objections to Second
Amended Title III Plan of Adjustment (Docket
Entry No. 4663 in Case No. 17-3283, the
“Omnibus Reply”);

approving the form of notice of the Confirmation Hearing.
Moreover, the Court previously entered the Notice Regarding the
Proper Method for Submission of Objections to the Proposed
COFINA Plan of Adjustment (Docket Entry No. 384).

39a
(f) Memorandum of Law in Support of Puerto Rico
Sales Tax Financing Corporation’s Third
Amended Title III Plan of Adjustment (Docket
Entry No. 4664 in Case No. 17-3283, the
“Confirmation Brief”);
(g) Declaration of Natalie A. Jaresko in Support of
Confirmation of Third Amended Title III Plan of
Adjustment of Puerto Rico Sales Tax Financing
Corporation (Docket Entry No. 4756 in Case No.
17-3283, the “Jaresko Decl.”);
(h) Declaration of David M. Brownstein in Support
of Confirmation of Third Amended Title III Plan
of Adjustment of Puerto Rico Sales Tax
Financing Corporation (Docket Entry No. 4757
in Case No. 17-3283, the “Brownstein Decl.”);
(i) Declaration of Christina Pullo of Prime Clerk
LLC Regarding the Solicitation of Votes and
Tabulation of Ballots Cast on the Second
Amended Title III Plan of Adjustment of Puerto
Rico Sales Tax Financing Corporation (Docket
Entry No. 4794 in Case No. 17-3283, the “Pullo
Decl.”);
(j) Statement of COFINA Agent in Support of
Second Amended Title III Plan of Adjustment of
Puerto Rico Sales Tax Financing Corporation
(Docket Entry No. 4656 in Case No. 17-3283);
(k) Declaration of Matthew A. Feldman (Docket
Entry No. 4656-1 in Case No. 17-3283, the
“Feldman Decl.”);

40a
(l) Omnibus Reply of the COFINA Senior
Bondholders’ Coalition to Objections to
Confirmation of the Second Amended Title III
Plan of Adjustment of Puerto Rico Sales Tax
Financing Corporation (Docket Entry No. 4665
in Case No. 17-3283, the “Senior Coalition
Reply”), and the joinder filed thereto by the
certain Puerto Rico based mutual funds (Docket
Entry No. 4670 in Case No. 17-3283);
(m) Declaration of Matthew Rodrigue in Support of
Omnibus Reply of the COFINA Senior
Bondholders’ Coalition to Objections to
Confirmation of the Second Amended Title III
Plan of Adjustment of Puerto Rico Sales Tax
Financing Corporation (“COFINA”) (Docket
Entry No. 4665-1 in Case No. 17-3283, the
“Rodrigue Decl.”);
(n) Declaration of Natalie A. Jaresko in Support of
Commonwealth of Puerto Rico’s Motion
Pursuant to Bankruptcy Rule 9019 for Order
Approving Settlement Between Commonwealth
of Puerto Rico and Puerto Rico Sales Tax
Financing Corporation (Docket Entry No. 4758
in Case No. 17-3283, the “Jaresko (9019) Decl.”);
(o) Informative Motion of National Public Finance
Guarantee Corporation in Support of COFINA
Plan of Adjustment (Docket Entry No. 4888 in
Case No. 17-3283);
(p) Ambac Assurance Corporation’s Statement
Concerning the Court’s Authority to Determine
and Declare the Validity of the New Bond

41a
Legislation (Docket Entry No. 4889 in Case No.
17-3283);
(q) Supplemental Brief of Plan Support Parties in
Support of Proposed Findings of Fact and
Conclusions of Law and Order Confirming Third
Amended Plan of Adjustment of Puerto Rico
Sales Tax Financing Corporation (Docket Entry
No. 4890 in Case No. 17-3283); and
(r) Declaration of Susheel Kirpalani in Support of
Supplemental Brief of Plan Support Parties in
Support of Proposed Findings of Fact and
Conclusions of Law and Order Confirming Third
Amended Plan of Adjustment of Puerto Rico
Sales Tax Financing Corporation (Docket Entry
No. 4892 in Case No. 17-3283).
Opposition submissions were filed by the following
parties: (i) Stephen T. Mangiaracina (Docket Entry
No. 4481 in Case No. 17-3283, the “Mangiaracina
Objection”), (ii) the Service Employees International
Union and International Union, United Automobile,
Aerospace and Agricultural Implement Workers of
America (UAW) (Docket Entry No. 4556 in Case No.
17-3283), (iii) Peter C. Hein (Docket Entry Nos. 4585,
4595, 4673, 4911, and 5041 in Case No. 17-3283), (iv)
GMS Group, LLC (Docket Entry Nos. 4564, 4587,
4605, 4853, and 5002 in Case No. 17-3283), (v)
PROSOL-UTIER5 (Docket Entry No. 4592 in Case No.

As used herein, the term “PROSOL-UTIER” refers collectively
to (1) Capítulo Autoridad de Carreteras, (2) Capítulo Instituto de
Cultura Puertorriqueña, (3) Capítulo Oficina del Procurador del
5

42a
17-3283), (vi) Mark Elliott (Docket Entry Nos. 4597,
4598, 4606, and 4641 in Case No. 17-3283), (vii) the
VAMOS Group6 (Docket Entry No. 4607 in Case No.
17-3283, the “VAMOS Objection”), (viii) Lawrence B.
Dvores (Docket Entry No. 4613 in Case No. 17-3283),
and (ix) the Credit Union Group7 (Docket Entry No.
415).8 The Court heard argument and received
Veterano, (4) Capítulo de Oficina Desarrollo Socioeconómico y
Comunitario y (5) Capítulo de Jubilados.
As used herein, the term “VAMOS Group” refers collectively
to René Pinto Lugo, VAMOS, Movimiento de Concertación
Ciudadana Inc., Unión de Empleados de Oficina y Profesionales
de la Autoridad de Edificios Públicos, Unión Insular de
Trabajadores Industriales y Construcciones Eléctricas Inc.,
Unión Independiente de Empleados de la Autoridad de
Acueductos y Alcantarillados, Unión de Empleados de Oficina
Comercio y Ramas Anexas, Puertos, Unión de Empleados
Profesionales Independientes, Unión Nacional de Educadores y
Trabajadores de la Educación, and la Asociación de Inspectores
de Juegos de Azar, and Manuel Natal-Albelo.
6

As used herein, the term “Credit Union Group” refers
collectively to Cooperativa de Ahorro y Crédito de Rincón,
Cooperativa de Ahorro y Crédito Dr. Manuel Zeno Gandía,
Cooperativa de Ahorro y Crédito del Valenciano, and Cooperativa
de Ahorro y Crédito de Juana Díaz.
7

In addition to the briefing enumerated above, the Legal Brief
of Amicus Curiae Popular Democratic Party Caucus of the Puerto
Rico Senate (Against an Order of Plan Confirmation Containing
Findings of Fact and Law That Sanction Legislative
Entrenchment) (Docket Entry No. 529, the “PDP Amicus Brief’)
was filed in opposition to the Plan. The Response of Financial
Oversight and Management Board to Amicus Curiae Brief of
Popular Democratic Party Caucus of the Puerto Rico Senate
(Docket Entry No. 4887 in Case No. 17-3283) was filed in response
to the PDP Amicus Brief as instructed by the Court.
8

43a
evidence in connection with the motion for
confirmation of the Plan on January 16 and 17, 2019
(the “Confirmation Hearing”).9
The Court has
considered carefully the Plan, as well as the abovereferenced supporting and opposition submissions,
and the witness testimony and voluminous briefing
and written evidence submitted by the parties. The
Court has also reviewed and considered carefully
hundreds of letters and email messages, including a
petition, submitted by members of the public and has
listened carefully to the oral remarks made on the
record of the Confirmation Hearing by members of the
public. For the following reasons, the Plan is hereby confirmed
and the objections are overruled.10

On January 16 and 17, 2019, the Court also heard argument
on the (i) Commonwealth’s Motion Pursuant to Bankruptcy Rule
9019 for Order Approving Settlement Between Commonwealth of
Puerto Rico and Puerto Rico Sales Tax Financing Corporation
(Docket Entry No. 4067 in Case No. 17-3283, the “9019 Motion”),
and (ii) a dispute regarding section 19.5 of the Plan (see Docket
Entry No. 4067 in Case No. 17-3283, the “19.5 Dispute”).
9

On January 29, 2019, the Court received and carefully
reviewed The Autonomous Municipality of San Juan’s Motion for
Leave to File Amicus Brief Regarding the COFINA Plan of
Adjustment (Docket Entry No. 4985 in Case No. 17-3283, the “San
Juan Motion”). Because the arguments untimely raised in the
proffered amicus brief will not provide “supplementing
assistance” to existing counsel, and because the Autonomous
Municipality of San Juan has not established that it has a “special
interest in this case” that justifies the filing of an amicus brief at
this juncture, the San Juan Motion is hereby denied. See Strasser
v. Doorley, 432 F.2d 567, 569 (1st Cir. 1970).
10

44a
INTRODUCTION
Nearly two years ago, the Commonwealth of Puerto
Rico, through the Oversight Board, initiated
unprecedented proceedings to restructure the debts of
the Commonwealth of Puerto Rico and certain of its
instrumentalities, including COFINA, under Title III
of PROMESA.
At the outset of these historic
proceedings, the Court emphasized that the goal of
Title III of PROMESA and the Court’s goal in
overseeing these cases would be to find a path forward
for Puerto Rico, its citizens, and the others who hold
stakes in its future, including the financial investors
who held obligations or are otherwise dependent on
Puerto Rico for their financial wellbeing. The COFINA
Plan represents a significant step on the path towards
Puerto Rico’s financial recovery, economic stability,
and prosperity.
The Court is deeply mindful that the COFINA Plan,
which is based on compromises of strongly contested
positions, commits substantial portions of Puerto
Rico’s scarce revenues to bond payments over a period
of decades while at the same time affording
bondholders less value, on different terms, than they
had expected when they invested in COFINA.
Citizens who live and work in Puerto Rico and
institutions that serve them are concerned that the
financial settlement that made the Plan possible will
hinder the Commonwealth’s ability to provide for its
people,11 even though the Settlement gives the

The Settlement is addressed in the Memorandum Opinion
and Order Approving Settlement Between Commonwealth of
11

45a
Commonwealth access to a substantial amount of
revenues that had previously been allocated to
COFINA. However, after considering the applicable
legal standards and the evidence, the Court is
persuaded that the COFINA Plan is a necessary and
legally compliant component of Puerto Rico’s recovery
efforts and is essential to ensure that Puerto Rico is on
a path that will restore its access to financial markets
as it builds a stronger economy. It is important for all
to bear in mind that the Plan before the Court
addresses only COFINA’s assets and liabilities. It
does not map the way forward for the Commonwealth
of Puerto Rico. In formulating a separate plan for the
Commonwealth, the Oversight Board and the elected
Government will have to address the logical and wellfounded concerns of citizens and creditors of the
Commonwealth in responsible, meaningful ways.
The Court has also considered the argument raised
by certain public participants at the Confirmation
Hearing, as by well as citizens of Puerto Rico who have
written numerous letters to the Court, that a
comprehensive audit of Puerto Rico’s financial
circumstances should be conducted prior to
confirmation of the COFINA Plan. (See, e.g., Docket
Entry No. 4348 in Case No. 17-3283 (Notice of
Correspondence dated November 20, 2018), at 17; Jan.
16, 2019 Hr’g Tr. 54:1-3, 83:19-23, 95:23-96:3, 98:899:13, Docket Entry No. 4848 in Case No. 17-3283; and
Jan. 17, 2019 Hr’g Tr. 71:5-17, 73:11-76:22, Docket
Entry No. 4850 in Case No. 17-3283; see also Docket
Puerto Rico and Puerto Rico Sales Tax Financing Corporation.
(See Docket Entry No. 5045 in Case No. 17-3283.)

46a
Entry No. 4494 in Case No. 17-3283 (Notice of
Correspondence dated December 18, 2018); Docket
Entry No. 4576 in Case No. 17-3283 (Notice of
Correspondence dated December 27, 2018); Docket
Entry No. 4650 in Case No. 17-3283 (Notice of
Correspondence dated January 9, 2019); Docket Entry
No. 4809 in Case No. 17-3283 (Notice of
Correspondence dated January 15, 2019).)
The
COFINA Plan represents a consensual resolution of
complicated and expensive litigation that presented
serious issues that had been raised well before the
commencement of COFINA’s Title III case. This
resolution resulted from arm’s length negotiations and
is necessary to allow the Commonwealth to move
forward while reducing certain of its existing
obligations to COFINA, and to enable COFINA to
fulfill reliably its reduced and restructured
obligations. The timing of this Plan is therefore
reasonable and appropriate. The Court notes that
approval of the Settlement and the Plan does not
foreclose further investigation, whether through
regulatory, law enforcement, or civil litigation
channels, into the origins of Puerto Rico’s debt crisis
and the application of the proceeds of the prePROMESA borrowings. The Court’s decision on the
motion for confirmation of the COFINA Plan, and the
reasons for that decision, are explained in the further
Findings of Fact and Conclusions of Law that follow.
FINDINGS OF FACT AND CONCLUSIONS OF LAW
1.
Findings and Conclusions. This Memorandum
constitutes the Court’s findings of fact and conclusions
of law pursuant to Rule 52 of the Federal Rules of Civil
Procedure, as made applicable herein by Federal Rules

47a
of Bankruptcy Procedure 7052 and 9014, and
PROMESA section 310. To the extent any of the
following findings of fact constitute conclusions of law,
they are adopted as such. To the extent any of the
following conclusions of law constitute findings of fact,
they are adopted as such. Any headings or subheadings used herein are for reference purposes only
and shall not affect in any way the meaning or
interpretation of this Memorandum and the Plan.
2.
Jurisdiction.
This Court has exclusive
jurisdiction of the Title III Case pursuant to
PROMESA section 306(a). Venue is proper before this
Court pursuant to PROMESA section 307(a).
Pursuant to section 306(b) of PROMESA, upon
commencement of the Commonwealth Title III Case
and the COFINA Title III Case, the Title III Court
exercised, and continues to exercise, exclusive
jurisdiction over all property of the Commonwealth
and COFINA, wherever located.
To the extent
necessary, pursuant to PROMESA section 305, the
Oversight Board has granted consent to, and the Plan
provides for, this Court’s exercise of jurisdiction over
the property and revenues of the Debtor as necessary
to effectuate the Settlement Order and to approve and
authorize the implementation of this Memorandum,
the Confirmation Order, and the Plan.
3.
Judicial Notice. The Court takes judicial
notice of the New Bond Legislation, which the
Governor of Puerto Rico signed into law on November
15, 2018, and, as explained in Paragraph 120 hereof,
has been duly enacted. See Getty Petroleum Mktg.,
Inc. v. Capital Terminal Co., 391 F.3d 312, 320–21 (1st
Cir. 2004) (“Generally, in the federal system, ‘[t]he law

48a
of any state of the Union, whether depending upon
statutes or upon judicial opinions, is a matter of which
the courts of the United States are bound to take
judicial notice without plea or proof.’” (quoting Lamar
v. Micou, 114 U.S. 218, 223 (1885))); In re Fin.
Oversight & Mgmt. Bd. for P.R., 590 B.R. 577, 590 n.12
(D.P.R. 2018) (citing Getty and taking judicial notice
of the laws of Puerto Rico). The New Bond Legislation,
certified by the Puerto Rico Department of State, is
attached hereto as Exhibit A.12 The Court also takes
judicial notice of the dockets of the Title III Case, the
Commonwealth Title III Case, the appellate court
dockets of any and all appeals filed from any order
entered or opinions issued by the Court in the Title III
Case and the Commonwealth Title III Case, and the
following litigations and adversary proceedings: (a)
The Official Committee of Unsecured Creditors of the
Commonwealth of Puerto Rico, as agent of the
Commonwealth of Puerto Rico v. Bettina Whyte, as
agent of the Puerto Rico Sales Tax Financing
Corporation, Adv. Proc. No. 17-257-LTS, currently
pending before the Court, (the “Adversary
Proceeding”), and The Bank of New York Mellon v.
Puerto Rico Sales Tax Financing Corporation, et al.,
Adv. Proc. No. 17-133-LTS (the “Interpleader Action”),
each of which is maintained by the Clerk of the Court,
including all pleadings and other documents filed, all
orders entered, and all evidence and arguments made,
proffered, or adduced at the hearings held before the
The New Bond Legislation was adopted in English and
Spanish. Pursuant to Article 5.2 of the New Bond Legislation, the
English text governs in the event of a conflict between the English
and Spanish texts.
12

49a
Court during the pendency of the Title III Case and
such adversary proceedings; (b) Ambac Assurance
Corp. v. The Bank of New York Mellon, Case No. 17cv-3804-LTS, currently pending in the United States
District Court for the Southern District of New York
(the “Ambac Action”); (c) In re Fin. Oversight & Mgmt.
Bd. for P.R., No. 18-1108, currently pending in the
United States Court of Appeals for the First Circuit,
In re Fin. Oversight & Mgmt. Bd. for P.R., No. 18-1746,
currently pending in the United States Court of
Appeals for the First Circuit, Union de Trabajadores
de la Industria Electrica y Riego (UTIER) v. P.R Elec.
Power Auth., et al., Adv. Pro. No. 17-AP-228-LTS,
currently pending before the Court, René Pinto Lugo,
et al. v. The Government of the United States of
America, et al., Adv. Pro. No. 18-041-LTS, currently
pending before the Court, Hermanidad De Empleados
Del Fondo Del Seguro Del Estado, Inc., et al. v.
Government of the United States of America, et al.,
Adv. Pro. No. 18-066-LTS, currently pending before
the Court, Hon. Rafael Hernandez-Montanez, et al. v.
The Fin. Oversight & Mgmt. Bd. for P.R., Adv. Pro. No.
18-090-LTS, currently pending before the Court
(collectively, the “Appointments Related Litigation”);
(d) (i) Whitebox Multi-Strategy Partners, L.P., et al. v.
The Bank of New York Mellon, Adv. Pro. No. 17-AP143-LTS, currently pending before the Court, and (ii)
Whitebox Multi-Strategy Partners, L.P., et al. v. The
Bank of New York Mellon, Case No. 17-CV-3750-LTS,
currently pending before the Court (collectively, the
“Whitebox Actions”); and (e) Natal-Albelo et al. v.
Estado Libre Asociado de Puerto Rico, et al., Adv. Proc.
No. 19-AP-0003-LTS, currently pending before the
Court.

50a
4.
Burden of Proof. The Debtor has the burden of
proving the elements of PROMESA section 314 and, to
the extent applicable to consideration of confirmation
of the Plan, Rule 9019 of the Bankruptcy Rules by a
preponderance of the evidence. The Debtor has met its
burden with respect to each element of PROMESA
section 314 and, to the extent applicable to
consideration of the confirmation of the Plan,
Bankruptcy Rule 9019.
GENERAL BACKGROUND
5.
For more than a decade, Puerto Rico has been
facing an unprecedented fiscal and economic crisis.
The positions assumed and actions taken in the past
caused Puerto Rico to lose access to the capital
markets and precipitated the collapse of Puerto Rico’s
public finance system. These actions accelerated the
contraction of the Puerto Rico economy and increased
the outmigration of residents of Puerto Rico. The
situation was further exacerbated by the devastation
caused to Puerto Rico by Hurricanes Irma and Maria
in 2017.
6.
On June 30, 2016, the United States of
America enacted PROMESA and the Oversight Board
was established under PROMESA section 101(b).
(Jaresko Decl. ¶ 3.)
Pursuant to section 4 of
PROMESA, the provisions thereof prevail over any
general or specific provisions of territory law, State
law, or regulation that is inconsistent therewith.
7.
On August 31, 2016, President Obama
appointed the Oversight Board’s seven voting
members. (Jaresko Decl. ¶ 3.)

51a
8.
On September 30, 2016, the Oversight Board
designated COFINA as a “covered entity” under
PROMESA section 101(d).
9.
On May 3, 2017, the Oversight Board issued a
restructuring certification, pursuant to sections 104(j)
and 206 of PROMESA and, at the request of the
Governor of Puerto Rico, filed a voluntary petition for
relief for the Commonwealth pursuant to section
304(a) of PROMESA, commencing a case under
Title III thereof (the “Commonwealth Title III Case”).
(Jaresko Decl. ¶ 17.)
10. On May 5, 2017, the Oversight Board issued a
restructuring certification pursuant to sections 104(j)
and 206 of PROMESA and, at the Request of the
Governor of Puerto Rico, filed a voluntary petition for
relief for COFINA pursuant to section 304(a) of
PROMESA, commencing a case under Title III thereof.
(Jaresko Decl. ¶ 17; Docket Entry No. 1.)
11. On June 1, 2017, the Court entered an order
granting
the
joint
administration
of
the
Commonwealth Title III Case and the COFINA
Title III Case, for procedural purposes only. (Docket
Entry No. 131.)
12. On June 15, 2017, the United States Trustee
for Region 21 (the “U.S. Trustee”) appointed the
statutory creditors’ committee in the Commonwealth’s
Title III Case (the “Committee” or “UCC”). (Docket
Entry No. 338 in Case No. 17-3283.) That same day,
on June 15, 2017, the U.S. Trustee filed a Notice of No
Appointment of Official Committee of Unsecured
Creditors for Puerto Rico Sales Tax Financing

52a
Corporation (COFINA), indicating that there is no
creditors’ committee in the Title III Case. (Docket
Entry No. 339 in Case No. 17-3283.)
The Commonwealth-COFINA Dispute
13. Prior to the commencement of the
Commonwealth Title III Case, the Oversight Board
recognized that resolution of the CommonwealthCOFINA Dispute would be a critical component to the
restructuring of Puerto Rico’s public debt. (Jaresko
Decl. ¶ 9; Jaresko (9019) Decl. ¶ 8.)
Of the
approximately $74 billion in aggregate Puerto Rico
debt, the GO Debt and COFINA’s Existing Securities
together account for approximately fifty-five percent
(55%) of the total funded indebtedness to be
restructured. (Jaresko Decl. ¶ 9; Jaresko (9019) Decl.
¶ 8.) The determination of which funds are available
to service COFINA’s debt and the Commonwealth’s
debt is dependent upon which entity, the
Commonwealth or COFINA, owns the portion of the
Commonwealth’s general sales and use tax (the
“SUT”) that was purportedly transferred to COFINA
pursuant to the Act of May 13, 2006, No. 91-2006, 2006
P.R. Laws 246 et seq. (codified as amended at P.R.
Laws Ann. tit. 13, § 12) (as amended, “Act 91”).
(Jaresko Decl. ¶ 9; Jaresko (9019) Decl. ¶ 8.) The
Sales Tax Revenue Bond Resolution, adopted on July
13, 2007, as amended and restated on June 10, 2009
(as amended and supplemented, the “Resolution”),
states that a portion of the SUT (the “Pledged Sales
Tax Base Amount”) was pledged by COFINA to secure
the repayment of COFINA’s Existing Securities.
(Jaresko Decl. ¶ 9; Jaresko (9019) Decl. ¶ 8; Exhibit
DX-K.) The amount at issue in the Commonwealth-

53a
COFINA Dispute is significant—approximately $783
million in the current fiscal year alone, which amount
grows at four percent (4%) annually until it reaches
$1.85 billion in fiscal year 2041 and remains fixed at
that amount until COFINA’s Existing Securities are
repaid in full in accordance with their terms. Under
the COFINA Fiscal Plan, this would result in billions
of dollars over the next forty (40) years. (Jaresko Decl.
¶ 9; Jaresko (9019) Decl. ¶ 8; Exhibit DX-SSS.)
14. If the Pledged Sales Taxes were property of
COFINA, the Commonwealth would have $783 million
less in fiscal year 2019 (which annual amount would
increase over time) to pay its liabilities and expenses,
including addressing the essential services of the
Commonwealth and the needs of its citizens. (Jaresko
Decl. ¶ 9; Jaresko (9019) Decl. ¶ 8.) Conversely, if the
Pledged Sales Taxes were property of the
Commonwealth, there would not be any funds
available to address and satisfy COFINA’s
outstanding indebtedness.
Unless and until a
resolution were reached on the CommonwealthCOFINA Dispute, the Oversight Board would not be
able to begin to formulate a Title III plan of
adjustment for the Commonwealth, COFINA, or any
of their other debtor-affiliates. (Jaresko Decl. ¶ 9;
Jaresko (9019) Decl. ¶ 8.)
15. Prior to the commencement of the
Commonwealth Title III Case, on July 20, 2016,
certain holders of GO Bonds filed a complaint in the
United States District Court for the District of Puerto
Rico against the Governor, Secretary of Treasury, and
Office of Management and Budget Director seeking
(a) declaratory relief that the Puerto Rico Emergency

54a
Moratorium and Financial Rehabilitation Act, Act 212016 (“Act 21”), which authorized the Governor to,
among other things, declare a temporary moratorium
on debt service payments and stay creditor remedies,
and an executive order issued pursuant to Act 21
announcing a moratorium on the Commonwealth’s
general obligations bonds, are preempted by
PROMESA section 204(c)(3), and (b) an injunction to
prevent certain measures taken by the government
permitting transfers outside of the ordinary course.
Lex Claims, LLC v. Garcia-Padilla; District Court,
District of Puerto Rico, July 20, 2016, Case No. 162374-FAB (the “Lex Claims Litigation”); (Exhibit DXM; Jaresko Decl. ¶ 11; Jaresko (9019) Decl. ¶ 10). On
November 4, 2016, the plaintiffs in that case filed a
second amended complaint, as further described
below, adding new causes of action, including three
causes of action relating to COFINA, and adding
COFINA and other parties as defendants.
On
December 16, 2016, COFINA filed an answer to the
second amended complaint generally denying the
allegations and asserting various affirmative defenses.
Certain COFINA bondholders who intervened in the
Lex Claims Litigation also filed answers generally
denying the allegations and asserting various defenses
and counter- and cross-claims. (Jaresko Decl. ¶ 10;
Jaresko (9019) Decl. ¶ 10; Exhibits DX-M, DX-N, and
DX-O.)
16. Plaintiffs in the Lex Claims Litigation, in their
second amended complaint, argue, among other
things, that the Puerto Rico Constitution requires the
Commonwealth to pay the GO Debt ahead of any other
expenditure. They claim that, pursuant to Article VI,
Section 8 of the Puerto Rico Constitution, if Puerto

55a
Rico’s “available resources” are insufficient to meet all
its appropriations, “interest on the public debt and
amortization thereof shall first be paid, and other
disbursements shall thereafter be made in accordance
with the order of priorities established by law.” They
further allege the Pledged Sales Taxes are an
“available resource” and that COFINA was created
and has issued bonds in an attempt to evade the claim
of holders of GO Debt on “available resources” and
related constitutional limitations on the amount of
public debt the Commonwealth was permitted to issue.
Plaintiffs request two declaratory judgments that
challenge the legal validity of COFINA:
(1) a
declaration that the Pledged Sales Taxes constitute
“available resources” and that such funds cannot be
deposited with COFINA or its bondholders; and (2) a
declaration that the Commonwealth is obligated to
afford the GO Debt absolute priority, including
priority over required deposits with COFINA and its
bondholders. (Jaresko Decl. ¶ 11; Exhibits DX-M and
DX-O.)
17. Certain holders and insurers of COFINA’s
Existing Securities, permitted to intervene in the Lex
Claims Litigation, asserted that the Pledged Sales
Taxes were legislatively rendered property of COFINA
from their inception, thereby eliminating any
possibility the taxes may be property or “available
resources” of the Commonwealth. Such holders and
insurers rely upon Act 91, which provides that the
Pledged Sales Taxes “shall [not] constitute available
resources of the Commonwealth of Puerto Rico nor be
available for the use of the Secretary.” Act 91 § 2.
They further assert that the question whether
COFINA’s property constitutes “available resources”

56a
should be certified to the Supreme Court of Puerto Rico
because, in their view, its resolution would involve a
pure and undecided issue of Puerto Rico constitutional
law that would have long-lasting consequences for the
Commonwealth.
They assert that COFINA is
essential in permitting Puerto Rico to access the
capital markets on favorable terms, and that the
plaintiffs in the Lex Claims Litigation had been able
to obtain higher interest rates on the Commonwealth’s
general obligation bonds precisely because COFINA’s
property was not available to repay them. (Jaresko
Decl. ¶ 12; Exhibit DX-P.)
18. On April 12 and May 2, 2017, in response to
uncertainty surrounding the transfer of the SUT, and
contending that an event of default had already
occurred under the Existing Bond Resolution,
Whitebox and Ambac, respectively, commenced
separate litigations against BNYM, the trustee under
the Existing Bond Resolution, alleging various causes
of action, each premised upon allegations that an
event of default occurred prior to April 29, 2017, and
that BNYM breached its alleged duties by failing to
declare such defaults and resign as trustee of the
“Senior” or the “First Subordinate” (sometimes
referred to herein as “junior”) Existing Securities. If
such creditors were correct, then, in their view, the
subordination provisions attendant to the Existing
Securities would apply and no payments to holders of
“First Subordinate” Existing Securities would have
been permissible until holders of “Senior” Existing
Securities had been paid in full. (Jaresko Decl. ¶ 13;
Exhibits DX-Q and DX-R.)

57a
19. BNYM responded that the Ambac Action and
Whitebox Actions, including any claims and causes of
action for gross negligence, willful misconduct, or
intentional fraud, lacked merit and should be
dismissed with prejudice.
BNYM claimed, and
Whitebox and Ambac disagreed, that such actions
should fail for a variety of reasons, including, without
limitation: (i) there were no defaults or events of
default under the Existing Bond Resolution prior to
April 29, 2017; (ii) BNYM had no obligation to perform
any act that would involve it in expense or liability, or
to exercise any of the rights or powers vested in it by
the Existing Bond Resolution at the request or
direction of bond owners, unless the bond owners
offered BNYM security or indemnity satisfactory to
BNYM against the costs, expenses, and liabilities that
might be incurred; and (iii) a failure to comply with the
no-action clause contained in Section 1106.1 of the
Existing Bond Resolution. (Jaresko Decl. ¶ 14.)
20. Promptly
after
certification
of
the
Commonwealth’s initial Fiscal Plan on March 13,
2017, the Oversight Board and AAFAF undertook a
joint effort to formulate restructuring proposals for all
major creditors based on the debt sustainability
analysis in such Fiscal Plan. The Oversight Board and
AAFAF requested that holders of GO Debt and
COFINA’s Existing Securities participate in mediation
with the Oversight Board and AAFAF. The mediation
began on April 13, 2017, under the auspices of retired
Bankruptcy Judge Allan L. Gropper. Despite several
mediation sessions and other private negotiations, no
agreement was reached before the expiration of the
pre-Title III stay provided in PROMESA section 405
on May 1, 2017. (Jaresko Decl. ¶ 15.)

58a
21. After
competing
bondholder
groups
commenced litigation against the Commonwealth and
COFINA, the Oversight Board determined, in
consultation with AAFAF, and at the request of the
Governor, and after consideration of creditor support
for a Title III filing, that the best path forward for the
Commonwealth and COFINA to resolve the
Commonwealth-COFINA Dispute was to file the
Commonwealth Title III Case and the Title III Case to
afford the Commonwealth and COFINA additional
time and breathing room to seek to resolve the impasse
under the supervision of the Title III Court. (Jaresko
Decl. ¶ 16.)
22. Following the filing of the Title III Case,
BNYM, as trustee for the Existing Securities, was in
possession of hundreds of millions of dollars for the
benefit of holders of both junior and senior Existing
Securities, but without clarity about how and to whom
the money should be distributed. On May 16, 2017,
BNYM filed the Interpleader Action, seeking a
determination of competing claims to the Disputed
Funds by certain holders of beneficial interests in the
Existing Securities (including Whitebox), insurers of
the Existing Securities (including Ambac), and
COFINA. On May 30, 2017, the Title III Court
granted the interpleader request and ordered that the
Disputed Funds remain in trust and no distributions
made until the Title III Court issues a final ruling in
the Interpleader Action. (Jaresko Decl. ¶ 18; Exhibits
DX-S, DX-T, and DX-U.)
23. Significant holders of “Senior” and “First
Subordinate” Existing Securities intervened in the
Interpleader Action. From June to September 2017,

59a
several parties, including BNYM and certain creditors,
served document requests and deposition subpoenas
on various Puerto Rico Government entities, affiliates,
and officials, including COFINA, the Government
Development Bank for Puerto Rico, Rothschild (in its
capacity as financial advisor to the Commonwealth),
the Commonwealth, AAFAF, and the Oversight Board.
The subpoenaed entities and individuals produced
documents. In addition, depositions were taken of
Banco Popular of Puerto Rico, a private financial
services institution, in its capacity as the banking
services institution of the Commonwealth, the
Government Development Bank, and COFINA.
AAFAF, COFINA, the Commonwealth, and the
Oversight Board each stipulated to binding
statements of facts in lieu of depositions. (Jaresko
Decl. ¶ 19; Exhibits DX-U and DX-ZZZ.)
24. Based upon the parties’ agreement, the Court
stayed consideration of the Interpleader Action and
did not render a determination as to whether an event
of default under the Existing Bond Resolution had
occurred. (Docket Entry No. 518 in Adv. Proc. No. 17133.)
25. If an event of default under the Existing Bond
Resolution had occurred, the senior bondholders may
have had repayment of their bonds accelerated, to the
detriment of the junior bondholders.
Such
acceleration might, in the senior bondholders’ view,
require the senior bondholders to be paid in full prior
to junior bondholders being able to declare an event of
default and exercise remedies. The Interpleader
Action is in essence a dispute between junior and
senior COFINA creditors about their payment rights

60a
and priorities vis-à-vis each other.
The issues
regarding such payment rights and priorities are being
settled pursuant to the Plan.
26. Pursuant to PROMESA section 315(b), the
Oversight
Board
is
representative
of
the
Commonwealth and COFINA in their respective
Title III cases. The Oversight Board analyzed various
options for resolving the dispute and determined that
the best path forward was to institute procedures for
an orderly process to resolve the CommonwealthCOFINA Dispute, which process involved the
appointment of independent Oversight Board agents
to serve separately as the respective representatives of
the
Commonwealth
and
COFINA
in
the
Commonwealth-COFINA Dispute.
(Jaresko Decl.
¶ 21.)
27. On June 10, 2017, the Oversight Board filed
the Motion of Debtors for Order Approving Procedure
to Resolve Commonwealth-COFINA Dispute. (Docket
Entry No. 303 in Case No. 17-3283, the
“Commonwealth-COFINA
Dispute
Procedures
Motion”; Jaresko Decl. ¶ 21; Jaresko (9019) Decl. ¶ 15;
Exhibit DX-V.)
28. On June 28, 2017, the Court denied the
Commonwealth-COFINA Dispute Procedures Motion,
without prejudice, but (a) requested that the Oversight
Board seek agreement of all interested parties to a
procedure for resolving the Commonwealth-COFINA
Dispute through confidential mediation with Chief
Bankruptcy Judge Barbara Houser of the Northern
District of Texas, and (b) authorized the Oversight
Board to file a revised motion with or without

61a
unanimous support of interested parties. (Jaresko
Decl. ¶ 21; Jaresko (9019) Decl. ¶ 15; Exhibit DX-W.)
29. Consistent with the Court’s request, the
Oversight Board worked with Chief Bankruptcy Judge
Houser and any creditor party who sought to
participate to formulate procedures agreeable to the
interested parties. On July 21, 2017, the Oversight
Board filed a revised motion seeking approval of a
stipulation establishing a protocol to address the
Commonwealth-COFINA Dispute, including the
appointment of respective agents with independence
from the Oversight Board as debtor representatives for
the Commonwealth and COFINA to litigate, mediate,
and/or settle the Commonwealth-COFINA Dispute,
and providing a procedure and timeline for the Agents
to consult with creditors of their respective debtor in
carrying out their charge, but at all times owing duties
only to their respective debtor and to act solely in such
debtor’s best interest. (Jaresko Decl. ¶ 22; Jaresko
(9019) Decl. ¶ 16; Exhibit DX-X.)
30. On August 10, 2017, the Court entered the
Stipulation and Order Approving Procedure to Resolve
Commonwealth-COFINA Dispute (Docket Entry No.
996 in Case No. 17-3283, the “Procedures Order”),
which provides, among other things, that (a) the
Oversight Board, as representative of the
Commonwealth in its Title III case, authorized the
Committee to serve as the Commonwealth
representative to litigate and/or settle the
Commonwealth-COFINA Dispute on behalf of the
Commonwealth; and (b) the Oversight Board, as
representative of COFINA in its Title III case,
authorized Bettina Whyte to serve as the COFINA

62a
representative to litigate and/or settle the
Commonwealth-COFINA Dispute on behalf of
COFINA. (Jaresko Decl. ¶ 23; Jaresko (9019) Decl. ¶
17; Exhibit DX-B.)
31. The Procedures Order directed that “[e]ach
Agent shall have a duty of good faith, care, and loyalty
to the Debtor the Agent represents. In furtherance of
such duties, each Agent shall, with the advice and
assistance of counsel, endeavor to the best of the
Agent’s ability under the circumstances to litigate and
negotiate from the perspective of what result is best
for the Debtor the Agent represents, as opposed to
what result is best for any particular type of creditor
of the Debtor the Agent represents.” See Procedures
Order ¶ 4(f).
32. On September 8, 2017, the Commonwealth
Agent commenced the Adversary Proceeding against
the COFINA Agent seeking a resolution of the
Commonwealth-COFINA Dispute and related issues.
Concurrently with the litigation of the Adversary
Proceeding, the Agents and various parties to the
Commonwealth-COFINA
Dispute
engaged
in
mediation led by Mediation Team leader Chief
Bankruptcy Judge Barbara J. Houser to resolve the
dispute. At the time, such efforts were unsuccessful.
(Jaresko Decl. ¶ 24; Exhibit DX-Y.)
33. During the intervening months, (a) the
COFINA Agent answered the complaint and asserted
counterclaims, (b) multiple parties intervened in the
Adversary Proceeding, (c) discovery was undertaken,
and (d) the Agents and certain intervenors filed cross
motions for summary judgment. Additionally, during

63a
this period, the Court clarified the scope of the Agents’
authority to litigate and/or settle the issues raised in
the Adversary Proceeding. (See Docket Entry Nos.
167, 257, and 284 in Adv. Proc. No. 17-257.)
34. Following oral argument regarding the
respective motions for summary judgment filed in the
Adversary Proceeding, the Mediation Team and the
Agents rekindled their efforts to mediate a resolution.
The Oversight Board was not a party to such
mediation efforts, other than to be informed of their
existence.
Likewise, the Oversight Board was
unaware of the parties which may have participated in
such mediation. (Jaresko Decl. ¶ 25; Jaresko (9019)
Decl. ¶ 21.)
35. On June 7, 2018, the Agents announced the
terms of an Agreement in Principle to resolve the
Commonwealth-COFINA Dispute. The Agreement in
Principle was the product of arm’s-length negotiations
between the Agents free from any influence or direct
participation by the Oversight Board. (Feldman Decl.
¶ 4; Jaresko (9019) Decl. ¶ 21.) At the time the
Agreement in Principle was reached, both the
COFINA Agent and the Commonwealth Agent agreed
that it was the best possible outcome for each of their
respective estates given the enormous stakes and
uncertainty involved in litigating the CommonwealthCOFINA Dispute to conclusion. (Feldman Decl. ¶ 4.)
36. The Oversight Board asserted that certain
aspects of the Agreement in Principle concerned
matters beyond the scope of the CommonwealthCOFINA Dispute, as framed by the Procedures Order
and the Scope Orders, including the design of new

64a
securities to be issued under a plan of adjustment for
COFINA and a constraint on the Oversight Board’s
use of funds allocated to the Commonwealth.
Moreover, the Oversight Board asserted that, among
other things, the Agreement in Principle exceeded the
scope of the Adversary Proceeding and the Procedures
Order by attempting to, among other things, dictate
the terms of plans of adjustment in the Title III Cases
and limit the availability and use of funds. However,
the Oversight Board determined, after reviewing the
extensive litigation history and issues raised in the
Adversary Proceeding and assessing the likelihood of
success for the Commonwealth in the litigation, that
the central component of the Agreement in Principle—
the 53.65% / 46.35% allocation of the disputed sales
and use tax revenue between COFINA and the
Commonwealth, respectively—was a fair and
reasonable settlement and compromise of the
Commonwealth-COFINA
Dispute
given
the
substantial risks of litigation, and determined to build
upon the central component of the Agreement in
Principle to garner support for a confirmable COFINA
plan of adjustment. (Jaresko Decl. ¶ 25; Jaresko
(9019) Decl. ¶ 21.)
37. Beginning in July 2018 and using the
economic framework of the Agreement in Principle,
the Oversight Board and its advisors engaged in over
two weeks of court-sanctioned mediation among
interested parties convened by the Mediation Team on
a COFINA plan of adjustment, including the relative
rights between senior and junior COFINA bondholders
that remain the subject of the Interpleader Action.
(Jaresko Decl. ¶ 26; Jaresko (9019) Decl. ¶ 22.)

65a
38. On August 8, 2018, the Oversight Board
announced that it had reached an agreement with
certain holders and insurers of COFINA’s Existing
Securities and AAFAF on the economic treatment of
COFINA’s Existing Securities and the terms of new
securities to be issued pursuant to a proposed COFINA
plan of adjustment (the “Securities Terms”), which
Securities Terms were developed by Citigroup Global
Markets, Inc. (“Citi”) at the request of the Oversight
Board and included in a presentation, of which the
Agreement in Principle was the foundation. (Jaresko
Decl. ¶ 26; Jaresko (9019) Decl. ¶ 22; Exhibit DX-UU;
Brownstein Decl. ¶ 12; Exhibit DX-YY.)
39. The Oversight Board, COFINA, AAFAF,
certain holders of Senior COFINA Bonds, Ambac,
National, certain holders of Junior COFINA Bonds,
Assured, and Bonistas del Patio, Inc. (collectively, the
“Settlement Parties”) entered into that certain Plan
Support Agreement, dated as of August 29, 2018 (the
“Original Plan Support Agreement”), that sets forth,
among other things, (a) terms to the compromise and
settlement of the Commonwealth-COFINA Dispute
implemented by the Oversight Board and Citi and
consistent with the terms of the Agreement in
Principle developed by the Agents, which, among other
things, allocates the first collections of SUT revenues
in an amount up to fifty-three and sixty five onehundredths percent (53.65%) of the annual Pledged
Sales Tax Base Amount to COFINA, and confirms that
COFINA is the sole and exclusive owner of the
amounts held at BNYM as of June 30, 2018, and (b)
terms of the relative treatment between junior and
senior Existing Securities to resolve the dispute
between holders of junior and senior Existing

66a
Securities regarding whether or not a default and
acceleration had been triggered under the Resolution.
(Jaresko Decl. ¶ 27.)
40. On September 20, 2018, the Settlement
Parties amended and restated the Original Plan
Support Agreement (the “A&R Plan Support
Agreement”) to (a) include additional holders of
Existing Securities, who also hold significant amounts
of GO Bonds and were among the plaintiffs in the Lex
Claims Litigation and (b) provide that Aurelius
Capital Master, Ltd. and Six PRC Investments LLC,
and each of their applicable affiliates, who are
significant holders of Existing Securities, will request
dismissal, with prejudice, of their claims and causes of
action in the Lex Claims Litigation premised on
challenges to COFINA’s constitutionality, COFINA’s
entitlement to proceeds of the SUT revenues
purportedly transferred by the Commonwealth to
COFINA, and any other claims and causes of action
which may challenge the transactions contemplated in
the A&R Plan Support Agreement or the Plan,
effective upon the entry of an order approving the
Settlement and confirmation of the Plan. (Jaresko
Decl. ¶ 28; Exhibit DX-D (A&R Plan Support
Agreement), § 4.13.)
41. As of the date of the August 8, 2018,
announcement, and due to the changes in the
Commonwealth’s then-certified fiscal plan, the
Commonwealth Agent was unwilling to proceed to
finalize any further documentation regarding the
Agreement in Principle. (Feldman Decl. ¶ 5.) As such,
the Oversight Board, as representative of the
Commonwealth, began negotiation of the terms of the

67a
Settlement Agreement with the COFINA Agent,
consistent with the economic terms of the Agreement
in Principle. (Feldman Decl. ¶ 6.) The Settlement
Agreement was the result of a good faith, arm’s-length
negotiation between the COFINA Agent and the
Oversight Board. (Feldman Decl. ¶ 7.) The Oversight
Board did not exert any influence on the COFINA
Agent’s decision to enter into the Settlement
Agreement, nor did the COFINA Agent permit the
Oversight Board to affect her judgment or ability to
carry out her duty to act in the best interest of the
debtor she was appointed to represent. (Feldman Decl.
¶ 7.) The Settlement Agreement is faithful to and
consistent with the Agreement in Principle. (Feldman
Decl. ¶ 8.) On October 19, 2018, after extensive
discussion and deliberations, the Oversight Board, as
representative of the Commonwealth, approved entry
into the Settlement Agreement with the COFINA
Agent. (Jaresko Decl. ¶ 29.)
42. Contemporaneously thereto, on October 19,
2018, the Debtor filed the Plan, Disclosure Statement,
and Puerto Rico Sales Tax Financing Corporation’s
Motion for Order (I) Approving Disclosure Statement,
(II) Fixing Voting Record Date, (III) Approving
Confirmation Hearing Notice, (IV) Approving
Solicitation Packages and Distribution Procedures,
(V) Approving Forms of Ballots and Election Notices,
and Voting and Election Procedures, (VI) Approving
Notice of Non-Voting Status, (VII) Fixing Voting and
Election Deadlines, and (VIII) Approving Vote
Tabulation Procedures (Docket Entry No. 307).
43. On November 5, 2018, the Commonwealth
Agent entered into a stipulation with the Oversight

68a
Board and the COFINA Agent withdrawing any
objections to the Settlement Agreement. Pursuant to
such stipulation, the Commonwealth Agent agreed,
among other things, not to object to the approval of the
Settlement Agreement, approval of the Disclosure
Statement, or confirmation of the Plan, except in the
circumstances set forth in paragraph 4 therein.
(Docket Entry No. 4204 in Case No. 17-3283.) On
January 10, 2019, the Retiree Committee withdrew its
objection to the Settlement Agreement. (Docket Entry
No. 4704 in Case No. 17-3283.) In light of the
foregoing, as of the date hereof, (a) each of the COFINA
Agent, the GO Representative, and the Retiree
Committee have agreed to or ratified the terms of the
Settlement Agreement resolving the CommonwealthCOFINA Dispute in a manner consistent with the
requirements of the Procedures Order, and (b) the
Commonwealth Agent also does not object to the
approval of the Settlement Agreement. The Oversight
Board’s execution of the Settlement Agreement with
the COFINA Agent was appropriate under the
circumstances.
44. On November 15, 2018, in furtherance of the
Settlement and the Plan, the Government enacted Act
241-2018 (“Act 241”), amending Act 91, which
originally created COFINA.
45. On November 29, 2018, the Court entered an
order (Exhibit DX-J, Docket Entry No. 375, the
“Disclosure Statement Order”) (a) approving the
Disclosure Statement as containing adequate
information within the meaning of section 1125 of the
Bankruptcy Code, (b) establishing (1) January 2, 2019,
at 5:00 p.m. (Atlantic Standard Time), as the

69a
Confirmation Objection Deadline, (2) January 8, 2019,
at 6:00 p.m. (Atlantic Standard Time), as the deadline
by which (i) ballots to accept or reject the Plan were
required to be received by Prime Clerk (the “Voting
Deadline”), and (ii) elections regarding the form of
distribution (including a determination regarding
commutation with respect to certain insured claims)
were required to be received by Prime Clerk (the
“Election Deadline”), which Election Deadline was
subsequently extended to January 11, 2019, at 6:00
p.m. (Atlantic Standard Time) (Docket Entry No. 400),
and (c) scheduling a hearing on January 16, 2019, at
9:30 a.m. (Atlantic Standard Time), to consider
confirmation of the Plan (Docket Entry No. 302).
46. Consistent with the Disclosure Statement
Order, the Debtor caused Prime Clerk to distribute
solicitation packages to all claim holders entitled to
vote. The solicitation packages contained, among
other things: (i) the notice setting forth the time, date,
and place of the Confirmation Hearing (the
“Confirmation Hearing Notice”); (ii) a flash drive (or
hard copy, in the Debtor’s discretion) containing this
Disclosure Statement Order (without the exhibits
thereto) and Disclosure Statement (together with all
exhibits thereto, including the Plan); (iii) the
appropriate form of Ballot, if any, with instructions for
completing the Ballot, and a pre-addressed, pre-paid
return envelope; (iv) solely with respect to holders of
Claims in Classes 8 and 9, a W-9 form or W-8 BEN
form, as appropriate, for purposes of collecting certain
tax related information relating to distributions under
the Plan; and (v) in the case of creditors in Class 6, the
Class 6 Notice. Prime Clerk also served election
notices to holders of Claims in Classes 1 and 5, to

70a
permit the election into Classes 4 and 7, respectively,
or, if in Class 2 or 3, to elect to receive the applicable
trust certificates rather than the commutation
alternative being offered by the respective monoline
insurers. (Pullo Decl. ¶ 4.)
COMPLIANCE WITH PROMESA SECTIONS 104(J) AND
313
47. The Oversight Board must certify the
submission or modification of a plan of adjustment on
behalf of a debtor in a case under Title III of
PROMESA before submitting or modifying such plan
of adjustment. See PROMESA § 104(j)(1)–(2). The
Oversight Board may certify a plan of adjustment only
if it determines, in its sole discretion, that it is
consistent with the applicable certified fiscal plan. See
id. § 104(j)(3). Further, the Oversight Board, after the
issuance of a certification pursuant to PROMESA
section 104(j), may modify the plan at any time before
confirmation, but may not modify the plan so that the
plan as modified fails to meet the requirements of
PROMESA Title III.
See id. § 313.
After the
Oversight Board files a modification, the plan as
modified becomes the plan.
48. The Oversight Board has complied with its
obligations pursuant to PROMESA sections 104(j) and
313. On October 18, 2018, the Oversight Board
certified COFINA’s current fiscal plan (the “COFINA
Fiscal Plan”). (Exhibit DX-FFFF.)
49. On October 19, 2018, the Oversight Board
certified the submission of the Title III Plan of
Adjustment of Puerto Rico Sales Tax Corporation

71a
(Docket Entry No. 4072 in Case No. 17-3283, the
“Original Plan”) upon a determination, in the
Oversight Board’s sole discretion, that the Original
Plan was consistent with the COFINA Fiscal Plan.
(Exhibit DX-BBBB.) Accordingly, the Oversight Board
certified the submission of the Original Plan in
accordance with PROMESA section 104(j).
50. On November 16, 2018, the Oversight Board
certified the modification of the Original Plan and the
submission of the Amended Title III Plan of
Adjustment of Puerto Rico Sales Tax Corporation
(Docket Entry No. 4296 in Case No. 17-3283, the “First
Amended Plan”) upon a determination, in the
Oversight Board’s sole discretion, that the First
Amended Plan was consistent with the COFINA Fiscal
Plan. (Exhibit DX-CCCC.) Accordingly, the Oversight
Board certified the modification of the Original Plan
and the submission of the First Amended Plan in
accordance with PROMESA section 104(j).
51. On November 26, 2018, the Oversight Board
certified the modification of the First Amended Plan
and the submission of the Second Amended Title III
Plan of Adjustment of Puerto Rico Sales Tax
Corporation (Docket Entry No. 4363 in Case No. 173283, as subsequently corrected pursuant to Docket
Entry No. 4390, the “Second Amended Plan”) upon a
determination, in the Oversight Board’s sole
discretion, that the Second Amended Plan was
consistent with the COFINA Fiscal Plan. (Exhibit DXDDDD.) Accordingly, the Oversight Board certified
the modification of the First Amended Plan and the
submission of the Second Amended Plan in accordance
with PROMESA section 104(j).

72a
52. On January 9, 2019, the Oversight Board
certified the modification of the Second Amended Plan
and the submission of the Third Amended Title III
Plan of Adjustment of Puerto Rico Sales Tax
Corporation (Docket Entry No. 4652 in Case No. 173283, the “Third Amended Plan”) upon a
determination, in the Oversight Board’s sole
discretion, that the Third Amended Plan is consistent
with the COFINA Fiscal Plan. (Exhibit DX-EEEE.)
Accordingly, the Oversight Board certified the
modification of the Second Amended Plan and the
submission of the Third Amended Plan in accordance
with PROMESA section 104(j).
53. For the reasons explained herein, the Third
Amended Plan meets the requirements of PROMESA;
the First Amended Plan and Second Amended Plan
met the requirements of PROMESA to the same extent
that the Third Amended Plan meets the requirements
of PROMESA; and the Oversight Board has complied
with all applicable provisions of PROMESA.
Accordingly, the Oversight Board modified the
Original Plan, First Amended Plan, and Second
Amended Plan in accordance with PROMESA section
313, and the Third Amended Plan has become the
“Plan.”
COMPLIANCE WITH PROMESA SECTION 314(B)
A. PROMESA § 314(b)(1):
The Plan Fully
Complies with the Provisions of the

73a
Bankruptcy Code
PROMESA § 301.

Made

Applicable

by

54. As required by Bankruptcy Rule 3016(a), the
Plan is dated and identifies the Debtor as the
proponent. Plan at 1, 78. In addition, as detailed
below, the Plan satisfies the requirements of sections
1122, 1123(a)(1), 1123(a)(2), 1123(a)(3), 1123(a)(4),
1123(a)(5), 1123(b), and 1123(d) of the Bankruptcy Code:
i.

Bankruptcy Code Section 1122(a)

55. With the exception of Administrative Expense
Claims and Professional Claims, which need not be
classified, Article IV of the Plan designates the
classification of Claims. Such classification complies
with section 1122(a) of the Bankruptcy Code because
each Class contains only claims that are substantially
similar to each other. The Plan designates the
following ten (10) Classes of Claims:
Class 1 (Senior COFINA Bond Claims)
Class 2 (Senior COFINA Bond Claims
(Ambac))
Class 3 (Senior COFINA Bond Claims
(National))
Class 4 (Senior COFINA Bond Claims
(Taxable Election))
Class 5 (Junior COFINA Bond Claims)
Class 6 (Junior COFINA Bond Claims
(Assured))

74a
Class 7 (Junior COFINA Bond Claims
(Taxable Election))
Class 8 (GS Derivative Claim)
Class 9 (General Unsecured Claims)
Class 10 (Section 510(b) Subordinated
Claims)
(Exhibit DX-G.)
56. The classification of Claims set forth in the
Plan is reasonable and was not done to control the
outcome of voting to accept or reject the Plan, as the
classification is based upon differences in the legal
nature and/or priority of such Claims in accordance
with applicable law. (Jaresko Decl. ¶ 36.)
57. All holders of Claims in Classes 1, 2, and 3 hold
substantially similar securities, “Senior” Existing
Securities, but are classified separately based on
whether they are uninsured (Class 1) or insured by
Ambac (Class 2) or National (Class 3), as such
insurance agreements provide bondholders different
rights thereunder. Holders of Claims in Classes 5 and
6 hold substantially similar securities, “First
Subordinate” Existing Securities, but are classified
separately based on whether they are uninsured
(Class 5) or insured by Assured (Class 6). (Jaresko
Decl. ¶ 36.)
58. Senior COFINA Bond Claims and Junior
COFINA Bond Claims are in different Classes because
they have different underlying rights. Specifically, in
determining whether claims are “substantially

75a
similar” for the purpose of section 1122 of Title 11 of
the United States Code, made applicable to the
Title III Case pursuant to PROMESA section 301(a),
the Oversight Board shall consider whether such
claims are secured and whether such claims have
priority over other claims. See PROMESA § 301(e).
Under the Resolution, in the event of default, payment
to the Junior COFINA Bond Claims, such as those
bonds issued under the Seventh Supplemental Sales
Tax Revenue Bond Resolution, is subordinate in
payment of the Senior COFINA Bond Claims.
(Jaresko Decl. ¶ 37; Exhibit DX-XX.)
59. Based upon the elections offered pursuant to
the Plan, holders of Senior COFINA Bond Claims and
Junior COFINA Bond Claims which are either Puerto
Rico Institutions or Puerto Rico Individuals, to the
extent elections were made, were shifted appropriately
to other Classes (Class 4 and Class 7, respectively) to
denote the election made and the alternative form of
distribution elected to be received. (Jaresko Decl. ¶ 38;
Exhibit DX-G.)
60. Numerous formal and informal objections
contest the existence of the Taxable Election Class and
the different treatment of holders of claims who elect
to have their claims placed into Class 7, or the “Junior
Taxable Election Class.” In particular, the objections
note that the bonds issued to the Junior Taxable
Election Class have different payment schedules and
maturities, and holders of claims who elect to place
their claims in the Junior Taxable Election Class will
receive shares of Taxable Election Cash (equal to up to
two percent of the aggregate amount of Senior and
Junior COFINA Bond Claims). The total amount of

76a
such cash will not exceed $60 million. The Junior
Taxable Election Class is properly treated as a
separate class of claims from the other classes of
claims for holders of junior bonds and it therefore does
not implicate Section 1122(a), which concerns whether
claims may be classified together.
61. The Claim in Class 8 arises from or relates to
that certain ISDA Master Agreement, dated as of
July 31, 2007, between Goldman Sachs Bank USA (as
successor to Goldman Sachs Capital Markets, L.P.)
and COFINA, as amended by that certain
Amendment, dated September 24, 2014.
The
treatment of the Claim in Class 8 is dependent on the
termination value of such Claim and whether the
rejection damages, if any, associated with such Claim
constitute a Parity Obligation. (Exhibit DX-G.)
62. The Claims in Class 9 are for all other
liabilities of COFINA other than an Administrative
Expense Claim, a Professional Claim, a Senior
COFINA Bond Claim, a Senior COFINA Bond Claim
(Ambac), a Senior COFINA Bond Claim (National), a
Senior COFINA Bond Claim (Taxable Election), a
Junior COFINA Bond Claim, a Junior COFINA Bond
Claim (Assured), a Junior COFINA Bond Claim
(Taxable Election), a GS Derivative Claim, or a Section
510(b) Subordinated Claim. (Exhibit DX-G.)
ii. Bankruptcy Code Section 1123(a)(1)
63. Section 4.1 of the Plan designates ten (10)
separate Classes of Claims for the Debtor, other than
Claims of the type described in section 507(a)(2) of the
Bankruptcy Code. (Exhibit DX-G.)

77a
64. The Plan satisfies the requirements of section
1123(a)(1) of the Bankruptcy Code.
iii. Bankruptcy Code Section 1123(a)(2)
65. Section 23.1 of the Plan specifies that Claims
in Classes 1 through 10 are impaired. (Exhibit DX-G.)
Existing holders of Allowed Junior COFINA Bond
Claims (Assured) will receive (through payment by
Assured), on the Effective Date, the Acceleration Price
for their Assured Insured Bonds, and thus, be
effectively rendered unimpaired; provided, however,
Assured will be subrogated to the rights of such
holders and will receive distributions pursuant to the
Plan, thereby rendering Assured’s claims impaired.
Therefore, there are no unimpaired Classes under the
Plan.
66. The Plan satisfies the requirements of section
1123(a)(2) of the Bankruptcy Code.
iv. Bankruptcy Code Section 1123(a)(3)
67. Articles V through XIV of the Plan identify the
treatment of all Classes of Claims that are impaired
under the Plan. (Exhibit DX-G.)
68. The Plan satisfies the requirements of section
1123(a)(3) of the Bankruptcy Code.
v. Bankruptcy Code Section 1123(a)(4)
69. Articles V through XIV of the Plan provide
that the treatment of each Claim in each particular
Class is the same as the treatment of each other Claim
in such Class, except to the extent that a holder of an

78a
Allowed Claim has agreed to less favorable treatment
of its Claim. If a holder of a Claim in Class 1 or 5 elects
out of such Class so as to receive all taxable bonds,
rather than a mix of taxable and tax-exempt bonds,
pursuant to the Plan, such holder is no longer in such
Class, and, instead, is treated as a holder of a Claim in
Class 4 or 7, respectively. (Jaresko Decl. ¶ 42; Exhibit
DX-G.) Accordingly, all holders of Claims in each of
Classes 1, 4, 5, and 7 receive the same treatment as
other Claims in the same Class pursuant to the Plan.
Objections to the existence of the Taxable Election
Class and the different treatment of holders of claims
who elect to have their claims placed into the Junior
Taxable Election Class do not implicate Section
1123(a)(4).
70. Consummation Costs are being paid to the
parties to the A&R Plan Support Agreement and are
not being paid to the Consummation Cost Parties on
account of their Claims against COFINA. (Jaresko
Decl. ¶ 43; Exhibit DX-G.) During the lengthy and
complex court-sanctioned mediation led by Chief
Bankruptcy Judge Houser, the Consummation Cost
Parties agreed to various conditions and covenants set
forth in the A&R Plan Support Agreement, including,
among other things, a pledge to support the Plan, the
imposition of restrictions on the transfer of their
bonds, and a waiver of their right to seek
reimbursement of expenses through other means,
including through substantial contribution claims. As
consideration for their efforts in assisting in the
formulation of the Plan that has garnered significant
creditor support, continuing to assist in the
finalization of definitive agreements and ancillary
documents, and the costs incurred in those and other

79a
efforts (including the expenses of defending COFINA’s
property interests for which the PSA Creditors
asserted a right to seek substantial contribution
claims), the Oversight Board determined that it was
fair and reasonable for the Consummation Cost
Parties to be paid the Consummation Costs. Based
upon representations of counsel and, in some
instances, pleadings filed with the Title III Court, the
Oversight Board estimates the aggregate postpetition
fees and expenses of the Consummation Cost Parties
to be at least $135 million. (Jaresko Decl. ¶ 43;
Rodrigue Decl. ¶ 8.)
71. The Consummation Cost Parties hold nearly
$10 billion of the outstanding $17.6 billion in
outstanding Bond Claims.
Thus, approximately
$190 million ($10 billion / $17.6 billion * $332 million)
of the Consummation Costs (approximately 2% of their
collective $10 billion claim) would have been
distributed to the Consummation Cost Parties in the
absence of the Consummation Costs provision.
Accordingly, the Consummation Cost provision
provides for a “net” incremental payment for the
Consummation Cost Parties of approximately $140
million. This amount equates to approximately 1.3%
of the total Allowed Bond Claims of the Consummation
Cost Parties. The Oversight Board estimates the
aggregate postpetition fees and expenses of the
Consummation Cost Parties to exceed the “net” cost of
the Consummation Costs of approximately $140
million. (Jaresko Decl. ¶ 44.)
72. Unlike the Commonwealth and the other
Title III debtors in these jointly-administered cases,
COFINA does not have a statutory creditors’

80a
committee representing the interests of COFINA
creditors. Under section 1103(c)(3) of the Bankruptcy
Code, made applicable to COFINA’s Title III Case
under section 301 of PROMESA, participation in the
formulation of a plan is a function of a statutory
committee, the expenses of which are entirely borne by
the debtor. Here, the PSA Creditors served as the
counterparty to the Oversight Board and AAFAF in
negotiating the Plan and in ensuring the Oversight
Board that it had significant creditor support for the
Plan.
73. The payment of the Consummation Costs was
a critical component of the interlocking agreements set
forth in the A&R Plan Support Agreement. The
absence of the A&R Plan Support Agreement could
have resulted in a costly, contentious, and lengthy
confirmation process for COFINA. Under such a
scenario, there would be no certainty that a
confirmable plan could be presented to creditors and
the Court for approval, further delaying recoveries to
creditors who have not received any payments on their
bonds for more than eighteen (18) months.
In
consideration of the benefits obtained for COFINA in
entering into the A&R Plan Support Agreement, the
benefits to COFINA creditors from the mediation and
the costs to and burdens of intense mediation with the
Consummation Cost Parties, the Oversight Board
determined that it was an appropriate use of
COFINA’s property to pay the Consummation Costs
and provide an opportunity for COFINA to emerge
from Title III as expeditiously as possible. (Jaresko
Decl. ¶ 45; see also Rodrigue Decl. ¶ 8.)

81a
74. The payment of Consummation Costs to the
PSA Creditors does not violate section 1123(a)(4) of the
Bankruptcy Code, which mandates that “a plan
shall . . . provide the same treatment for each claim or
interest of a particular class . . . .”
11 U.S.C.A.
§ 1123(a)(4) (West 2016). While it is true that all
claims must be treated equally, the same is not true
for all claimants. See 7 Collier on Bankruptcy
¶ 1123.01 (16th ed. 2013) (“The equality addressed by
section 1123(a)(4) extends only to the treatment of
members of the same class of claims and interests, and
not to the plan’s overall treatment of the creditors
holding such claims or interest . . . . Creditors should
not confuse equal treatment of claims with equal
treatment of claimants.”); see also In re Peabody
Energy Corp., 582 B.R. 771, 781 (E.D. Mo. 2017)
(same); In re Adelphia Commc’ns Corp., 368 B.R. 140,
249-50 (Bankr. S.D.N.Y. 2007) (“[C]ourts have held
that the statute does not require identical treatment
for all class members in all respects under a plan, and
that the requirements of section 1123(a)(4) apply only
to a plan’s treatment on account of particular claims
or interests in a specific class—not the treatment that
members of the class may separately receive under a
plan on account of the class members’ other rights or
contributions.”) (emphasis in original).
75. The claims held by the PSA Creditors are
treated the same as every other bondholder pursuant
to the Plan: holders of Senior COFINA Bond Claims
will receive a 93.01% recovery on their bonds while
holders of Junior COFINA Bond Claims will receive a
56.41% recovery, see Plan §§ 1.114, 1.168, irrespective
of whether the holder is a retail investor, an
institutional investor, or a PSA Creditor. (See also

82a
Jaresko Decl. ¶ 42.)
The payment of the
Consummation Costs is intended to compensate the
PSA Creditors for: (i) the significant costs and
expenses expended by the PSA Creditors in order to
achieve a confirmable plan in lieu of seeking
substantial contribution; (ii) agreeing to “lock up” their
bonds until potentially June 1, 2019, and accepting the
attendant risk of unfavorable market conditions; and
(iii) agreeing to support the Plan—another restriction
not applicable to non-PSA Creditors. (Jaresko Decl.
¶¶ 43-45.)
vi. Bankruptcy Code Section 1123(a)(5)
76. Various provisions of the Plan provide
adequate and proper means for its implementation:
 Section 16.1 provides for the issuance of
COFINA Bonds on the Effective Date;
 Section 19.1 provides for distributions to be
made to holders of Allowed Claims under the
Plan;
 Section 26.1 provides that, “[e]xcept as settled
and released [in the Plan], from and after the
Effective Date, Reorganized COFINA shall
have the exclusive right and power to litigate
any Claim or Cause of Action that constituted
an Asset of COFINA”;
 Section 28.1 provides that, on the Effective
Date, all matters provided for under the Plan
that would otherwise require approval of the
directors of COFINA or Reorganized

83a
COFINA, including, without limitation, the
authorization to issue or cause to be issued
the COFINA Bonds, the authorization to
enter into the Definitive Documents, the
adoption of Reorganized COFINA By-Laws,
and the election or appointment, as the case
may be, of directors and officers of
Reorganized COFINA pursuant to the Plan,
as applicable, shall be authorized and
approved in all respects in each case, in
accordance with the New Bond Legislation
and the new corporate governance documents,
as applicable, without further action by any
Person or Entity under any other applicable
law, regulation, order, or rule;
 Section 28.3 provides for the appointment of
the board of directors of Reorganized
COFINA, consisting of three (3) persons
appointed by the Governor of the
Commonwealth, all of whom shall meet the
independence and qualification standards set
forth in the Definitive Documents;
 Section 28.5 provides that “[t]he COFINA
Bonds shall be issued by Reorganized
COFINA pursuant to the New Bond
Legislation and the New Bond Indenture,
which entity shall be a ‘bankruptcy remote,’
single purpose, municipal agency, public
corporation or entity to the fullest extent
permitted under applicable law, with no
operations or liabilities other than as set forth
in the Plan and as reflected in the Term
Sheet”; and

84a
 Section 30.1 provides for the re-vesting of
assets:
“[e]xcept as provided in the
Confirmation Order, on the Effective Date,
title to all Assets and properties of COFINA
encompassed by the Plan shall vest in
Reorganized COFINA, free and clear of all
Liens (except the Liens securing repayment of
the COFINA Bonds and the COFINA Parity
Bonds), and the Confirmation Order shall be
a judicial determination of discharge of the
liabilities of COFINA except as provided in
the Plan.”
(Jaresko Decl. ¶ 46; Exhibit DX-G.)
77. The Amended Plan Supplement contains,
among other things, substantially final forms of the (i)
New Bond Indenture, (ii) the COFINA Bonds, (iii) the
Reorganized COFINA By-Laws, and (iv) the new
Banking Services Contract. The Plan, together with
the documents and arrangements set forth in the
Amended Plan Supplement, provides adequate means
for its implementation. (Jaresko Decl. ¶ 47.) On
January 28, 2019, the Oversight Board filed the
Second Amended Plan Supplement amending the
Amended Plan Supplement to revise certain exhibits.
78. The Plan satisfies the requirements of section
1123(a)(5) of the Bankruptcy Code.
vii. Bankruptcy Code Section 1123(b)(1)
79. Section 23.1 of the Plan specifies that Claims
in Classes 1 through 10 are all impaired. (Jaresko
Decl. ¶ 48; Exhibit DX-G.)

85a
80. The Plan is consistent with section 1123(b)(1)
of the Bankruptcy Code.
viii. Bankruptcy Code Section 1123(b)(2)
81. Article XVIII of the Plan provides that, as of
the Effective Date, all Executory Contracts and
Unexpired Leases to which COFINA is a party are
rejected, “except for any Executory Contract and
Unexpired Lease that (a) has been assumed and
assigned or rejected pursuant to an order of the
Title III Court entered prior to the Effective Date or
(b) is specifically designated as a contract or lease to
be assumed or assumed and assigned on the schedules
to the Amended Plan Supplement; provided, however,
that COFINA reserves the right, on or prior to the
Confirmation Date, to amend such schedules to delete
any Executory Contract and Unexpired Lease
therefrom or add any Executory Contract and
Unexpired Lease thereto, in which event such
Executory Contract(s) and Unexpired Lease(s) shall be
deemed to be, as the case may be, either rejected,
assumed, or assumed and assigned as of the Effective
Date.” Plan § 18.1; see also Second Amended Plan
Supplement at Exhibit I.
82. The Plan is consistent with section 1123(b)(2)
of the Bankruptcy Code.
ix. Bankruptcy Code Section
1123(b)(3)(A)
83. The Plan incorporates the settlement and
compromise of, among other things, (a) the
Commonwealth-COFINA Dispute Settlement in

86a
Article II of the Plan, (b) issues regarding the relative
rights between senior and junior COFINA bondholders
that remain the subject of the Interpleader Action, and
(c) the treatment of holders of Senior COFINA Bond
Claims (Ambac) and Senior COFINA Bond Claims
(National). The Plan is the result of extensive arms’
length negotiations among the Governmental Parties
and significant creditor constituencies, including the
PSA Creditors, each of which was represented by
sophisticated counsel, and the compromises and
settlements among the Governmental Parties and
various PSA Creditors form the very foundation of the
Plan.
In absence of such compromises and
settlements, COFINA’s emergence from Title III
would likely be significantly delayed by currently
stayed and other litigation and burdened by additional
expense, which could impair the ability of COFINA to
successfully adjust its debts, thereby prejudicing the
recovery for all creditors and raising further
uncertainties concerning the Commonwealth and
COFINA’s financial condition.
Each of the
compromises and settlements incorporated into the
Plan (a) is made in good faith, furthers the policies and
purposes of PROMESA, is fair, equitable, and
reasonable; (b) is in the best interests of COFINA, its
creditors, and all other affected Persons with respect
to the Claims, Causes of Action, and other matters
resolved by such compromises and settlements; (c) is
within the range of reasonable results if the issues
were litigated; (d) falls above the lowest point in the
range of reasonableness; and (e) meets the standards
for approval under sections 105(a) and 1123(b) of the
Bankruptcy Code, Bankruptcy Rule 9019(a), and other
applicable law.

87a
84. Further, the Plan will fairly and consensually
resolve six adversary proceedings pending in the
Court, two appeals pending in the First Circuit Court
of Appeals, and an additional court action pending in
the District of Puerto Rico but not before the Title III
Court, each of which raises difficult and complex
issues. The Plan thus incorporates a complex series of
interrelated compromises and settlements that resolve
the most significant potential obstacle to confirmation
of a plan of adjustment.
Moreover, since the
compromises and settlements are inextricably
interwoven, they all hinge on one another and the
approval of all of these compromises and settlements
is required in order to satisfy the conditions to the
Effective Date set forth in the Plan.
85. Accordingly, the Plan is consistent with
section 1123(b)(3)(A) of the Bankruptcy Code.
x. Bankruptcy Code Section
1123(b)(3)(B)
86. The Plan is premised upon the Settlement,
which is integral to the Plan and settles and
compromises the Commonwealth-COFINA Dispute.
The Settlement has been determined to be fair and
reasonable and in the best interests of all creditors and
above the lowest rung in the range of reasonableness.
87. Section 26.1 of the Plan provides that,
“[e]xcept as settled and released herein, from and after
the Effective Date, Reorganized COFINA shall have
the exclusive right and power to litigate any Claim or
Cause of Action that constituted an Asset of COFINA,
including, without limitation, any Avoidance Action,

88a
and any other Cause of Action, right to payment, or
Claim that may be pending on the Effective Date or
instituted by COFINA or Reorganized COFINA
thereafter, to a Final Order, and may compromise and
settle such claims, without approval of the Title III
Court.” (Exhibit DX-G.)
88. The Plan is consistent with
1123(b)(3)(B) of the Bankruptcy Code.

section

xi. Bankruptcy Code Section 1123(b)(5)
89. Articles V through XIV of the Plan modify the
rights of holders of Claims in all Classes. There are no
Classes whose holders’ rights have been left unaffected
pursuant to the Plan. (Jaresko Decl. ¶ 52; Exhibit DXG.)
90. The Plan is consistent with section 1123(b)(5)
of the Bankruptcy Code.
xii. Bankruptcy Code Section 1123(b)(6)
91. The Plan provides for, among other things,
(a) certain releases, injunctions, and exculpations by
COFINA and Reorganized COFINA, the Disbursing
Agent, and each of COFINA’s and Reorganized
COFINA’s Related Persons, (b) releases by each of the
PSA Creditors and their respective Related Persons,
(c) a release of BNYM, (d) a release of the
Commonwealth, (e) a release of the Commonwealth
Agent Releasees, (f) consensual releases by holders of
Claims, (g) customary exculpation provisions for the
Government Parties, PSA Creditors and Bonistas, the
COFINA Agent, the Commonwealth Agent, and each

89a
of Ambac, Assured, and National and their respective
Related Persons; (h) assumption of certain director
and officer indemnification and reimbursement
obligations, and (i) an exemption from registration
pursuant to Bankruptcy Code section 1145 for the
issuance and distribution of COFINA Bonds, Ambac
Certificates, and National Certificates. (Exhibit DXG; see also Jaresko Decl. ¶ 53.)
92. Each of the foregoing is an integral part of the
Plan and is essential to its implementation. (Jaresko
Decl. ¶¶ 73-83.)
93. The Plan is consistent with section 1123(b)(6)
of the Bankruptcy Code.
xiii. Bankruptcy Code Section 1123(d)
94. Section 18.4 of the Plan provides for the
payment of cure amounts required to be paid to the
counterparties of Executory Contracts that are
assumed, or assumed and assigned under the Plan.
All cure amounts will be determined in accordance
with the underlying agreements and applicable
nonbankruptcy law, and pursuant to the procedures
established by the Plan. (Exhibit DX-G.) The Debtor
is not aware of any monetary defaults it must cure.
(Jaresko Decl. ¶ 54.)
95. The Plan is consistent with section 1123(d) of
the Bankruptcy Code.
xiv. Bankruptcy Code Section 1129(a)(2)
96. COFINA (i) has complied with applicable
provisions of the Bankruptcy Code, except as

90a
otherwise provided or permitted by orders of this
Court, and (ii) has complied with the applicable
provisions of the Bankruptcy Code, the Bankruptcy
Rules, the Local Rules, and the Disclosure Statement
Order in transmitting the Disclosure Statement, the
Plan, the Ballots, the Election Notices, and related
documents, and in soliciting and tabulating votes on
the Plan. (Jaresko Decl. ¶ 55.)
97. The Oversight Board, with the assistance of its
professionals, and in coordination with AAFAF,
expended significant time and effort preparing the
Disclosure Statement, and sought and received input
and comment thereon from all the parties to the A&R
Plan Support Agreement, and all other parties in
interest.
This Court approved the Disclosure
Statement as containing adequate information and
meeting the requirements of sections 1125 and 1126 of
the Bankruptcy Code. (Jaresko Decl. ¶ 55.) Based
upon the volume of ballots received and elections
made, it is clear the Debtor has properly solicited with
respect to the Plan, including with respect to each of
the possible elections under the Plan. (See Pullo Decl.
¶¶ 7-8, Exh. A.)
98. The Debtor has complied
1129(a)(2) of the Bankruptcy Code.

with

section

xv. Bankruptcy Code Section 1129(a)(3)
99. The Plan was proposed in good faith with the
legitimate and honest purpose to provide a method for
a covered territory to achieve fiscal responsibility and
access to capital markets, consistent with the purposes
of PROMESA. The Oversight Board, as proponent of

91a
the Plan, is the duly-appointed representative of
COFINA in its Title III Case as provided under
PROMESA and is in all respects consistent with
applicable law. In determining that the Plan has been
proposed in good faith, the Court has examined the
totality of the circumstances surrounding the filing of
the Title III Case, the Plan itself, the lengthy process
leading to the Plan’s formulation (including the
compromises, settlements, and releases incorporated
therein), and the process associated with the Plan’s
prosecution. The Debtor’s good faith is evident from
the facts and records of the Title III Case, the
Disclosure Statement and the hearing thereon, and
the record of the Confirmation Hearing and other
proceedings held in the Title III Case, including
related adversary proceedings. The Plan (including
the settlements and compromises contained therein) is
the result of extensive arm’s-length negotiations
among the Settlement Parties through mediation led
by Chief Bankruptcy Judge Houser. The Agreement
in Principle was the product of an independent process
overseen by the court-appointed Mediation Team in
which the Oversight Board did not participate nor did
it have any control over the parties who could
participate. (Jaresko Decl. ¶ 56.)
100. The Oversight Board built upon the
Agreement in Principle and engaged in over two weeks
of mediation among interested parties on a COFINA
plan of adjustment and the attendant issues that
needed to be resolved for a viable plan to be proposed,
including the relative rights between senior and junior
COFINA bondholders that remain the subject of the
Interpleader Action. (Jaresko Decl. ¶ 57.)

92a
101. All major Classes of Claims were represented
in such mediation.
(Brownstein Decl. ¶¶ 18-20;
Jaresko Decl. ¶ 58.) The Senior COFINA Bondholders’
Coalition represented the interests of holders of Senior
COFINA Bond Claims. Ambac and National, as
monoline insurers of such Claims, in aggregate
amounts in excess of $2 billion, participated on behalf
of their respective interests and protected the interests
of their insureds.
Assured, an insurer of
approximately $274 million in “First Subordinate”
Existing Securities, is aligned with the economic
interest of the holders of Junior COFINA Bond Claims
and has no exposure, either through insurance
coverage or beneficial ownership, to Senior COFINA
Bonds. Assured participated in Plan mediation and
was a party to the A&R Plan Support Agreement.
Additionally, retail COFINA bondholders were
represented throughout the process by retail or
mutual funds, representing the interests of mainland
and “on-island” bondholders, and Bonistas, advocating
for the interests of Puerto Rico resident bondholders,
actively participated. All are signatories to the A&R
Plan Support Agreement that included terms for the
treatment of senior and junior COFINA bondholders
to settle the issues of the relative rights between the
senior and junior COFINA bondholders. (Brownstein
Decl. ¶ 19.)
102. The Plan represents the culmination of months
of intensive negotiations and discussions among
parties representing the interests of all COFINA and
Commonwealth stakeholders in an independently
driven process facilitated by the court-appointed
Mediation Team. Throughout the Plan negotiations,
various constituencies were represented in the

93a
negotiation of the Plan, as illustrated by the
widespread creditor participation in and execution of
the A&R Plan Support Agreement. Cumulatively,
such parties hold, own, beneficially own, or insure
approximately an aggregate $5.6 billion in senior
COFINA bonds, and $3.7 billion in junior COFINA
bonds.
(Brownstein Decl. ¶ 20.)
No entity or
constituency was denied access to the mediated
settlement negotiation process. (See Jaresko Decl.
¶ 22 (stating that the Oversight Board worked with
“any creditor party who sought to participate to
formulate procedures agreeable to the interested
parties” as part of the mediation process); (see also
Docket Entry No. 560 in Case No. 17-3283, Order and
Notice of Meeting with Representatives of Mediation
Team).)13

In his Response to Proposed Findings of Fact and Conclusions
of Law Submitted by Individual COFINA Subordinate
Bondholder Residing in the 50 States Who Purchased at the
Original Offering Prices (Docket Entry No. 4911 in Case No. 173283), Mr. Hein contends that the confidentiality of the mediation
process within which the Settlement and Plan proposals were
developed ran afoul of the First Amendment right of access to
judicial proceedings. Mr. Hein’s reliance on Delaware Coalition
for Open Government, Inc. v. Strine, 733 F.3d 510 (3d Cir. 2013)
is unavailing because, unlike the closed courthouse-based binding
arbitration proceedings, presided over by judges, that were the
subject of that case, the mediation program here is open to all
interested participants on terms announced by the Mediation
Team, the members of the Mediation Team do not render binding
decisions, and all stakeholders with standing have the
opportunity to challenge in open adversarial proceedings before
the Court any proposals developed in mediation for which judicial
approval is sought. Given these circumstances, the experience
and logic test does not support a finding of a First Amendment
13

94a
103. The Plan is designed to implement the
settlement and compromise of, among other things,
the Commonwealth-COFINA Dispute and the
Interpleader Action, and maximize value for
COFINA’s creditors, while avoiding protracted
litigation which could delay distributions to creditors,
or worse, result in no recoveries for any COFINA
creditors. (Jaresko Decl. ¶ 57.)
104. The Plan and the Disclosure Statement reflect
the culmination of those efforts and the substantial
input of each representative group.
105. The Plan (including the Settlement Agreement
and all other agreements, documents and instruments
necessary to effectuate the Plan) achieves a rational
adjustment of COFINA’s debts, and properly
distributes value to Creditors based upon their
respective
priorities,
including
through
the
implementation of parties’ elections with respect to
distributions.
The Plan was proposed with the
legitimate and honest purpose of maximizing the value
of COFINA’s property, and to maximize distributions
to all creditors. (See Jaresko Decl. ¶ 57.)
106. The Plan complies with section 1129(a)(3) of
the Bankruptcy Code.

right of public access to the mediation proceedings. The objection
is therefore overruled.

95a
xvi. Bankruptcy Code Section 1129(a)(6)
107. The Plan does not provide for any rate changes
by COFINA, and, accordingly, such section of the
Bankruptcy Code does not apply.
xvii. Bankruptcy Code Section
1129(a)(8)
108. Pursuant to the Disclosure Statement Order,
the Court approved the Disclosure Statement and
found, among other things, that the Disclosure
Statement contained “adequate information” within
the meaning of section 1125 of the Bankruptcy Code
and authorized the Debtor to solicit acceptance and
rejections of the Plan, as well as certain elections with
respect thereto. (Disclosure Statement Order ¶¶ B, 2.)
Prior to the transmission of the Disclosure Statement,
the Debtor did not solicit acceptances of the Plan by
any holder of Claims.
109. The (i) Disclosure Statement Order,
(ii) Confirmation Hearing Notice, (iii) Disclosure
Statement (which includes as an exhibit a copy of the
Plan), (iv) Ballots, (v) Election Notices, (vi) Class 6
Notice, and (vii) Notice of Non-Voting Status — Class
10 (collectively, the “Solicitation Packages”) were
served in compliance with the Bankruptcy Code,
Bankruptcy Rules, Local Bankruptcy Rules, and the
Disclosure Statement Order. (Pullo Decl. ¶ 6; Mailing
Affidavit.)
110. The (a) service of the Solicitation Packages,
(b) publication of the Confirmation Hearing Notice,
and (c) airing of radio advertisements regarding the

96a
approval of the Disclosure Statement, Confirmation
Hearing date, Confirmation Objection Deadline,
Voting Deadline, and Election Deadline: (i) were
adequate and sufficient under the circumstances of the
Title III Case; (ii) provided adequate and sufficient
notice of the Voting Deadline, the Election Deadline,
the Confirmation Objection Deadline, the method of
voting or making an election of distribution under the
Plan and the date, time and location of the
Confirmation Hearing; (iii) provided holders of Claims
with a reasonable period of time to make an informed
decision to accept or reject the Plan and to make any
election provided thereunder; (iv) were in compliance
with PROMESA, the Bankruptcy Code, the
Bankruptcy Rules, the Local Bankruptcy Rules, the
Disclosure Statement Order, and any other applicable
orders and rulings of the Court; and (v) provided due
process to all parties in interest in the COFINA
Title III Case. (Pullo Decl. ¶¶ 4-6; Service Affidavits.)
111. No other or further notice with respect to the
Plan or the Confirmation Hearing is required. Based
upon the foregoing, the Debtor and its successors,
predecessors, control persons, representatives,
officers, directors, employees, agents, attorneys,
financial advisors, investment bankers, accountants,
and other retained professionals, and any and all
affiliates, managers, employees, attorneys and
advisors of the foregoing (i) have acted in “good faith”
within the meaning of section 1125(e) of the
Bankruptcy Code in compliance with the applicable
provisions of PROMESA, the Bankruptcy Code, the
Bankruptcy Rules, the Local Bankruptcy Rules, and
any applicable nonbankruptcy law, rule or regulation
governing the adequacy of disclosure in connection

97a
with all its activities relating to the solicitation of
acceptances to the Plan or elections thereunder and its
participation in the activities described in section 1125
of the Bankruptcy Code and (ii) shall be deemed to
have participated in good faith and in compliance with
the applicable provisions of PROMESA and the
Bankruptcy Code in the offer and issuance of
securities under the Plan and, therefore, are not, and
on account of such offer, issuance and solicitation will
not be, liable at any time for the violation of any
applicable law, rule, or regulation governing the
solicitation of acceptances or rejections of the Plan or
elections thereunder or the offer and issuance of the
securities under the Plan, and are entitled to the
protections afforded by section 1125(e) of the
Bankruptcy Code and, to the extent such parties are
listed therein, the exculpation provisions set forth in
Section 30.7 of the Plan. Plan § 30.7.
112. Votes to accept or reject the Plan were solicited
and tabulated fairly, in good faith, and in a manner
consistent with the Disclosure Statement Order,
PROMESA, the Bankruptcy Code, the Bankruptcy
Rules, and the Local Bankruptcy Rules. (Pullo Decl.
¶¶ 7-8.)
113. All classes of creditors entitled to vote to accept
or reject the Plan have voted to accept the Plan in
accordance with the requirements set forth in the
Bankruptcy Code and as applicable in accordance with
sections 301 and 314(b) of PROMESA. (Pullo Decl.
¶ 8.)
114. Holders of Claims in Classes 1, 2, 3, 5, 6, 8, and
9 voted, or are deemed to have voted, to accept the

98a
Plan. (Pullo Decl. ¶ 8.) Pursuant to the Plan, holders
of Claims who have elected to be treated under Class
4 or Class 7 are deemed to have voted to accept of the
Plan. (Plan §§ 5.2, 9.2.) The Plan therefore satisfies
section 1129(a)(8) of the Bankruptcy Code with respect
to Classes 1, 2, 3, 4, 5, 6, 7, 8, and 9. Holders of Claims
in Class 10 are deemed to reject the Plan, so section
1129(a)(8) of the Bankruptcy Code is unsatisfied with
respect to Class 10. (Plan § 14.1.)
115. Notwithstanding such deemed rejection, the
Plan is confirmable because the Plan satisfies sections
1129(b)(2)(A) and 1129(b)(2)(B) of the Bankruptcy
Code with respect to Class 10.
xviii. Bankruptcy Code Section
1129(b)(1)
116. The Debtor is unaware of any Section 510(b)
Subordinated Claims other than assertions set forth in
several proofs of claim, but the Debtor included such
Claims and classification within the Plan. The Plan’s
treatment of Claims in Class 10 is proper, because all
similarly-situated holders of Claims will receive
similar treatment. All holders of subordinated claims
in Class 10 will not be receiving distributions pursuant
to the Plan, and Class 10 is deemed to reject the Plan.
(Jaresko Decl. ¶ 60; Exhibit DX-G.) Accordingly, the
Plan does not unfairly discriminate against holders of
Claims in Class 10 (Section 510(b) Subordinated
Claims).

99a
xix. Bankruptcy Code Section 1129(b)(2)
117. The Plan’s treatment of Claims in Class 10 is
proper, because claims junior to the claims in Class 10
will receive no distributions under the Plan. There is
no Class that is junior to Class 10 and, thus, no holder
of claims or interests junior to Claims in Class 10 will
receive or retain any property under the Plan on
account of any such claim or interest. (Jaresko Decl.
¶ 61; Exhibit DX-G.) Accordingly, the Plan is fair and
equitable to holders of Claims in Class 10 (Section
510(b) Subordinated Claims).
B. PROMESA § 314(b)(2):
The Plan Fully
Complies with the Provisions in Title III of
PROMESA.
118. Except as otherwise provided for or permitted
by orders of the Court, the Debtor has complied with
the applicable provisions of PROMESA, the
Bankruptcy Code, the Bankruptcy Rules, the Local
Bankruptcy Rules, and the Disclosure Statement
Order in transmitting the Solicitation Packages and in
tabulating the votes and elections with respect to the
Plan. (See generally Jaresko Decl.)
119. The Plan complies with PROMESA section
314(b)(2).
C. PROMESA § 314(b)(3): The Debtor Is Not
Prohibited By Law From Taking Any Action
Necessary to Carry Out the Plan.
120. The Plan contains no provisions which would
require it to violate Commonwealth law.
The

100a
Commonwealth’s Legislative Assembly passed, and its
Governor signed, the New Bond Legislation, which
established the legal framework for the restructuring
of COFINA’s issued and outstanding bonds. The terms
of the New Bond Legislation provide the legislative
structure to carry out the terms of the Plan.
Specifically, and among other things, the New Bond
Legislation provides (a) confirmation that, on the
Effective Date, Reorganized COFINA is and will be the
sole and exclusive owner of the COFINA Revenues and
incorporates such other terms as set forth in the Plan,
see, e.g., New Bond Legislation art. 2.2, (b) that the
modification of COFINA’s corporate governance
structure is consistent with its independence from the
Commonwealth, see id. art. 2.7, (c) the authorization
for Reorganized COFINA to issue COFINA Bonds and
COFINA Parity Bonds pursuant to the New Bond
Indenture and to provide for the terms of such bonds,
see id. art. 3.1(a), (d) confirmation of Reorganized
COFINA’s ownership of the COFINA Revenues, see id.
art. 2.2, (e) the creation of a statutory lien to secure the
COFINA Bonds and COFINA Parity Bonds, see id. art.
3.2, and (f) covenants to secure further the repayment
of the COFINA Bonds and COFINA Parity Bonds,
such as the COFINA Revenues being funded from first
funds, a non-impairment covenant and covenants that
allow the Commonwealth to modify the Pledged Sales
Tax and substitute New Collateral only upon
satisfaction of certain specific requirements, see id.
arts. 3.3, 4.1. (Jaresko Decl. ¶ 63; Exhibit DX-G.)
Moreover, the New Bond Legislation provides that the
COFINA Revenues do not constitute “available
resources” or “available revenues” of the Government
of Puerto Rico as used in Section 8 of Article VI of the

101a
Puerto Rico Constitution or as otherwise used in the
Puerto Rico Constitution (whether construed pursuant
to the Spanish or English version of the Puerto Rico
Constitution). See New Bond Legislation art. 2.2(e).
Pursuant to Puerto Rico case law, legislation of the
Commonwealth is presumed to be valid if enacted by
the Legislative Assembly of Puerto Rico and signed
into law by the Governor. E.g., Brau v. ELA, 2014
TSPR 26, 190 D.P.R. 315, 337, 2014 WL 997526 (P.R.
Feb. 21, 2014); Partido Socialista Puertorriqueño v.
ELA, 107 D.P.R. 590, 7 P.R. Offic. Trans. 653, 727,
1978 WL 48833 (P.R. Oct. 5, 1978), holding modified
by Partido Independentista Puertorriqueño v. CEE,
120 D.P.R. 580, 1988 JTS 23, 20 P.R. Offic. Trans. 607,
1988 WL 580845 (P.R. Mar. 7, 1988) (“To begin with,
laws are presumed to be constitutional and the movant
[objector] should place the courts in a position to decide
by introducing evidence to sustain the facts alleged,
and then stating the legal arguments on which its
assignment of unconstitutionality is based, specifically
mentioning the constitutional provisions involved and
the legal precedents supporting its assignment.”). In
this case, no objector presented persuasive evidence,
either in their written opposition submission or at the
Confirmation Hearing, of any defect undermining the
presumptively valid enactment of the New Bond
Legislation.14 Therefore, the presumption of validity
The VAMOS objectors argue that a pending adversary
proceeding challenging the constitutionality of the New Bond
Legislation must be resolved prior to confirmation of the proposed
COFINA Plan. (See VAMOS Obj. at 2-6.) These objectors
contend that the New Bond Legislation is unconstitutional under
both the United States and Puerto Rico Constitutions because
Representative Natal-Albelo was prohibited, in violation of the
rules of the House of Representatives, from participating in the
14

102a

legislative process leading up to the House of Representatives
vote on the New Bond Legislation. Plaintiffs also assert that both
the original COFINA legislation and the New Bond Legislation
violate the Constitution of Puerto Rico because borrowing
authorized thereunder allegedly exceeds the limits on “public
debt” set forth in Sections 2 and 7 of Article VI of the Constitution
of Puerto Rico (which sections respectively limit the amount and
duration of direct obligations of the Commonwealth backed by a
pledge of the full faith and credit and taxing power of the
Commonwealth, and provide that appropriations for a fiscal year
shall not exceed total estimated revenues for the year absent the
imposition of taxes to cover the shortfall). Plaintiffs’ arguments
regarding an alleged violation of the rules of the Commonwealth
House of Representatives are nonjusticiable and are therefore
overruled insofar as they are raised as objections to the Plan. See
Noriega Rodriguez v. Jarabo, 136 D.P.R. 497 (P.R. 1994); Silva v.
Hernández Agosto, 118 D.P.R. 45, 18 P.R. Offic. Trans. 55 (P.R.
1986). Furthermore, arguments regarding the Commonwealth’s
“public debt” limit have been resolved as part of the 9019
Settlement Agreement between the Commonwealth and COFINA
insofar as they relate to the statutory authorization of the
existing COFINA bonds. The New Bond Legislation, which is
presumptively valid and not facially inconsistent with the cited
Puerto Rico constitutional provisions, clearly provides that
Reorganized COFINA is a “corporate and political entity
independent and separate from the Government of Puerto Rico,”
that Plan of Adjustment Bonds shall be payable solely from
COFINA Revenues, and that the “COFINA Revenues do not
constitute ‘available resources’ or ‘available revenues’ of the
Government of Puerto Rico as used in Section 8 of Article VI of
the Puerto Rico Constitution.” (Exhibit DX-QQQ §§ 2.1, 2.2(e),
3.1(c).) The VAMOS objectors’ objections are overruled. (See also
infra ¶¶ 175-76.) Additionally, in its amicus brief, the PDP
argues that the New Bond Legislation impermissibly restricts the
ability of a successor Legislative Assembly to exercise its
exclusive taxing, spending, and police powers. PDP’s position is
unfounded. Although the New Bond Legislation sets forth
procedures that must be met before any amendments to the New
Bond Legislation can become effective, the procedures do not
preclude the possibility of future alterations. The New Bond

103a
has not been rebutted as required by Puerto Rico case
law. Based on an analysis of the provisions of the New
Bond Legislation and the record before the Court, the
Court finds that the enactment of the New Bond
Legislation was a proper exercise of the Legislative
Assembly’s constitutional power to designate revenues
for a legitimate public purpose. Specifically, the New
Bond Legislation designates a portion of the COFINA
sales tax revenues to be transferred to COFINA in
order for COFINA to fully satisfy and discharge the
potential judicial liabilities of the Commonwealth and
COFINA by issuing new non-recourse bonds.
Accordingly, the Court finds that the New Bond
Legislation has been validly enacted, is valid, and,
subject to the occurrence of the Effective Date of the
Plan, is binding and enforceable.
121. The Plan contains no provisions that would
require it to violate the Contracts Clause of the
Constitution of the United States. The Contracts
Clause provides that no state shall pass any law
impairing the obligation of contracts. U.S. Const. art.
I, § 10, cl. 1. While a state or territory cannot make a
law impairing the obligation of contracts, Congress is
empowered to do so pursuant to Article I, Section 8 of
the Constitution, which provides that Congress shall
have the power to establish uniform laws on the
subject of bankruptcies throughout the United States.
U.S. Const. art. I, § 8, cl. 4. It has long been recognized
Legislation merely clarifies the means by which the Legislative
Assembly’s taxing power may be exercised in the future without
impairing COFINA’s interests. See New Bond Legislation
§ 3.3(b), (e). The other arguments raised in the PDP Amicus Brief
are similarly unavailing.

104a
that one of the fundamental goals of bankruptcy law is
to adjust the debtor-creditor relationship, that is, to
alter contract rights. See In re City of Stockton, Cal.,
478 B.R. 8, 14-15 (Bankr. E.D. Cal. 2012). “While
bankruptcy law endeavors to provide a system of
orderly, predictable rules for treatment of parties
whose contracts are impaired, that does not change the
starring role of contract impairment in bankruptcy.”
Id. at 16. Congress is, therefore, “expressly vested
with the power of passing [bankruptcy] laws, and is
not prohibited from passing laws impairing the
obligation of contracts.” Id. at 15 (citing Sturges v.
Crowninshield, 17 U.S. 122, 191 (1819)). It follows
that this Court may approve the Plan under
PROMESA, a federal law enacted by Congress with
the express purpose of allowing Puerto Rico to achieve
fiscal responsibility and access to the capital markets
through, inter alia, adjustment of its debts and those
of its instrumentalities, without offending the
Constitution. In this connection, Mr. Hein has failed
to demonstrate that the fiscal plans constitute
territorial laws subject to the restrictions of the
Contracts Clause, and his objection with respect to the
fiscal plans is therefore overruled. To the extent that
Mr. Hein argues that the New Bond Legislation is
itself unconstitutional under the Contracts Clause, the
Court concludes that the legislation is reasonable and
necessary in light of the surrounding circumstances.
Although the language of the Contracts Clause is
“unequivocal,” it “does not make unlawful every state
law that conflicts with any contract.” United Auto.,
Aero., Agric. Impl. Workers of Am. Int’l Union v.
Forturio, 633 F.3d 37, 41 (1st Cir. 2011).
In
considering claims brought under the Contracts

105a
Clause, courts must “reconcile the strictures of the
Contract[s] Clause with the essential attributes of
sovereign power necessarily reserved by the States to
safeguard the welfare of their citizens.” Id. In doing
so, courts apply a two-pronged test: they examine first
“whether the state law has . . . operated as a
substantial impairment of a contractual relationship,”
and then, if the law has, “whether the impairment was
reasonable and necessary to serve an important
government purpose.” Id. Assuming arguendo that
the New Bond Legislation will substantially impair
contractual obligations, the Court examines the
reasonableness and necessity of the New Bond
Legislation.
The First Circuit considers “the
reasonableness inquiry” to “ask[] whether the law is
reasonable in light of the surrounding circumstances,”
while “the necessity inquiry focuses on whether Puerto
Rico imposed a drastic impairment when an evident
and more moderate course would serve its purposes
equally well.” Id. at 45-46. In analyzing these
questions, courts may consider “whether the act (1)
was an emergency measure; (2) was one to protect a
basic societal interest, rather than particular
individuals; (3) was tailored appropriately to its
purpose; (4) imposed reasonable conditions; and (5)
was limited to the duration of the emergency.” Id. at
46. The circumstances surrounding the enactment of
the New Bond Legislation are clear:
the
Commonwealth Legislature enacted the New Bond
Legislation in response to the Commonwealth’s
unprecedented fiscal and economic crisis and the need
to resolve litigation concerning the legality of the
COFINA structure. Faced with the possibilities that,
on the one hand, if COFINA were to prevail in the

106a
Commonwealth-COFINA dispute, none of the SUT
Revenues that are the subject of that dispute would be
available for the Commonwealth’s use towards
payment for essential services or for distribution to its
creditors and, on the other, the purported dedication
of SUT revenues to COFINA to support bond
repayments could be invalidated if the Commonwealth
were to prevail, the Legislature agreed to enact a law
that would aid the effectuation of the settlement of
that dispute.
The Legislature’s decision is a
reasonable one under the surrounding circumstances.
It is also necessary in light of the ongoing fiscal
emergency in Puerto Rico. The Court therefore
concludes that the Contracts Clause does not prohibit
confirmation of the Plan, and Mr. Hein’s objections
invoking the Contracts Clause are therefore overruled.
122. The Plan contains no provisions that would
violate the Takings Clause of the Constitution of the
United States. Several bondholders have argued that
the Plan and Settlement Agreement take bondholder
property—specifically, the lien on revenues dedicated
to COFINA that secures repayment of the bonds
issued by COFINA—without just compensation. The
proper analytical framework for addressing the
objectors’ Takings Clause challenge is set forth in
Penn Central Transportation v. City of New York, 438
U.S. 104, 124 (1978).
See Patriot Portfolio v.
Weinstein (In re Weinstein), 164 F.3d 677, 685 (1st
Cir. 1999) (applying Penn Central analysis to
constitutional challenge to lien avoidance pursuant to
section 522(f) of the Bankruptcy Code). Pursuant to
that test, courts consider three factors: “(1) the
economic impact of the regulation on the claimant; (2)
the extent to which the regulation interferes with the

107a
claimant’s
reasonable
investment-backed
expectations; and (3) the character of the
governmental action.” Id. Considering the first factor,
the Court notes that the actions challenged by the
objecting parties will not result in the total destruction
of the value of the liens securing the existing bonds.
Pursuant to the terms of the Plan, bondholders will
receive substantial value in new secured bonds and, in
some cases, cash. Furthermore, based upon the record
before it, the Court finds that the resolution of
substantial legal challenges to the structure
underlying the existing COFINA bonds provides
significant value to the bondholders. Second, although
the proposed treatment of bondholders’ claims may
interfere with certain bondholders’ subjective
investment expectations, bondholders’ reasonable
expectations must take account of the claims and
potential claims that have been the subject of the
substantial litigation that the Settlement Agreement
and the Plan, which were negotiated with the
assistance of the Mediation Team, propose to resolve.
Cf. New Haven Inclusion Cases, 399 U.S. 392, 492
(1970) (noting that security holders “invested their
capital in a public utility that does owe an obligation
to the public [and thereby] assumed the risk that in
any depression or any reorganization the interests of
the public would be considered as well as theirs”)
(quotation marks omitted)). Third, the character of
the governmental action strongly supports the Court’s
conclusion that the Plan and Settlement Agreement do
not result in an unconstitutional taking.
The
challenged proposals are not physical invasions of
property by the government.
Rather, the
restructuring of the relationships between the

108a
Commonwealth and COFINA, and between COFINA
and its bondholders, using the powers established by
Congress in PROMESA is a quintessential example of
a “public program adjusting the benefits and burdens
of economic life to promote the common good.” Penn
Cent. Transp. Co., 438 U.S. at 124. Furthermore, even
if the reduction of dedicated revenues and
restructuring of bond terms under the Plan or
Settlement Agreement incorporated therein result in
a Fifth Amendment “taking” of bondholder property,
the Court is satisfied that the value to be received by
bondholders as a result of the settlement of the
Commonwealth-COFINA dispute and under the Plan
constitutes just compensation. The secured creditors’
Takings Clause claim is properly assessed based upon
the value of the lien, not the face amount of debt. See
In re Aegean Fare, Inc., 33 B.R. 745, 747-48 (Bankr. D.
Mass. 1983) (citing Wright v. Union Central Life
Insurance Co., 311 U.S. 273, 278 (1940)). Here,
creditors will receive consideration that is discounted
by a settlement that recognizes significant litigation
risks, the allocation of distributions was determined
via a long mediation and settlement process among
sophisticated parties, and creditors have ratified the
result by voting in favor of the Plan.
These
characteristics of the settlement and the Plan and the
circumstances under which they were developed
provide sufficient proof that the consideration to be
received by bondholders under the Plan constitutes
just compensation within the meaning of the Takings
Clause. The objections to the Plan and Settlement
Agreement based upon the Takings Clause of the
United States Constitution are therefore overruled.

109a
123. The Plan complies with PROMESA section
314(b)(3).
D. PROMESA § 314(b)(4): The Plan Provides
Each Holder of an Administrative Claim Cash,
Equal to the Allowed Amount of Such Claim,
on the Effective Date
124. Section 3.1 of the Plan provides that, “[o]n the
later to occur of (i) the Effective Date and (ii) the date
on which an Administrative Expense Claim shall
become an Allowed Claim, Reorganized COFINA shall
(a) pay to each holder of an Allowed Administrative
Claim, in Cash, the full amount of such Administrative
Expense Claim or (b) satisfy and discharge such
Allowed Administrative Expense Claim in accordance
with such other terms no more favorable to the
claimant than as may be agreed upon by and between
the holder thereof and Reorganized COFINA;
provided, however, that Allowed Administrative
Expense Claims representing indebtedness incurred
in the ordinary course by COFINA shall be paid in full
and performed by Reorganized COFINA in accordance
with the terms and subject to the conditions of any
agreement governing, investment evidencing, or other
document relating to such transactions; and, provided,
further, that, if any such ordinary course expense is
not billed, or a written request for payment is not
made, within ninety (90) days after the Effective Date,
such ordinary course expense shall be barred and the
holder thereof shall not be entitled to, or receive, a
distribution pursuant to the Plan.” (Exhibit DX-G.)
125. Consummation Costs are being paid in Cash
on the Effective Date of the Plan. All other Allowed

110a
Administrative Expense Claims, if any, will likewise
be paid pursuant to the terms of Section 3.1 of the
Plan.15
126. The Plan complies with PROMESA section
314(b)(4).
E. PROMESA § 314(b)(5):
The Plan Has
Obtained
All
Necessary
Legislative,
Regulatory, and Electoral Approvals
127. As discussed above, the Commonwealth has
validly enacted the New Bond Legislation, which New
Bond Legislation is valid, and, subject to the
occurrence of the Effective Date of the Plan, is binding
and enforceable, and there are no approvals left to
obtain to effectuate the Plan. By approving and
certifying the COFINA Fiscal Plan, the Oversight
Board provided approval for the issuance of securities
contemplated by the Plan as required by PROMESA
section 207. (Jaresko Decl. ¶ 66.)
128. The
314(b)(5).

Plan

satisfies

PROMESA

section

At least one opponent argues that the Consummation Costs
are “intended as a payoff to buy the votes of institutional
bondholders and insurers.” Mangiaracina Obj. at 3. However, no
evidence of any such “payoff” or other illicit conduct has been
presented to the Court. To the contrary, as the Court has found
above, there is ample evidence that the consummation cost
payments have a sound basis in law and in fact. (See supra ¶¶
70-74.) The objections to the Consummation Costs payments are
therefore overruled.
15

111a
F. PROMESA § 314(b)(6): The Plan Is Feasible
and in the Best Interests of Creditors
129. The COFINA Fiscal Plan, certified on October
18, 2018, demonstrates that the Plan is feasible,
because the COFINA Fiscal Plan provides for the
incurrence of obligations contemplated by the Plan
and shows that such obligations can be repaid.
COFINA’s Fiscal Plan projections (as set forth in
greater detail in Section XVIII of the Disclosure
Statement, entitled “Financial Information and
Projections” and Exhibit E thereto) demonstrate, as a
result of COFINA’s ownership of the COFINA Portion,
COFINA’s ability to fulfill its obligations under the
Plan.
COFINA’s financial projections (and its
underlying assumptions) are reasonable and
demonstrate a probability that COFINA will be able to
satisfy its obligations under the Plan. (See Brownstein
Decl. ¶¶ 29-34.)
130. COFINA has no power to raise taxes. The
alternative to the Plan is protracted litigation in the
Adversary Proceeding, which could lead to an all-ornothing recovery for either the Commonwealth or
COFINA.
For any individual class of COFINA
creditors to do better than it will under the Plan,
COFINA would have to prevail in the Adversary
Proceeding, which result is at best uncertain. Even if
one side to the litigation were to prevail in this Court,
litigation costs would skyrocket, and it could be
months, if not years, before a court issues a final,
unappealable order resolving who is entitled to the
SUT Revenues. (Jaresko Decl. ¶ 67.)

112a
131. Moreover, the Plan provides additional
protections for COFINA and its creditors, such as a
federal court order “quieting title” to COFINA’s
ownership of a majority of the Pledged Sales Tax Base
Amount—and on a first-dollars basis—against all
challenges, removing the cloud over title to COFINA’s
property interest that has existed since COFINA’s
creation in 2007, as well as enhanced non-impairment
and substitution covenants. If the Plan were to be
rejected, and the Commonwealth-COFINA Dispute
were litigated to conclusion, even if COFINA were
successful, it would not have these strong protections.
Nor would successful litigation regarding COFINA’s
ownership rights necessarily have prevented the
Commonwealth from attempting to enact other
measures that could have reduced the sales tax
transferred to COFINA, or even from outright
repealing the sales tax, spurring rounds of litigation as
to the appropriate remedies, if any. The Plan, and the
Confirmation
Order,
will
ensure
COFINA’s
revitalization and will prevent any challenges to
COFINA’s ownership of, and any attempts by other
parties to divert, COFINA’s portion of the Pledged
Sales Tax Base Amount.
Such outcome is
unquestionably in the best interest of COFINA’ s
creditors.
132. Independent of the validity of the transfer of
the SUT to COFINA, the holders of “First
Subordinate” Existing Securities face the risk that an
event of default will accelerate the bonds such that
“First Subordinate” Existing Securities are not paid
until holders of “Senior” Existing Securities are paid
in full. The Existing Bond Resolution provides that,
upon an event of default, the Trustee may, or upon the

113a
written request of owners of 25% of all outstanding
“Senior” Existing Securities, shall, declare the
principal of and accrued interest on the “Senior”
Existing Securities to be immediately due and
payable. Upon such declaration, the principal of, and
accrued interest on, the “Senior” Existing Securities
becomes immediately due and payable. In addition,
upon a declaration of an event of default, holders of
“First Subordinate” (i.e., junior) Existing Securities
may not declare a default, or cause the Trustee to take
any remedial action thereunder until such time that
the “Senior” Existing Securities are fully retired or are
defeased in accordance with the provision of the
Existing Bond Resolution. The senior bondholders
have taken the view that, upon an event of default, the
Existing Bond Resolution provides for the priority of
payments in favor of the “Senior Existing Securities”
if the funds held by the Trustee are insufficient for the
payment of interest and principal or Compounded
Amount (as defined in the Existing Bond Resolution)
or redemption price then due. (Jaresko Decl. ¶ 68.)
133. If the Plan were not confirmed, the parties
would lose the benefit of the Court-sanctioned
agreement resolving the Commonwealth-COFINA
Dispute. Litigation would continue in an all-ornothing fashion, leaving some creditors potentially
much worse off and some creditors potentially better
off.
The Plan’s provision for a distribution of
approximately 93% of the aggregate value of claims
held by the holders of “Senior” Existing Securities (see
Plan § 1.168) and approximately 56% of the aggregate
value of claims held by the “First Subordinate”
Existing Securities (see Plan § 1.114), in light of the
risks attendant to the Commonwealth-COFINA

114a
Dispute and the Interpleader Action, among others, is
likely far superior to what both groups of bondholders
might receive outside of the Plan. The Plan avoids the
pitfalls of delay, litigation costs, and uncertainty by
implementing the consensual agreement reached by
the major stakeholders in the Title III Case in a
manner consistent with the Procedures Order. The
robust acceptance of the Plan by the various classes
indicates such creditors believe the Plan to be in their
best interests. (Jaresko Decl. ¶ 69.)
134. The Oversight Board retained Citi to serve as
investment banker and financial advisor to the
Oversight Board in connection with the Oversight
Board’s statutory duties under PROMESA and its task
of working with the Commonwealth to create the
necessary foundation for economic growth and to
restore opportunity to the people of the
Commonwealth. Citi developed the Securities Terms
to address the concerns of both COFINA and its
bondholders and were designed with two focal points
in mind: (i) to ensure broad market access to
Reorganized COFINA on a go-forward basis; and (ii) to
provide all existing COFINA creditors with as
increased a potential recovery as possible by ensuring
as high a market value as possible for the bonds issued
pursuant to the Plan. In doing so, Citi had been
informed by creditor representatives that they were
particularly concerned about a possible double
“haircut” (i.e., first, a reduction to the amount of their
original claims through the Plan, and second, a
subsequent
reduction
through
less-valuable
replacement bonds they receive in exchange for their
original bonds). (Brownstein Decl. ¶¶ 12-13.)

115a
135. The Securities Terms also provide that the
COFINA Bonds to be issued pursuant to the Plan will
bear fixed interest rates, including Current Interest
Bonds (“CIBs”), which pay cash interest, and Capital
Appreciation Bonds (“CABs”), which accrete non-cash
interest until maturity. All COFINA Bonds accrue
interest beginning as of August 1, 2018. The CIBs
mature in 2034, 2040, 2053, and 2058 and have a par
value in the aggregate of approximately $9 billion.
The CABs mature in 2024, 2027, 2029, 2031, 2033,
2046, and 2051 and have an initial value of
approximately $3 billion.
(Plan § 16.1(a)-(b);
Brownstein Decl. ¶ 14.)
136. To provide protection to holders of the
COFINA Bonds, the Securities Terms provide that no
parity debt may be issued by Reorganized COFINA
other than refinancing bonds (“COFINA Parity
Bonds”) that produce debt savings in each year for
Reorganized COFINA and no maturity extensions.
(Brownstein Decl. ¶ 15.) The Securities Terms also
provide that Reorganized COFINA may issue
subordinate lien bonds for the benefit of the
Commonwealth only if the following requirements are
satisfied (the “Additional Bonds Test”):
(i) the
projected 5.5% SUT equals or exceeds one and one-half
times (1.5x), in any succeeding Fiscal Year, the annual
aggregate debt service due on the COFINA Bonds, the
COFINA Parity Bonds and subordinated lien bonds to
remain outstanding after the issuance of such
subordinated lien bonds (including the subordinated
lien bonds to be issued); (ii) the preceding Fiscal Year’s
collections from the 5.5% SUT is equal to or greater
than one and one-tenth times (1.10x) coverage of the
maximum annual aggregate debt service due in any

116a
succeeding Fiscal Year on all COFINA Bonds,
COFINA Parity and subordinated lien bonds to
remain outstanding after the issuance of such
subordinated lien bonds (including the subordinated
lien bonds to be issued); and (iii) the subordinated lien
bonds have a maturity not later than Fiscal Year 2058;
provided, however, that, subsequent to June 30, 2028,
and subject to compliance with the foregoing
Additional Bonds Test, final maturity beyond Fiscal
Year 2058 shall be permissible for future subordinated
lien bonds. (Brownstein Decl. ¶ 15; Second Amended
Plan Supplement at Exhibit A, § 2.04(b).) In addition,
the Securities Terms provide that the repayment of
such subordinated lien bonds shall be secured by a
second lien that is subordinated in all respects,
including, without limitation, in respect of payment,
funding and remedies to the COFINA Bonds and
COFINA Parity Bonds, with repayment of
subordinated lien bonds being secured by a
subordinated second or more junior lien on the 5.5%
SUT Taxes; provided, however, that repayment of the
Subordinated Lien Bonds shall not be payable from
the COFINA Revenues. To support the credit rating
of the COFINA Bonds, the Securities Terms also
provide for (a) a non-impairment covenant of the
Commonwealth, which provides, among other things,
that (i) the pledged SUT percentage shall not be
reduced to a rate less than 5.5% unless, in connection
with such reduction, Reorganized COFINA shall have
received a Rating Confirmation from each of at least
two of the rating services then providing a credit
rating on the outstanding COFINA Bonds and
COFINA Parity Bonds, that the rating of such rating
service on the COFINA Bonds and COFINA Parity

117a
Bonds (without regard to bond insurance or other
credit enhancement) will not be downgraded and will
be at least A2/A category or higher following such
reduction; provided, however, that, notwithstanding
the foregoing, if the pledged SUT percentage is
reduced below 3%, then, in connection with such
reduction, the Commonwealth shall comply with the
certain substitution requirements.
Further, the
Securities Terms provide that repayment of the
COFINA Bonds and COFINA Parity Bonds is to be
secured by a statutory first lien on Reorganized
COFINA’s interest in the 5.5% pledged SUT.
(Brownstein Decl. ¶ 16.) The Securities Terms are set
forth in the Plan and Amended Plan Supplement and
may be amended, restated, supplemented, or
otherwise modified in accordance with the terms and
provisions hereof and thereof, as applicable.
137. Each series of Existing Securities was issued
pursuant to a supplemental resolution providing for
its issuance and the terms of such series, in each case
adopted by the Board of Directors of COFINA. The
Resolution together with the supplemental resolutions
issued pursuant thereto is referred to as the “Existing
Bond Resolution.”
The various supplemental
resolutions authorized the issuance of both
“Subordinate Bonds” and “Senior Bonds” as defined in
the Resolution. (Brownstein Decl. ¶ 21.)
138. As of the Petition Date, COFINA had
outstanding $17.64 billion aggregate principal and
unpaid interest amount of bonds issued under the
Existing Bond Resolution, including approximately
$7.76 billion of claims arising from “Senior” Existing
Securities and approximately $9.88 billion of claims

118a
arising from “First Subordinate” Existing Securities.
Approximately $1.33 billion of the “Senior” Existing
Securities are insured by Ambac and $1.10 billion are
insured by National. Approximately $0.25 billion of
the “First Subordinate” Existing Securities are
insured by Assured. (Brownstein Decl. ¶ 21.)
139. The Existing Bond Resolution in respect of
“Senior” Existing Securities provides for the issuance
of additional bonds that are “subordinate to payment
of the Senior Bonds and which are further subject to
the terms of priority of payment among the several
Classes, if any, of Subordinate Bonds.”
Many
supplemental resolutions issued subsequent to the
Resolution indicate that Bonds issued thereunder are
“First Subordinate” Existing Securities. For example,
the Seventh Resolution provides that [a]ll of the Series
2009A Bonds shall constitute “Subordinate Bonds”
under the Resolution.” (Brownstein Decl. ¶ 22; DXXX.)
140. The “First Subordinate” Existing Securities
cannot declare an event of default or control remedies
until the “Senior” Existing Securities are satisfied in
full. If an event of default under the Existing Bond
Resolution had occurred, the senior bondholders could
have had repayment of their bonds accelerated, all to
the detriment of the junior bondholders. Furthermore,
senior bondholders could have established an
entitlement to the face value of their bonds and a
“make-whole” provision before the junior bondholders
received any distributions. (Rodrigue Decl. ¶ 4.)
Independent of the validity of the transfer of certain
sales and use taxes to COFINA, senior bondholders
have taken the view that such acceleration would have

119a
required the senior bondholders to be paid in full
before junior bondholders could declare an event of
default and exercise remedies. (Brownstein Decl. ¶ 23;
Rodrigue Decl. ¶ 4; Exhibit DX-K.) However, neither
the Ambac Insurance Policy nor the National
Insurance Policies insures against loss of prepayment
premiums, which include “make-whole” provisions.
141. The contractual subordination of the junior
COFINA bondholders to the senior COFINA
bondholders includes the risk that the amount of SUT
available to bondholders is compromised. The original
bargained-for agreement between junior and senior
COFINA bondholders includes the possibility that, if
monies available to COFINA bondholders are reduced,
senior bondholders shall be satisfied first. This
contractual subordination is not just related to the risk
the SUT revenues are less than projected, but covers
all possible reasons for a reduction in revenues. One
risk was that an event of default occurred, and the
acceleration provision in the Bond Resolution was
triggered, such that only senior COFINA bondholders
would be entitled to receive cash flows thereunder. In
the senior bondholders’ view, the senior-subordinate
relationship and payment waterfall entitle seniors to
payment in full before subordinate bondholders
receive any recovery. Enforcement of strict priority
following an event of default could result in senior
bondholders receiving a par recovery plus post-petition
interest and other entitlements under the Bond
Resolution.
In such a situation, subordinate
bondholders would not receive any recovery for many
years and the present value of any such recovery
would be substantially less than the recovery

120a
subordinate bondholders will receive under the Plan.
(Brownstein Decl. ¶ 24.)
142. A settlement regarding the validity of the
COFINA structure and the ability of the SUT to flow
into COFINA was also a potential risk to COFINA
bondholders, even when the bondholders first
purchased COFINA bonds. The Settlement relieves
junior bondholders of these risks. (Brownstein Decl.
¶ 25.)
143. The senior COFINA bondholders are receiving
less than par on their bonds (approximately 93%
recovery is projected for Class 1), while the junior
bondholders are receiving a significant recovery. Had
an event of default been recognized, or the SUT
revenues been insufficient to satisfy all bondholders
outside of this settlement, junior bondholders would
bear the risk of not receiving any monies prior to
senior bondholders being paid in full. (Brownstein
Decl. ¶ 25.)
144. The Settlement and securities issued pursuant
to the Plan appropriately do not reflect the varying
interest rates and maturities on the Existing
Securities. As provided in Bankruptcy Code section
502, made applicable to COFINA’s Title III Case
pursuant to PROMESA section 301, for the purposes
of distribution pursuant to the Plan, claims arising
from the Existing Securities are valued, based solely
on the outstanding principal amount and accrued
interest and/or accreted capital appreciation, as of the
day before the commencement of COFINA’s Title III
Case. (Exhibit DX-G; Brownstein Decl. ¶ 26.) Any
objections premised on the failure of the stated return

121a
percentage computations under the Plan to take into
account future interest and maturity differentials are
therefore overruled.
145. It is uncertain whether all of the COFINA
Bonds issued to holders of Existing Securities under
the Plan will be tax-exempt. The Plan recognizes that
many mainland investors were concerned that their
recovery would be artificially depressed if they
received taxable bonds on account of their Existing
Securities. Puerto Rico Investors and Puerto Rico
Institutions, however, generally are not subject to
federal taxation. Accordingly, to address this concern,
the Plan contains provisions that permit Puerto Rico
Investors and Puerto Rico Institutions to elect to
receive taxable bonds as well as a supplemental 2%
cash recovery rather than a mix of taxable and taxexempt bonds. Recoveries for mainland investors are
enhanced by this election by maximizing the amount
of tax-exempt securities available for such investors.
(Brownstein Decl. ¶ 27.)
146. Recoveries for all bondholders are enhanced if
“on island” bondholders, who generally are not subject
to U.S. federal income taxation, elect to be treated in
Classes 4 or 7 and, as a result receive taxable bonds.
When “on island” bondholders elect taxable treatment,
the ability of mainland bondholders to receive a higher
proportion, and potentially even all, of their
distribution in tax-exempt COFINA bonds is
enhanced, thereby enhancing recoveries for mainland
bondholders. Providing the taxable election only to onisland bondholders ensures that both local and
mainland investors receive reasonably equivalent

122a
treatment in respect of their claims. (Brownstein Decl.
¶ 28.)
147. For all of these reasons, the Court finds that
the Oversight Board has met its burden of
demonstrating that the plan is in the best interests of
creditors within the meaning of section 314(b)(6) of
PROMESA. As in Chapter 9, PROMESA’s “best
interests” test differs substantially from the Chapter
11 “best interests” requirement. In Chapter 11, the
test requires a court to determine whether an
individual creditor would receive more if the Chapter
11 debtor were to liquidate its assets. Cf. In re City of
Detroit, Mich., 524 B.R. 147, 212-13 (Bankr. E.D.
Mich. 2014) (comparing the “best interests” tests in
Chapter 9 and Chapter 11 of the Bankruptcy Code). In
contrast, the “best interests” test under PROMESA
requires the Court to consider “whether available
remedies under the non-bankruptcy laws and
constitution of the territory would result in a greater
recovery for the creditors than is provided by [the]
plan.” 48 U.S.C.A. § 2174(b)(6) (West 2017).
148. The Oversight Board has demonstrated that,
absent approval of the Plan and the Settlement
Agreement, COFINA would be embroiled in ongoing
litigation that would likely last months or even years.
Beyond the costs associated with that litigation,
COFINA’s bondholders would also bear a substantial
risk of an unfavorable outcome that would invalidate
the Commonwealth’s transfer of SUT revenues to
COFINA.
Furthermore, COFINA’s subordinate
bondholders would bear a further risk that, if an event
of default occurred, their claims against COFINA
would not be addressed until after satisfaction of the

123a
claims of senior bondholders.
Under these
circumstances, the proposed plan of adjustment
satisfies PROMESA’s best interest of creditors test.
REORGANIZED COFINA’S REVENUES ARE SUFFICIENT
TO SERVICE ITS DEBT OBLIGATIONS
149. Citi reviewed the COFINA Fiscal Plan for
accuracy and conformity to the Agreement in
Principle. The COFINA Fiscal Plan contemplates that
debt service on the COFINA Bonds equals 53.65% of
the PSTBA. (Brownstein Decl. ¶ 30; Exhibit DX-SSS.)
150. Citi helped negotiate the terms of the Plan so
that the debt service on the COFINA Bonds is slightly
below 53.65% of the PSTBA, virtually identical to the
amount contemplated by the COFINA Fiscal Plan.
(Brownstein Decl. ¶ 30.) Critically, the COFINA
Revenues comprise the first collections of the 5.50%
SUT in each Fiscal Year. Thus, the debt service on the
COFINA Bonds is backed by the entire amount of the
5.50% SUT because a shortfall will only exist in the
event that the entire amount of the 5.50% SUT
generated in a Fiscal Year is less than 53.65% of the
Pledged Sales Tax Base Amount. Accordingly, the
debt service on the COFINA Bonds is consistent with
the debt sustainability analysis contained in the
COFINA Fiscal Plan.
151. Citi’s analysis of the COFINA Fiscal Plan
showed that sound assumptions—that stimulus from
disaster funds, structural and fiscal reforms to the
Puerto Rico economy, and improvements in tax
collection methods will maintain a robust amount of
personal consumption in the Commonwealth—justify

124a
the COFINA Fiscal
(Brownstein Decl. ¶ 31.)

Plan’s

SUT

projections.

152. Citi’s analysis further showed that, because
the SUT is a tax of general application covering a
broad range of goods and services with few exceptions,
more spending and buying in the Commonwealth
generates greater SUT revenues. Government and
private disaster funding will stimulate spending and
buying, and in turn, bolster SUT revenues.
Altogether, over $82 billion in disaster relief funding
is projected from 2018 to 2033. Among other things,
this funding will be distributed directly to individuals
and families affected by Hurricane Maria and will
support reconstruction on the island. Such funds are
reasonably projected to stimulate spending in the
Commonwealth and maintain robust SUT revenue
projections. Government reforms including labor,
energy and corporate reforms are projected, to
increase Puerto Rico’s economic output by 0.95% by FY
2023. It is reasonable to assume that this economic
growth will translate to growth in SUT revenues and
that better tax collection methods and increased
compliance efforts will yield a 5% increase in total SUT
collected by 2021. (Brownstein Decl. ¶ 32.)
153. In FY 2019, the 5.5% SUT, from which
COFINA collects “first dollars” pursuant to Section
16.3 of the Plan, is projected to be approximately $1.4
billion. The SUT taxable base from which Reorganized
COFINA collects its revenue in “first dollars” should
more than amply cover the debt service on COFINA
Bonds in FY 2019 of $420 million. COFINA has a
significant debt service coverage ratio of 3.33x (i.e.,
$1.4 billion / $420 million) in FY 2019. While the debt

125a
service coverage ratio is projected to decrease as the
PSTBA increases by 4% each year, the 40-year average
coverage ratio is still a robust 2.46x. Further, the
projected PSTBA reaches a plateau in FY 2041 and
never increases after that point, so any subsequent
increase in the 5.5% SUT after FY 2041 will
necessarily improve the debt service coverage ratio. In
fact, the 5.5% SUT could remain exactly the same until
the last stated maturity date of any of the COFINA
Bonds in FY 2058, and Reorganized COFINA would
have no issue servicing the debt obligations on the
COFINA Bonds. (Brownstein Decl. ¶ 33.)
154. The feasibility
established.16

of

the

G. PROMESA § 314(b)(7):
Compliance

Plan

is

Fiscal

plainly
Plan

155. On August 22, 2018, the Oversight Board
requested a standalone fiscal plan for COFINA for
Fiscal Years 2019 to 2023. On August 27, 2018,
COFINA submitted its fiscal plan to the Oversight
Board. On August 30, 2018, the Oversight Board
delivered to COFINA a notice of violation pursuant to
The Court precluded the tender of an economist’s declaration
concerning future Commonwealth finances because its
proponent, PROSOL-UTIER, lacks standing as a non-creditor of
COFINA. (Docket Entry No. 4848 in Case No. 17-3283, January
16, 2019 Hearing Transcript, 130:8-132:11.) PROSOL-UTIER
also argued that the Plan’s proponents had a burden to tender
expert economic evidence. The Court finds the declaration of
Brownstein, an experienced municipal finance professional who
participated in the formulation of the COFINA Fiscal Plan,
sufficient to carry the Plan proponents’ burden as to feasibility.
16

126a
section PROMESA 201(c)(3)(B) requiring certain
changes and/or explanations in a revised COFINA
fiscal plan. On September 7, 2018, COFINA submitted
a revised fiscal plan to the Oversight Board. On
October 18, 2018, the Oversight Board voted to certify
the COFINA Fiscal Plan, as amended.
156. The Plan is consistent in all respects with the
COFINA Fiscal Plan, as amended.
157. The Plan complies with PROMESA section
314(b)(7).
THE RELEASES, EXCULPATION, AND INJUNCTIONS
PURSUANT TO THE PLAN
158. The
Commonwealth-COFINA
Dispute
presented the potential for extended, complex,
expensive, and value-destructive litigation among
competing interests and entities. A fundamental
objective of the Debtor and the Oversight Board
throughout COFINA’s Title III Case has been to
structure a transaction to fairly divide the SUT while
avoiding the winner-take-all nature of litigation
related to the validity of the COFINA structure and
related claims. The prompt, efficient conclusion of
COFINA’s Title III Case is premised on the proposed
comprehensive resolution and settlement of this
dispute. (Jaresko Decl. ¶ 73.)
159. None of these issues has been fully litigated in
these cases. However, cross-motions for summary
judgment had been filed on the underlying
constitutional questions, and significant resources had
already been expended on the litigation. In an effort

127a
to avoid disputes that could jeopardize a consensual
resolution creating the highest value for all
stakeholders, the Agents and then the PSA Creditors
engaged in good faith negotiations over a period of
many months, as discussed above. The robust, arm’slength negotiations were successful and yielded
substantial consensus and support for a consensual
plan, as evidenced by the Agreement in Principle,
culminating in the Settlement Agreement and the
Plan that has garnered substantial creditor support
from all impaired voting classes. (Jaresko Decl. ¶ 74.)
160. In order to incentivize the PSA Creditors to
grant the concessions outlined above, and in
consideration of the substantial benefits provided by
the Released Parties, the Debtor agreed to prosecute
and pursue the releases, exculpation, and injunction
provisions set forth in the Plan. Each aspect of the
Settlement is interdependent and relied upon by the
Agents and, especially, the PSA Creditors, who made
material concessions as to their respective positions to
enable the expeditious confirmation of the Plan. Such
settlements take into account the legal and factual
risks to the allowance of the claims. Modifications to
any aspect of the Settlement or the failure to approve
the Settlement undoubtedly may result in events of
termination under the A&R Plan Support Agreement,
jeopardize settlement of the Commonwealth-COFINA
Dispute, and set back the administration of COFINA’s
Title III Case for an extended period as holders of GO
Debt and COFINA’s Existing Securities get bogged
down in the maze of litigation for prosecution of their
claims. (Jaresko Decl. ¶ 75.)

128a
A. Debtor Releases
161. Pursuant to Section 30.5 of the Plan, each of
COFINA and Reorganized COFINA, the Disbursing
Agent and each of COFINA’s and Reorganized
COFINA’s Related Persons proposed to release the
Released Parties from Claims or Causes of Action they
may have against such Released Parties. The Debtor’s
Release constitutes a sound exercise of the Debtor’s
judgment and meets the applicable legal standard: the
Debtor’s Release is fair, reasonable, and in the best
interests of the Debtor.
During the course of
negotiations regarding the Plan and predecessor
agreements, it was clear that the Debtor’s Release
would be a necessary condition to consummation of the
Settlement embodied in the Plan. In exchange for
such releases, the Debtor secured the substantial
concessions provided by the Settlement and the Plan.
Similarly, the Released Parties provided integral
support throughout COFINA’s Title III Case, and
incurred significant costs in doing so. (Jaresko Decl.
¶ 76.)
162. Furthermore, with the exclusion of the
Commonwealth-COFINA Dispute, which is being
compromised pursuant to the Settlement and
incorporated into the Plan, and acts relating to the
Ambac Action and Whitebox Actions, which are being
preserved pursuant to the Plan, see Section 30.2(c),
the Debtor is not aware of any claims that could be
asserted against the Released Parties and no creditor
has informed the Debtor that it believes such an action
should be brought, which the Debtor believes would be
meritorious. In addition, without the assurance of
protection from liability, the Released Parties involved

129a
in the Plan process may not have participated in the
negotiations that led to the development of the
Settlement and Plan. Had the Debtor’s Release not
been provided, the Debtor’s chances of resolving the
Commonwealth-COFINA Dispute, and proposing the
Plan that was ultimately accepted by every voting
Class, would have been diminished. (Jaresko Decl.
¶ 77.)
B. Consensual Releases
163. Section 30.2 of the Plan provides for the
Consensual Releases of the Released Parties by the
holders of Claims. The consensual releases seek only
to release parties that made a significant contribution
to the Plan:
a. COFINA and Reorganized COFINA, from
all Claims or Causes of Action, and from
all Entities, see Plan § 30.2(a)–(b);
b. the Government Releasees, from all
Government Released Claims or any of the
claims or causes of action asserted or
which could have been asserted in the
Actions, who are being released by each of
the PSA Creditors and their respective
Related Persons, see Plan § 30.2(c);
c.

BNYM and (a) each of its Related Persons,
from any and all Claims and causes of
action arising from or related to the
Existing Securities, the Bond Claims and
the Bond Resolution by each of the PSA
Creditors, see Plan § 30.2(c), excluding any

130a
and all Claims and Causes of Action for
gross negligence, willful misconduct and
intentional fraud asserted or which can be
asserted by Ambac or Whitebox in the
Ambac Action and Whitebox Actions,
respectively, and (b) each holder and
beneficial holder of Existing Securities and
their transferees, successors or assigns,
from liability for all Claims and Causes of
Action arising from or related to the
payment by BNYM to beneficial holders of
Existing Securities of regularly scheduled
payments of principal and interest,
excluding acts of gross negligence,
intentional fraud, or willful misconduct, of
BNYM, including, without limitation, any
acts which have been asserted, or which
could have been asserted in the Ambac
Action and the Whitebox Actions, see Plan
§ 30.2(d);
d. the Commonwealth Agent Releasees, from
liability for all Claims and Causes of
Action (as if such Causes of Action were
against
the
Commonwealth
Agent
Releasees) with respect to the Adversary
Proceeding, the Agreement in Principle,
the Settlement Agreement, the Settlement
Motion and the Settlement Order, see Plan
§ 30.2(e); and
e.

the Commonwealth, from all Claims and
Causes of Action held by any Creditor,
solely in such capacity. See Plan § 30.2(f).

131a
(Exhibit DX-G.)
164. The consensual releases are necessary and
essential to the Plan. As mentioned above, the
releases have been negotiated with COFINA’s key
creditor constituencies as part of the formulation of the
Plan. Thus, it is clear that a substantial number of
creditors have expressly consented to the releases.
The two third-party releases included in the Plan—in
favor of the Commonwealth and BNYM—can likewise
be approved. The Commonwealth has committed
substantial assets to the reorganization, by funding
the expenses of the Commonwealth Agent (and
AAFAF) in negotiating the Plan, and in agreeing to the
Settlement. See In re Master Mortgage Investment
Fund, Inc., 168 B.R. 930, 934-35 (Bankr. W.D. Mo.
1994) (enumerating various factors to be considered in
approving third-party releases, including whether the
non-debtor has contributed substantial assets to the
reorganization).
Without the release, the
Commonwealth would not have agreed to the
Settlement, which laid the groundwork for the
formulation of this Plan. (Jaresko Decl. ¶ 79.)
165. Further, it is imperative to the Plan that
BNYM be released. Without a release, BNYM would
attempt to withhold distributions to bondholders
necessary to effectuate the Plan. Additionally, the
release is narrowly tailored so that it exempts acts of
gross negligence, intentional fraud, or willful
misconduct, solely in the context of the Ambac Action
and Whitebox Actions. (Jaresko Decl. ¶ 80.) For these
reasons, the Court finds that the third-party releases
are reasonable, necessary and appropriate to

132a
implementation of the Plan and, therefore, the thirdparty releases are hereby approved.
C. Exculpation
166. Section 30.7 of the Plan contains a release and
exculpation for certain parties for claims arising out of
or relating to, among other things, any act taken or
omitted to be taken consistent with the Plan in
connection with the formulation, preparation,
dissemination,
implementation,
acceptance,
confirmation, or approval of the Plan (the “Exculpation
Provision”). (Exhibit DX-G.)
167. Such parties greatly contributed to the
Debtor’s reorganization efforts and enabled the
successful prosecution of the Plan in exchange, in part,
for the Exculpation Provision. Failing to approve this
provision would expose the parties to litigation after
months of good faith negotiations. (Jaresko Decl.
¶ 82.)
D. Injunction
168. The injunction set forth in Sections 30.3, 30.6,
and 30.11 of the Plan provides for an injunction (the
“Injunction”) against all Entities from commencing or
continuing in any manner any suit, action, or other
proceeding on account of or respecting any Claim,
demand, liability, obligation, debt, right, Cause of
Action, interest or remedy released or to be released
pursuant to the Plan or the Confirmation Order, both
prior to and after the Effective Date. The Injunction is
necessary to preserve and enforce the releases and

133a
exculpations, and is narrowly tailored to achieve that
purpose. (Jaresko Decl. ¶ 83; Exhibit DX-G.)
169. The releases, exculpation provisions and
injunctions pursuant to the Plan are integral and
critical parts of the Plan and the compromises and
settlements implemented pursuant to the Plan. The
approval of such releases is a condition to the
occurrence of the Effective Date, and all Released
Parties have relied on the efficacy and conclusive
effects of such releases and injunctions and on the
Title III Court’s retention of jurisdiction to enforce
such releases and injunctions when making
concessions pursuant to the Plan and by agreeing to,
accepting, and supporting the settlement and
treatment of their respective Claims, Causes of Action,
and other rights under the Plan. Accordingly, such
provisions are justified and warranted based upon the
circumstances of the Title III Case and the
consideration being provided by all parties in
connection with the Plan.
VALIDITY OF COFINA BONDS
170. On November 15, 2018, in furtherance of the
Settlement, the Commonwealth validly enacted the
New Bond Legislation, amending Act 91, which
originally created COFINA.
The New Bond
Legislation is valid, and, subject to the occurrence of
the Effective Date of the Plan, is binding and
enforceable. The effectiveness of such legislation is
subject only to the occurrence of the Effective Date.
171. Confirmation of the Plan demonstrates that
Puerto Rico is taking the steps necessary to enable its

134a
return to the capital markets. The restructuring of the
COFINA debt under Title III of PROMESA is expected
to act as a catalyst for other restructurings, setting the
stage for Puerto Rico’s emergence from bankruptcy
and reducing costly litigation.
172. The Plan demonstrates Puerto Rico’s
continued good faith commitment to correct Puerto
Rico’s financial crisis, honor Puerto Rico’s financial
obligations, regain access to the capital markets and
achieve economic certainty and debt sustainability for
Puerto Rico. For their part, in exchange for the
material concessions and releases provided through
the Plan, COFINA’s bondholders will benefit from the
elimination of the previous uncertainty as to whether
the property transferred to COFINA to secure their
repayment
nevertheless
remained
“available
resources” or “available revenues” of the central
government of Puerto Rico under the Puerto Rico
Constitution. The issues that previously cast a cloud
on the structure are being resolved through the Plan,
rather than through “all or nothing” litigation.
173. The Plan will quiet title to the Pledged Sales
Tax Base Amount and resolve all disputes of all parties
relating thereto. Moreover, the Court shall retain
jurisdiction over all matters related to the COFINA
Bonds to ensure compliance with the Plan.
174. Confirmation of the Plan constitutes a judicial
determination and, pursuant to section 4 of
PROMESA and sections 944, 1123, and 1125 of the
Bankruptcy Code as incorporated by section 301 of
PROMESA, the terms of these Findings of Fact and
Conclusions of Law shall prevail over any general or

135a
specific provisions of territory law, State law, or
regulation that is inconsistent therewith and be full,
final, complete, conclusive, and binding and shall not
be subject to collateral attack or other challenge in any
court or other forum, except as permitted under
applicable law.
175. COFINA is a separate covered territorial
instrumentality that is legally distinct from the
Commonwealth, with its own Title III case, its own
certified fiscal plan, and its own plan of adjustment.
See 13 L.P.R.A. § 11a(a) (“A public corporation and
instrumentality of the Commonwealth of Puerto Rico,
is hereby created, which constitutes a corporate and
political entity independent and separate from the
Commonwealth of Puerto Rico to be known as the
Corporacion del Fondo de Interes Apremiante de
Puerto Rico (‘COFINA’), Spanish acronym), whose
name in English shall be Puerto Rico Sales Tax
Financing Corporation.”); New Bond Legislation art.
2.1 (providing that Reorganized COFINA “shall be
recognized for all purposes as an independent and
separate legal entity from the Government of Puerto
Rico and any other Government Entity.”). The Court
has previously held, in connection with the
Commonwealth-COFINA Dispute, that the nature of
each debtor’s interest in the Pledged Sales Taxes, for
purposes of PROMESA, is a mixed question of federal
and Commonwealth law.17
The Plan, however,
Adversary Proceeding, Docket Entry No. 483, Decision and
Order, dated May 24, 2018, at 5-6, Exhibit DX-TT (“the Court
must decide what the relevant property rights are within the
context of these Title III proceedings, under PROMESA and
federal bankruptcy law provisions that Congress has
incorporated into PROMESA. . . . [T]he Commonwealth-COFINA
17

136a
provides for an agreed upon allocation of the Pledged
Sales Taxes premised upon this Court’s approval of the
Settlement and confirmation of the Plan, and, upon
such approval, the COFINA Revenues shall be the sole
and exclusive property of COFINA, and shall not be
property of the Commonwealth or available to the
Commonwealth. The Settlement and the allocation of
the Pledged Sales Taxes are necessary for the
implementation of the Plan, and, pursuant to
Bankruptcy Code section 1123(a)(5), made applicable
to COFINA’s Title III Case pursuant to PROMESA
section 301(a), are self-executing and preemptive
notwithstanding otherwise applicable nonbankruptcy
law, including otherwise applicable Commonwealth
law.
See 11 U.S.C.A. § 1123(a)(5) (West 2016)
(“Notwithstanding
any
otherwise
applicable
nonbankruptcy law, a plan shall . . . provide adequate
means for the plan’s implementation, such as
(A) retention by the debtor of all or any part of the
property of the estate . . . .”); 48 U.S.C.A. § 2161(c)(5)
(West 2017) (“The term ‘property of the estate’, when
used in a section of Title 11 made applicable in a case
under this subsection by subsection (a), means
property of the debtor.”); see also Irving Tanning Co.
v. Me. Superintendent of Ins. (In re Irving Tanning
Co.), 496 B.R. 644, 664 (B.A.P. 1st Cir. 2013) (“[O]nly
those means may preempt state law that are sufficient
for the implementation of the plan: they must be
Dispute presents a mixed question of federal and Puerto Rico law
. . . .”); see also Abboud v. Ground Round, Inc. (In re Ground
Round, Inc.), 482 F.3d 15, 17 (1st Cir. 2007) (“The label . . . that
state law affixes to a particular interest in certain contexts is not
always dispositive.” (citing In re Nejberger, 934 F.2d 1300, 1302
(3d Cir. 1991)).

137a
sufficient to implement the plan, equal to what is
required, but also not more than is required.”).
Furthermore, pursuant to the Settlement Order and
the Plan, and subject to the terms of the plan, claims
of COFINA’s creditors are released as against the
Commonwealth and the Commonwealth itself shall
not be liable for the repayment of the COFINA Bonds,
nor will the COFINA Bonds have any recourse to any
property of the Commonwealth. See New Bond
Legislation art. 3.1(c).
176. Pursuant to PROMESA, including section 4
thereof, as well as sections 94418 and 1123 of the
Section 944(b)(3) requires the Court, as a condition to
providing a discharge, to determine the validity of obligations
imposed under a plan of the debtor and of any provision made to
pay or secure payment of such obligations. 11 U.S.C. § 944(b)(3).
See generally In re City of Stockton, Cal., 526 B.R. 35, 49-50
(Bankr. E.D. Cal. 2015) (“The structure of the federal-state
relationship . . . regarding restructuring of municipal debt is
dictated by the U.S. Constitution . . . [T]he Supremacy Clause
operates to cause federal bankruptcy law to trump state laws,
including state constitutional provisions, that are inconsistent
with the exercise by Congress of its exclusive power to enact
uniform bankruptcy laws” (citing Ass’n of Retired Emps. of the
City of Stockton v. City of Stockton, Cal. (In re City of Stockton,
Cal.), 478 B.R. 8, 14-16 (Bankr. E.D. Cal. 2012); U.S. Const. art.
VI, cl. 2; Int’l Bhd. of Elec. Workers, Local 2376 v. City of Vallejo,
Cal. (In re City of Vallejo, Cal.), 432 B.R. 262, 268-70 (E.D. Cal.
2010) (additional citations omitted)). As set forth in the leading
bankruptcy treatise, “[t]he requirement of a court determination
of validity is extra assurance for those who might be skittish
about the nature of the bonds being issued . . . . It has the added
feature of removing any doubt concerning the matter, because the
determination of the court on that issue should be binding in the
future.” 6 Alan N. Resnick & Henry J. Sommer, Collier On
Bankruptcy § 944.03[1][b] (16th ed. 2013). See, e.g., Order
Confirming Third Amended Plan for the Adjustment of Debts of
18

138a
Bankruptcy Code, and in accordance with the
Confirmation Order, the Settlement, the Plan, and Act
241, the Court determines that the COFINA Bonds are
legal, valid, binding and enforceable obligations of
Reorganized COFINA benefitting from the following
protections, each of which is legal, valid, binding, and
enforceable against Reorganized COFINA, the
Commonwealth, and other persons and entities, as
applicable, under Puerto Rico and federal law:
a. The Confirmation Order is full, final,
complete, conclusive, and binding and
shall not be subject to collateral attack or
other challenge in any court or other
forum, except as permitted under
applicable law.

the City of San Bernadino, California, as Modified by the Court,
dated February 7, 2017, ¶ 22 (“In accordance with Section 944(a)
and notwithstanding any otherwise applicable law, upon the
occurrence of the Effective Date, the terms of the Plan and this
Confirmation Order shall be binding upon . . . .”); Order
Confirming Eighth Amended Plan for the Adjustment of Debts of
the City of Detroit, dated November 12, 2014, ¶ 86 (“[I]n
accordance with section 944(a) of the Bankruptcy Code and
notwithstanding any otherwise applicable law, upon the
occurrence of the Effective Date, the terms of the Plan and this
Order shall be binding upon, and inure to the benefit of . . . .”);
Findings of Fact, Conclusions of Law, Order Confirming the
Chapter 9 Plan of Adjustment for Jefferson County, Alabama,
dated November 6, 2013, ¶ 37, (“Pursuant to Bankruptcy Code
sections 1123(a), 1123(b), and 944(a), as well as general principles
of federal supremacy, the provisions of this Confirmation Order,
the Plan, and related documents or any amendments or
modifications thereto shall apply and be enforceable
notwithstanding any otherwise applicable nonbankruptcy law.”).

139a
b. Subject to the occurrence of and upon the
Effective Date, Reorganized COFINA shall
be an independent public corporation and
instrumentality of the Commonwealth,
separate from the Commonwealth and any
other
instrumentality
of
the
Commonwealth.
c.

Subject to the occurrence of and upon the
Effective Date, ownership of the COFINA
Revenues shall have been legally and
validly
transferred
to
Reorganized
COFINA, and such transfer of ownership
shall have been an absolute transfer of all
legal and equitable right, title, and
interest in the COFINA Revenues, free
and
clear
of
all
liens,
claims,
encumbrances, and other interests of any
party (except for the statutory lien that
arises automatically, pursuant to the
terms of the New Bond Legislation, to
secure the COFINA Bonds);

d. Subject to the occurrence of and upon the
Effective Date, the COFINA Revenues
shall not constitute, and shall not be
deemed to be, “available resources” or
“available
revenues”
of
the
Commonwealth, as that term is used in the
Puerto
Rico Constitution (whether
construed pursuant to the Spanish or
English version of the Puerto Rico
Constitution).

140a
e.

Subject to a “Quarterly Installment”
funding construct, to the extent certain
conditions are satisfied, each fiscal year
until the COFINA Bonds are paid in full or
otherwise satisfied in accordance with
their terms, the first funds comprising the
COFINA Pledged Taxes shall be
transferred to and deposited with
Reorganized COFINA until such time that
Reorganized COFINA has received an
amount equal to the COFINA Revenues
for such fiscal year.

f.

Reorganized COFINA’s sole and exclusive
ownership of the COFINA Revenues shall
not be affected in any way by the manner
of or control over collection, any person
who collects or holds the COFINA
Revenues shall do so on behalf of
Reorganized COFINA, and no person or
entity that collects or holds the COFINA
Revenues shall have any legal or equitable
right, title, or interest to the COFINA
Revenues
other
than
Reorganized
COFINA, for the benefit of holders of the
COFINA Bonds.

g. The statutory first lien against the
COFINA Pledged Taxes (including any
New Collateral substituted for the
COFINA Pledged Taxes in accordance
with the terms of the Plan and the New
Bond Legislation) arising by operation of
the New Bond Legislation in favor of
holders of COFINA Bonds is legal, valid,

141a
binding and enforceable and shall remain
in full force and effect and shall be “closed”
until, in each case, the COFINA Bonds
have been paid or satisfied in full in
accordance with their terms.
h. Pursuant to the New Bond Legislation, the
COFINA Bonds and COFINA Parity
Bonds have been granted and are secured
by a statutory first lien as described in
Section 16.2 of the Plan, which Lien shall
remain in full force and effect until the
COFINA Bonds and COFINA Parity
Bonds have been paid or satisfied in full in
accordance with their terms.
i.

The statutory lien on the COFINA Pledged
Taxes as provided in the New Bond
Legislation and all other provisions made
to pay or secure payment of the COFINA
Bonds and COFINA Parity Bonds are
legal, valid, binding, and enforceable,
including, without limitation, covenants
not to impair such property, and provide
for the conditions regarding substitution of
New Collateral as adequate protection for
the property rights conferred under the
Plan and the Confirmation Order.

j.

At the time of issuance and delivery of the
COFINA Bonds, Reorganized COFINA is
hereby authorized and directed to have
stamped or written on each of the COFINA
Bonds a legend substantially as follows:

142a
DETERMINED
BY
THE
UNITED STATES DISTRICT
COURT FOR THE DISTRICT
OF PUERTO RICO TO BE
VALID, LEGALLY BINDING,
AND
ENFORCEABLE
PURSUANT
TO
THE
JUDGMENT
AND
CONFIRMATION
ORDER,
ENTERED ON THE 5TH DAY
OF FEBRUARY, 2019
k. Pursuant to the Settlement Order and the
Confirmation Order, the transfer of the
COFINA Portion (and any substitution of
New Collateral on the terms and
conditions provided for in the Plan)
pursuant to the Plan is appropriate and
binding and specifically enforceable
against Reorganized COFINA and the
Commonwealth, their respective creditors
and all parties in interest in accordance
with the Plan, including, without
limitation, because the transfer of the
COFINA Portion created in Reorganized
COFINA an ownership interest in such
property (and any substitution of New
Collateral on the terms and conditions
provided for in the Plan) and is a valid
provision made to pay or secure payment
of the COFINA Bonds.
l.

The Commonwealth’s agreement, on
behalf of itself and its governmental
entities, not to take any action that would,

143a
among other things, (a) impair COFINA’s
right to receive the COFINA Revenues, (b)
limit or alter the rights vested in COFINA
in accordance with the Plan to fulfill the
terms of the COFINA Bonds, (c) materially
adversely impair the collection of the
COFINA Pledged Taxes in any fiscal year,
or (d) impair the rights and remedies of the
holders of the COFINA Bonds or the
statutory lien established pursuant to
Article 3.2 of the New Bond Legislation,
each as provided in the New Bond
Legislation and the New Bond Indenture,
serve as adequate protection for the
property interests of Reorganized COFINA
and the holders of the COFINA Bonds in
the COFINA Pledged Taxes under all
applicable law and constitute valid,
binding, legal and enforceable obligations
of COFINA, Reorganized COFINA, and
the Commonwealth, as applicable, and are
an integral part of the settlements set
forth in the Plan.
m. The covenants described in Sections 16.6
and 16.7 of the Plan (including, but not
limited to, the rating agency covenant, the
tax exemption covenant, the substitution
covenant, the non-impairment covenant
and the sales tax covenant), to be provided
by Reorganized COFINA and the
Commonwealth, as the case may be, to the
holders of COFINA Bonds, shall constitute
adequate protection for the property
interests of Reorganized COFINA and the

144a
holders of COFINA Bonds in the COFINA
Pledged Taxes under all applicable law.
177. The Plan, the Settlement, and the settlement
and compromise of claims embodied in the Plan are the
result of extensive arms’ length negotiations among
the Debtor, the Commonwealth Agent, the COFINA
Agent, the Settlement Parties, and other significant
Creditor constituencies, and, among other things,
resolve
the
Commonwealth-COFINA
Dispute.
(Jaresko Decl. ¶¶ 15-29.)
178. Any attempt to confirm a Title III plan of
adjustment without the compromises and settlements
embodied in the Plan would have invited significant
confirmation objections by various significant Creditor
constituencies.
(Jaresko Decl. ¶ 45.)
Without
addressing the Commonwealth-COFINA Dispute,
among other issues settled and compromised pursuant
to the Plan, it is beyond doubt that such issues were
likely to lead to further contested confirmation
hearings, significant delays in confirmation of a plan,
and erosion of Creditor distributions. Id.
179. The detrimental effects of further delay in
confirmation and consummation of a plan of
adjustment in the Title III Case cannot be
underestimated. As delay in consummation of a plan
would be accompanied by a continued depletion of
COFINA’s resources and increase in total Claims,
further delay would have significantly eroded
recoveries for COFINA’s junior-most Creditors and
stakeholders. (Jaresko Decl. ¶¶ 45, 57, 69.) Thus, it is
a reasonable exercise of business judgment for the
Debtor to conclude that the Plan is more likely to

145a
result in an expeditious exit from the Title III Case
and prevent further deterioration of Creditors’
recoveries than any alternative plan. The Court finds
that the compromises and settlements embodied in the
Plan are fair, reasonable, in the best interests of
COFINA’s stakeholders and above the lowest level of
the range of reasonableness.19
H. Bankruptcy Rule 3019: The Plan Does Not
Adversely Change the Treatment of Claims of
Creditors.
180. After the Voting Deadline passed, the
Oversight Board filed the “Third Amended Plan,”
containing minor revisions to address certain concerns
raised by certain parties. (Exhibit DX-G.) None of the
modifications adversely changes the treatment of the
Claims of any creditor. In Article X, the Plan was
amended to provide that COFINA will enter a
remarketing agreement with Assured with respect to
the COFINA Bonds allocable to the holders of Allowed
Junior COFINA Bond Claims (Assured), and which
will be received by Assured as subrogee of such
holders.
(Exhibit DX-G.) Assured was already
responsible for the 100% cash payment of the
Acceleration Price to holders of Allowed Junior
COFINA Bond Claims (Assured) on the Effective Date,
so the holders of Claims in Class 6 are not impacted in
any way by this change. (Jaresko Decl. ¶ 70.)

See also Memorandum Opinion and Order Approving
Settlement Between Commonwealth of Puerto Rico and Puerto
Rico Sales Tax Financing Corporation. (See Docket Entry No.
5045 in Case No. 17-3283.)
19

146a
181. The Plan was updated to ensure the releases
provided thereunder are consistent with the
agreement reached in the A&R Plan Support
Agreement, see Plan § 30.2, as well as other technical
changes to ensure that neither the Ambac Action nor
Whitebox Actions interfere with distributions to
bondholders. Specifically, the Plan has been modified
to ensure that BNYM, Whitebox, and Ambac can
continue their litigation among themselves, see Plan
§ 2.1, but also to ensure that COFINA or Reorganized
COFINA, as the case may be, is not responsible for any
of BNYM’s fees or expenses in connection with that
litigation after the Effective Date. (See Plan § 19.13.)
182. The modifications do not materially or
adversely modify the treatment to be afforded to
creditors pursuant to the Plan and do not require the
resolicitation of acceptances or rejections thereto.
183. Accordingly, the Plan can be confirmed
without the filing of a new disclosure statement and
resolicitation with respect to the “Third Amended
Plan”.
184. Elections made by holders of Claims pursuant
to the Plan were solicited, tabulated, and implemented
fairly, in good faith, and in a manner consistent with
the Plan, the Disclosure Statement Order, the
Bankruptcy Code, the Bankruptcy Rules, and the
Local Bankruptcy Rules. (Pullo Decl. ¶ 9.)
185. Any beneficial holder of Senior COFINA Bond
Claims (Ambac) that chose to commute the Ambac
Insurance Policy pursuant to Article 6 of the Plan shall
have no other or further rights under or with respect

147a
to the Ambac Insurance Policy, the Ambac Trust or
Ambac Certificates. The Plan is a settlement with
respect to the Ambac Insurance Policy for those
beneficial holders that elect to commute.
The
treatment of Senior COFINA Bond Claims (Ambac)
under the Plan is not inconsistent with the Ambac
Insurance Policy.
186. Any beneficial holder of Senior COFINA Bond
Claims (National) that chose to commute the National
Insurance Policies pursuant to Article 7 of the Plan
shall have no other or further rights under or with
respect to the National Insurance Policies, the
National Trust or National Certificates. The Plan is a
settlement with respect to the National Insurance
Policies for those beneficial holders that elect to
commute. The treatment of Senior COFINA Bond
Claims (National) under the Plan is not inconsistent
with the National Insurance Policies.
187. Neither the Ambac Insurance Policy nor the
National Insurance Policies shall insure the COFINA
Bonds.
188. Plan Supplement. All materials contained in
the Second Amended Plan Supplement comply with
the terms of the Plan, and the filing, notice, and service
of such documents were done in accordance with the
Bankruptcy Code, the Bankruptcy Rules, the Local
Bankruptcy Rules, and no other or further notice is or
shall be required. Service Affidavits; Amended Plan
Supplement; Second Amended Plan Supplement.
189. Satisfaction of Confirmation Requirements.
Based upon the foregoing, the Plan satisfies the

148a
requirements for confirmation set forth in PROMESA
section 314.
190. Implementation. All documents necessary to
implement the Plan, including those contained in the
Amended Plan Supplement, the Second Amended Plan
Supplement, and the Settlement Agreement, and all
other relevant and necessary documents have been
negotiated in good faith and at arm’s length and shall,
upon completion of documentation and execution, be
valid, binding, and enforceable agreements and not be
in conflict with any federal or state law. Without
limiting the generality of the foregoing, the Debtor,
prior to the Effective Date, and Reorganized COFINA,
from and after the Effective Date, are authorized to
consummate the transactions contemplated in the
Plan and Amended Plan Supplement(s).
The
execution, delivery, or performance by the Debtor or
Reorganized COFINA, as the case may be, of any
documents in connection with the Amended Plan
Supplement(s), and compliance by the Debtor or
Reorganized COFINA, as the case may be, with the
terms thereof, is hereby authorized by, and will not
conflict with, the terms of the Plan or the Confirmation
Order.
191. Good Faith. The Debtor will be acting in good
faith if it proceeds to (i) consummate the Plan and the
agreements, settlements, transactions, and transfers
contemplated thereby, including, without limitation,
the Settlement Agreement, and (ii) take the actions
authorized and directed by the Confirmation Order.
The COFINA Agent Releasees and the Commonwealth
Agent Releasees have acted in good faith in connection
with their evaluation of, and their conduct with

149a
respect to, the Adversary Proceeding, the Agreement
in Principle, the Settlement Agreement, the
Settlement Motion, and the Title III Case.
192. Retention of Jurisdiction. This Court may
properly and, upon the Effective Date shall, to the
extent consistent with Article XXIX of the Plan, retain
exclusive jurisdiction over all matters arising out of,
and related to, the COFINA Title III Case, including,
without limitation, all Causes of Action not otherwise
released pursuant to the Plan and the matters set
forth in Section 29.1 of the Plan and section 1142(b) of
the Bankruptcy Code. (Plan § 29.1.)
193. Without limiting the generality of the
foregoing, the Court shall retain jurisdiction to (i)
enter appropriate orders with respect to the payment,
enforcement, and the remedies of the COFINA Bonds
under the New Bond Indenture, (ii) enter and
implement such orders as may be necessary or
appropriate to execute, implement, or consummate the
provisions of the Plan, (iii) adjudicate any and all
controversies, suits, or issues that may arise regarding
the validity of any actions taken by any entity
pursuant to or in furtherance of the Plan or this
Confirmation Order, including, without limitation,
issuance of the COFINA Bonds, and (iv) to enforce
prohibitions against any subsequent collateral attack
on the validations contained in the Plan and this
Confirmation Order.
194. Funds Flow. In order to implement the Plan,
the collection of the COFINA Portion shall occur in
accordance with the Instruction Agreement and the
Banking Services Agreement, which may not be

150a
changed except as provided in the Indenture. The flow
of funds set forth in the Instruction Agreement and the
Banking Services Agreement will be generally as
follows:
A. A financial institution, which currently is Banco
Popular de Puerto Rico (the “Depositary”) shall
receive all tax revenues generated by the
COFINA Pledged Taxes and, pursuant to the
Sales Tax Financing Corporation Act of 2018
and the Plan, shall not have any legal or
equitable right, title or interest to the COFINA
Portion solely by virtue of the fact that it holds
the COFINA Pledged Taxes;
B. All revenues received on account of the COFINA
Pledged Taxes shall be directly deposited to an
account at the Depositary jointly held in the
name of the Treasury Department and
Reorganized COFINA (the “SUT Collection
Account”); provided, however, that the
commingling of COFINA Pledged Taxes in the
SUT Collection Account shall be solely for
administrative convenience, shall not create any
equitable interest in favor of the Commonwealth
with respect to the COFINA Portion, shall not
render the COFINA Portion property of the
Commonwealth, and shall not have any impact
on Reorganized COFINA’s sole and exclusive
ownership of the COFINA Portion; provided,
further, that such commingling shall not create
any equitable interest in favor of Reorganized
COFINA with respect to revenues owned by the
Commonwealth, such Commonwealth revenues
shall not constitute property of Reorganized

151a
COFINA and shall not have any impact on the
Commonwealth’s sole and exclusive ownership
of revenues other than the COFINA Portion;
C. Promptly after deposit into the SUT Collection
Account, on a daily basis with no more than a 2
business day delay, the Depositary, based on
information provided by the Treasury
Department’s tax collection system, shall
transfer the COFINA Portion to the Dedicated
Sales Tax Fund Account at the Depositary which
shall at all times be owned exclusively by
Reorganized COFINA; provided, that transfer to
the Dedicated Sales Tax Fund Account shall not
be required to the extent the COFINA Portion is
being transferred from the SUT Collection
Account to the Revenue Account at The Bank of
New York Mellon (“BNYM”);
D. All monies deposited in the Dedicated Sales Tax
Fund shall be transferred on a daily basis to the
Revenue Account at BNYM until 53.65% of the
Pledged Sales Tax Base Amount (the “Adjusted
PSTBA”) has been deposited for that Fiscal Year
as calculated by the Trustee;
E. All trustee accounts at BNYM shall be solely in
the name of Reorganized COFINA; and
F. After the Adjusted PSTBA has been deposited in
the Revenue Account at BNYM, all subsequent
collections of the COFINA Pledged Taxes shall
be transferred to the Commonwealth’s Treasury
Department.

152a
195. Except to the extent that other federal law is
applicable, or to the extent that an exhibit to the Plan
or any document to be entered into in connection with
the Plan provides otherwise, the rights, duties, and
obligations arising under the Plan shall be governed
by, and construed and enforced in accordance with,
PROMESA (including the provisions of the
Bankruptcy Code made applicable under section 301
of PROMESA) and to the extent not inconsistent
therewith, the laws of the Commonwealth of Puerto
Rico giving effect to principles of conflicts of laws.
196. Pursuant to Bankruptcy Code sections
1123(a), 1123(b), and 944(a) as well as general
principles of federal supremacy, the provisions of this
Memorandum, the Confirmation Order, and the Plan
shall apply and be enforceable notwithstanding any
otherwise applicable non-bankruptcy law.
The
documents contained in the Second Amended Plan
Supplement (as such documents may be further
modified and filed with the Court prior to the Effective
Date), including, without limitation, Reorganized
COFINA By-Laws, the COFINA Bonds, the New Bond
Indenture, the Instructions Agreement, the Ambac
Trust Agreement, the National Trust Agreement, the
Standard Terms to National Trust Agreement, the
Remarketing Agreement, and the Continuing
Disclosure Agreement, provide adequate means for
implementation of the Plan pursuant to section
1123(a)(5) of the Bankruptcy Code and, as of the
occurrence of the Effective Date, shall constitute valid
legal obligations of COFINA and the Commonwealth,
as applicable, and valid provisions to pay or secure
payment of the COFINA Bonds pursuant to section

153a
944(b)(3) of the Bankruptcy Code, and be enforceable
in accordance with their terms.
CONCLUSION
For the foregoing reasons, the Court is concurrently
entering its Amended Order Approving Settlement
Between Commonwealth of Puerto Rico and Puerto
Rico Sales Tax Financing Corporation.
Dated: February 5, 2019
/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District
Judge

154a
APPENDIX C
CONSTITUTIONAL PROVISIONS AND STATUTES
INVOLVED
U.S. Constitution, Article III, Section 2, clause 1
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which shall
be made, under their authority;--to all cases affecting
ambassadors, other public ministers and consuls;--to
all cases of admiralty and maritime jurisdiction;--to
controversies to which the United States shall be a
party;--to controversies between two or more states;-between a state and citizens of another state;--between
citizens of different states;--between citizens of the
same state claiming lands under grants of different
states, and between a state, or the citizens thereof, and
foreign states, citizens or subjects.
28 U.S.C. §1291
The courts of appeals (other than the United States
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of the
district courts of the United States, the United States
District Court for the District of the Canal Zone, the
District Court of Guam, and the District Court of the
Virgin Islands, except where a direct review may be
had in the Supreme Court. The jurisdiction of the
United States Court of Appeals for the Federal Circuit
shall be limited to the jurisdiction described in sections
1292(c) and (d) and 1295 of this title.

155a
48 U.S.C. §2166(e)(1) and (e)(2)
(1) An appeal shall be taken in the same manner as
appeals in civil proceedings generally are taken to
the courts of appeals from the district court.
(2) The court of appeals for the circuit in which a case
under this subchapter has venue pursuant to
section 2167 of this title shall have jurisdiction of
appeals from all final decisions, judgments, orders
and decrees entered under this subchapter by the
district court.

